No. _______

In The

Supreme Court of the United States

IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
V.

Petitioners,

UNITED STATES NAVY, ET AL.,
Respondents.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

APPENDIX

Arthur A. Schulcz, Sr.
Chaplains’ Counsel, PLLC
21043 Honeycreeper Pl.
Leesburg, Virginia 20175
(703) 645-4010
art@chaplainscounsel.com
Counsel of Record
for Petitioners
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond VA 23219 (800) 847-0477

TABLE OF CONTENTS

Page

Opinion of the U.S. Court of Appeals for the District of
Columbia Circuit in 19-5204, filed 11/6/20 ....................................................... A1
Opinion of the U.S. District Court of the District of Columbia,
filed 8/30/19 ........................................................................................................ A6
Opinion of the U.S. Court of Appeals for the District of
Columbia Circuit in 13-5071, filed 12/27/13 ................................................... A51
Order of the U.S. Court of Appeals for the District of
Columbia Circuit in 13-5071, filed 2/24/14 ..................................................... A62
Opinion of the U.S. District Court of the District of Columbia,
filed 2/28/13 ...................................................................................................... A63
Order of the U.S. Court of Appeals for the District of
Columbia Circuit in 12-5027, filed 11/2/12 ..................................................... A92
Order of the U.S. Court of Appeals for the District of
Columbia Circuit in 12-5027, filed 1/3/13 ..................................................... A108
Opinion of the U.S. District Court of the District of Columbia,
filed 1/30/12 .................................................................................................... A110
Order Denying Rehearing of the U.S. Court of Appeals for the
District of Columbia Circuit in 19-5204, filed 1/15/21 ................................. A128
Opinion of the U.S. District Court of the District of Columbia in
Adair v. Winter, filed 9/11/06 ........................................................................ A129
Constitutional, Statutory and Regulatory Provisions ................................. A141
Rear Admiral Holderby’s Testimony to Naval Inspector General re:
FY 97& 98 Chaplain Commander Boards .................................................... A144
FY 97&98 NIG Testimony of Baptist board member complaining of
denominational preference done very “slickly” to Naval Inspector
General re: FY 97& 98 Chaplain Commander Boards ................................ A149
i

FY 97& 98 NIG Testimony of a board recorder’s establishing chaplains’
promotions depended on how well a briefer briefed a candidate’s
record to Naval Inspector General (“NIG”) re: FY 97& 98 Chaplain
Commander Boards ....................................................................................... A153
Extracts of Department of Defense Inspector General investigation of
FY 97&98 Chaplain Commander Promotion Boards .................................. A155
Summary of LCDR Daniel Roysden’s Deposition Testimony...................... A165
Chaplain Corps Voting Machine from Navy’s Explanation of Voting
Process ............................................................................................................ A172
RADM Black’s NIG Testimony re: FY 2000 Chaplain Captain Promotion
Board .............................................................................................................. A173
Commander Mary Washburn NIG Testimony re: Her Experience on
Chaplain Promotion Boards .......................................................................... A175
Extract Naval Inspector General Investigation Report re: Alleged
Misconduct by RADM Baker on the FY-2009 Chaplain CAPT
Promotion Board ............................................................................................ A180
Affidavit by CAPT Floyd Ellison, CHC, USN, re: Testimony about FY 97
Catholic Board Member CAPT Ed Anderson ............................................... A184
Declaration of Chaplain Klon Kitchen Jr., re: Testimony of CAPT about
FY 97 Catholic Board Member CAPT Wayne Bumbry................................ A187
Declaration of LCDR Gary Stewart .............................................................. A189
Center for Naval Analysis FY 1972-2000 Faith Group Category
Promotion % ................................................................................................... A190

ii

USCA Case #19-5204

Document #1870026

Filed: 11/06/2020

Page 1 of 5

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5204

September Term, 2020
FILED ON: NOVEMBER 6, 2020

IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
APPELLEES
ASSOCIATED GOSPEL CHURCHES,
APPELLANT
v.
UNITED STATES NAVY, ET AL.,
APPELLEES

Consolidated with 19-5206
Appeals from the United States District Court
for the District of Columbia
(No. 1:07-mc-00269)
Before: SRINIVASAN, Chief Judge, RAO, Circuit Judge, and GINSBURG, Senior Circuit
Judge.
JUDGMENT
The court considered this appeal on the record from the United District Court for the
District of Columbia and on the briefs and oral argument of the parties. The court afforded full
consideration to the issues presented and determined a published opinion is not warranted. See
D.C. Cir. R. 36(d). For the reasons stated below, it is
ORDERED and ADJUDGED that the judgment of the district court expressed in an
opinion and order issued on August 30, 2018 be AFFIRMED. In that opinion the court denied
the Plaintiffs’ motions to lift a discovery stay and to stay summary judgment pending further
discovery. In addition, the district court denied summary judgment for the Plaintiffs and granted

A1

USCA Case #19-5204

Document #1870026

Filed: 11/06/2020

Page 2 of 5

summary judgment for the Navy on the Plaintiffs’ claims that the Navy’s selection board policies
and procedures violate the First and Fifth Amendments to the Constitution of the United States,
and on their claim that 10 U.S.C. § 613a is unconstitutional as applied to the facts of this case.
The Plaintiffs appealed each of these decisions.
Our review of a district court’s decision to grant or deny a motion for summary judgment
is de novo. Capitol Sprinkler Inspection, Inc. v. Guest Servs., 630 F.3d 217, 223-24 (D.C. Cir.
2011). We review a district court’s ruling on discovery matters under the more deferential abuse
of discretion standard. See, e.g., Willoughby v. Potomac Elec. Power Co., 100 F.3d 999, 1003
(D.C. Cir. 1996).
First, the district court did not abuse its discretion in declining to permit further
discovery. Judge Bates inherited this action in late 2017, nearly two decades after it began. By
the time it reached him, the Plaintiffs had taken extensive discovery, including 25 interrogatories,
136 requests for production, and 17 depositions. Between 2002 and 2009, discovery was open
for over five years net of intermittent stays. The district court was surely correct in concluding
the Plaintiffs had had “ample opportunity” to conduct discovery. See Fed. R. Civ. P.
26(b)(2)(C)(ii).
Second, the district court was right to reject the Plaintiffs’ most recent attempt to evade
the statute that prohibits discovery of selection board proceedings. On appeal, the Plaintiffs have
still “advanced no coherent theory” to explain their assertion that the statute violates the
Constitution simply because discovery of board proceedings might help the Plaintiffs’ case. In
re Navy Chaplaincy 323 F. Supp. 3d 25, 51 (D.D.C. 2018) (quoting Adair v. Winter, 451 F.
Supp. 2d 210, 220 (D.D.C. 2006)).
Third, the district court made no mistake in granting summary judgment for the Navy on
the Plaintiffs’ various First Amendment 1 challenges to its selection board policies. See
Chaplaincy, 323 F. Supp. 3d at 35-36, 55-56. With regard to the claims that certain selection
board policies violated the Establishment Clause, the Plaintiffs had to show each policy had an
unconstitutional effect; that is, the Plaintiffs had to show “the selection policies appear[ed] to
endorse religion in the eyes of a reasonable observer.” In re Navy Chaplaincy, 738 F.3d 425,
430 (D.C. Cir. 2013) (emphasis and internal quotation marks omitted). To prove an endorsement
with statistics, the Plaintiffs had to show a stark disparity in outcomes during the relevant period,
id. at 431, but the statistics they offered came nowhere close to doing so. The Plaintiffs’
alternative argument, an analogy to Larkin v. Grendel’s Den, Inc., 459 U.S. 116 (1982), is
foreclosed by the law of the case. See In re Navy Chaplaincy, 697 F.3d 1171, 1179 (D.C. Cir.
2012).
It is
1

The Plaintiffs do not press their Fifth Amendment challenges on appeal.

2

A2

USCA Case #19-5204

Document #1870026

Filed: 11/06/2020

Page 3 of 5

FURTHER ORDERED and ADJUDGED that the district court’s opinion and order
dismissing for lack of standing appellant Associated Gospel Churches’ (AGC’s) claim
challenging the Navy’s alleged policy of recruiting chaplains without regard to the Navy’s “free
exercise needs” be REVERSED in relevant part, and that this claim be REMANDED to the
district court for further consideration.
AGC, a chaplain endorsing agency, joined this action in its own right and as a
representative of its members to challenge various aspects of the Navy’s policies and procedures
for accessing and promoting chaplains. In February 2015, the Navy moved to dismiss AGC’s
challenges to its accession policies for lack of standing. AGC implicitly conceded it lacked
standing to pursue most of its accession claims, but argued it had both organizational and
representational standing to attack the Navy’s alleged policy of setting chaplain accession goals
that do not correspond to the “free exercise needs” (i.e., religious demographics) of the Navy. In
2016, the district court held AGC did not have organizational or representational standing to
pursue this claim. In re Navy Chaplaincy, 170 F. Supp. 3d 21, 31-33. Later that year, AGC
abandoned its remaining claims and asked the district court to dismiss AGC from the action so it
could join a Rule 54(b) motion some of the Plaintiffs planned to file.
On appeal, AGC argues it has standing in its own right to challenge the Navy’s faithneutral accession goals. 2 We agree. AGC alleged the Navy’s accession goals resulted in AGC’s
chaplain candidates entering the Navy at a significantly lower rate than they otherwise would
have. AGC further alleged, because it relies upon its chaplains for financial support, it loses
money when its ability to find placements for its candidates is hindered. AGC also alleged its
low rate of success placing candidates in the Navy tarnished its reputation. These allegations
satisfy all three elements of standing. We express no opinion on the sufficiency of the
allegations in any other respect. The claim will be remanded to the district court for further
proceedings.
It is
FURTHER ORDERED and ADJUDGED that the district court’s order holding certain
Plaintiffs’ claims untimely under 28 U.S.C. § 2401(a) be VACATED in relevant part and these
claims be REMANDED to the district court for consideration whether equitable tolling applies
to any or all of these claims under a theory of fraudulent concealment.
In 2014, the district court granted summary judgment for the Navy on each claim based
upon policies or personnel actions finalized more than six years before the filing of the
AGC forfeited any argument for standing on behalf of its members by failing to develop it beyond a
conclusory recitation of elements. See Gov’t of Manitoba v. Bernhardt, 923 F.3d 173, 179 (D.C. Cir.
2019) (“A party forfeits an argument by mentioning it only in the most skeletal way” (quotation
omitted)).

2

3

A3

USCA Case #19-5204

Document #1870026

Filed: 11/06/2020

Page 4 of 5

respective suit. Twenty-three Plaintiffs were dismissed from the action as a result.
The Plaintiffs had argued the statute of limitations should be equitably tolled because the
Navy fraudulently concealed its alleged misconduct. The district court rejected this argument
pursuant to then-controlling precedent holding the statute of limitations in 28 U.S.C. § 2401(a) is
jurisdictional, and therefore not subject to equitable tolling. See, e.g., Mendoza v. Perez, 754
F.3d 1002, 1018 (D.C. Cir. 2014) (“We have long held § 2401(a) creates a jurisdictional
condition attached to the government’s waiver of sovereign immunity”) (cleaned up); P & V
Enters. V. U.S. Army Corps of Eng’rs, 516 F.3d 1021, 1026 (D.C. Cir. 2008) (applying this rule).
Shortly thereafter, however, the Supreme Court held equitable tolling is available under §
2401(b), calling our view of § 2401(a) into doubt. United States v. Kwai Fun Wong, 575 U.S.
402 (2015). The Plaintiffs moved for reconsideration, which was denied, as the district court
correctly stated it “remain[ed] bound by Circuit precedent as it currently” stood. While this case
was on appeal, this court overturned our precedent on § 2401(a). Jackson v. Modly, 949 F.3d
763, 776-78 (Feb. 14, 2020) (“[W]e hold that § 2401(a)’s time bar is nonjurisdictional and
subject to equitable tolling”).
Constrained by our former interpretation of § 2401(a), the district court never had
occasion to consider the merits of the Plaintiffs’ fraudulent concealment arguments. The Navy
urges us to decide the issue in the first instance. Appellee’s Br. at 24-25 (citing Liff v. Off. of
Inspector Gen., 881 F.3d 912, 919 (D.C. Cir. 2018) (holding the court of appeals may decide
certain “straightforward legal question[s]” not considered by the district court)). We decline this
invitation. Fraudulent concealment is a fact-bound inquiry, entailing questions such as: “Did the
Navy use some trick or contrivance to conceal the alleged discrimination?”; “Were the affected
Plaintiffs on notice of it regardless?”; and “Did the affected Plaintiffs exercise diligence?”. See
Hobson v. Wilson, 737 F.2d 1, 33-36 (D.C. Cir. 1984). On remand, the district court will
determine whether any claims are to be resurrected due to equitable tolling.
It is
FURTHER ORDERED and ADJUDGED that the judgment of the district court
dismissing certain Plaintiffs’ claims that the Government infringed their First Amendment rights
by allowing chaplains to rate other chaplains is AFFIRMED. The district court correctly held
the Plaintiffs did not state a claim on this point because the relevant allegations were speculative
and implausible. Adair v. England, 183 F. Supp. 2d 31, 60-61 (2002). On appeal, the Plaintiffs
construe this holding as resting on an “irrebuttable presumption” that naval officers always act
with regularity. We disagree with the Plaintiffs’ reading.
To state a claim under the Establishment Clause, the Plaintiffs had to allege either that the
policy failed under Larson v. Valente, 456 U.S. 228 (1982), in that it granted a denominational
preference without narrow tailoring to serve a compelling government interest, or that the policy
failed under the three part test of Lemon v. Kurtzmann, 403 U.S. 602 (1971) (holding a law
4

A4

USCA Case #19-5204

Document #1870026

Filed: 11/06/2020

Page 5 of 5

violates the Establishment Clause if its (1) purpose or (2) effect favors a religion, or it creates (3)
excessive entanglement between Government and religion). See Adair, 183 F. Supp. 2d at 4749. Allowing chaplains to sit on chaplain selection boards does not create a de jure
denominational preference and does not create excessive entanglement. The purpose of the
policy is innocuous: “Staff corps promotion boards have been traditionally composed of officers
who are members of the same staff corps” because “those in the same profession are more
qualified to evaluate others in their profession.” Id. at 61 (quoting Emory v. Secretary of the
Navy, 708 F. Supp. 1335, 1339 (D.D.C. 1989)) (cleaned up). All that is left is discriminatory
effect, but to believe this policy has a discriminatory effect would require the court to “believe
that the usual rule for a chaplain sitting on a promotion board will be to discriminate.” Id. at 60.
The district court rightly found this conclusion implausible, especially given the Plaintiffs had
only “highly speculative” allegations to support it. Id. at 60-61.
The Clerk is directed to withhold issuance of the mandate until seven days after
resolution of any timely petition for rehearing or rehearing en banc. See Fed. R. App. P. 41(b);
D.C. Cir. R. 41(b).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

5

A5

/s/
Daniel J. Reidy
Deputy Clerk

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 1 of 45

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

IN RE: NAVY CHAPLAINCY

Misc. Case No. 07-269 (JDB)

MEMORANDUM OPINION
More than a decade ago, these consolidated cases were brought by a group of Protestant
U.S. Navy chaplains who allege that the Navy has discriminated against them in various ways
because of their faith. Though plaintiffs’ consolidated complaint runs over one hundred pages and
asserts eighteen separate counts, prior rulings in this case have whittled their claims down to nine,
six of which are currently before the Court on cross-motions for summary judgment. Each of these
claims relates to the so-called “selection boards” that the Navy uses to select chaplains (and all
other commissioned officers) for promotion and, in some cases, for involuntary retirement.
Plaintiffs’ primary claim is that, until 2002, the Navy maintained an unconstitutional policy
of placing at least one Roman Catholic chaplain on every selection board, which resulted in
Catholic chaplains being promoted at a disproportionately high rate compared to other religious
groups. Plaintiffs also challenge a host of other allegedly unconstitutional selection-board policies
and procedures—some of which, plaintiffs claim, continue to this day. Finally, plaintiffs challenge
a statute that privileges selection-board deliberations from disclosure in litigation, arguing that it
is unconstitutional as applied to their case because it denies them access to information that they
need to prove their constitutional claims. To redress these wrongs, plaintiffs—each of whom was
either passed over for promotion or selected for early retirement by a board that was allegedly
tainted by one or more of the challenged procedures—seek an order directing the Navy to reinstate
them to active duty, if necessary, and to convene new, properly constituted selection boards to

A6

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 2 of 45

reconsider the personnel actions taken against them. Alternatively, plaintiffs ask the Court to
permit them to take further discovery to prove their claims.
To a considerable extent, the result in this case is dictated by prior rulings of both the D.C.
Circuit and this Court. The legal standards applicable to plaintiffs’ challenges to the selectionboard policies and procedures were laid out several years ago by the D.C. Circuit in this very
litigation. Consequently, there is little left to do here but to apply those standards to the evidence
adduced by the parties on summary judgment—which, as explained below, does not even come
close to showing the degree of discrimination required for plaintiffs’ challenges to succeed.
Likewise, this Court has already twice considered and twice rejected plaintiffs’ constitutional
challenge to the statutory privilege for selection-board proceedings, and plaintiffs offer no
persuasive reason to reach a different conclusion this time around. Plaintiffs’ motions for summary
judgment as to these claims will therefore be denied, and the Navy’s will be granted. Finally,
because plaintiffs have had ample opportunity to conduct discovery previously in this litigation,
and because they would be unlikely to prevail on their claims even if they were permitted to take
further discovery, plaintiffs’ requests for additional discovery will be denied.
BACKGROUND
I.

THE NAVY CHAPLAIN CORPS
The Navy employs a corps of over 800 chaplains to serve the religious needs of service

members deployed across the United States and throughout the world. In re England, 375 F.3d
1169, 1171 (D.C. Cir. 2004). In addition to performing religious services, Navy chaplains provide
service members with counseling and ethics instruction, and they sometimes advise naval officers
on the moral and ethical implications of their decisions. Id. Chaplains have performed these and
other important functions aboard U.S. Navy ships since the Founding. Id.

2

A7

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 3 of 45

Plaintiffs are thirty-nine Protestant chaplains who belong to denominations that the Navy
categorizes as “non-liturgical” because their services do not follow a set liturgy (that is, a
prescribed order of worship). Id. at 1172. Protestant denominations falling within this category
include Baptism, Evangelicalism, and Pentecostalism; conversely, “liturgical” denominations
include Methodism, Lutheranism, and Presbyterianism. Id. At all times relevant to this litigation,
for administrative purposes, the Navy treated liturgical Protestants, non-liturgical Protestants, and
Roman Catholics as three distinct “faith group categories”; a fourth and final category, “Special
Worship,” included all other Christian denominations, as well as all other religions. Id. The Navy
used these faith group categories to document service members’ religious needs and to ensure that
those needs were being met.
Although chaplains’ religious role within the Navy is unique, chaplains progress through
the Navy’s promotion system in the same manner as all other commissioned officers. See, e.g.,
10 U.S.C. § 624 (describing the promotion process); id. § 638 (providing for the involuntary
“selective early retirement” of an officer who has been considered but not selected for a promotion
either a certain number of times or after a certain number of years, depending on the officer’s
rank). To be promoted to the next rank, a chaplain must be recommended by a “selection board.”
10 U.S.C. § 611(a). That board must consist of at least five officers, all of whom must rank higher
than the candidates under consideration, id. § 612(a)(1), and at least one of whom must be a
chaplain, id. § 612(a)(2)(A); see In re England, 375 F.3d at 1172 (“[I]f a selection board is
considering chaplains, at least one board member must be a chaplain.”). The same requirements
apply to a board convened to select chaplains for early retirement. See 10 U.S.C. § 611(b).

3

A8

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 4 of 45

The convening of selection boards is further governed by Navy regulations. See id. §
611(c). 1 Initially, during the time frame relevant here, Navy regulations required that each
chaplain selection board consist of “five or more” officers, at least one of whom was not a chaplain.
SECNAVINST 1401.3, Encl. 1 ¶ 1(c)(1). The Navy would then seek to fill the remaining seats,
to the extent practicable, with “a mix of qualified and available chaplains from the different Faith
Group Categories.” See Decl. of Captain Stephen B. Rock (“Rock Decl.”) [ECF No. 281-2] ¶ 8.
Beginning in 2003, however, the Secretary of the Navy directed that chaplain selection boards be
composed of five non-chaplain officers and two chaplains. See Decl. of Commander James
Francis Buckley (“Buckley Decl.”) [ECF No. 281-23] ¶ 3. Then, in 2005, the Navy formally
amended its regulations to require that “Chaplain Corps boards shall include five [non-chaplain]
officers as members, and two members from the Chaplain Corps.” SECNAVINST 1401.3A, encl.
1 ¶ 1(c)(1)(f).
Statutory and regulatory requirements also prohibit unlawful discrimination by selection
boards (or by those tasked with convening them). For example, by statute, selection board
members must swear an oath to fulfill their duties “without prejudice or partiality and having in
view both the special fitness of officers and the efficiency of [the Navy].” 10 U.S.C. § 613. Navy
regulations further provide that “[e]xclusion from board membership by reason of gender, race,
ethnic origin, or religious affiliation is prohibited.” SECNAVINST 1401.3 ¶ 4(a); SECNAVINST
1401.3A ¶ 4(a). They also specifically state that members of chaplain selection boards “shall be
nominated without regard to religious affiliation.” SECNAVINST 1401.3, encl. 1 ¶ (1)(c)(1)(e);

1

The Navy refers to its regulations as “Instructions” from the Secretary of the Navy, abbreviated as
“SECNAVINST.” The Instructions at issue here are SECNAVINST 1401.3, see Ex. 3 to Def.’s Opp’n to Pls.’ Mot.
for Summ. J. and Cross-Mot. for Summ. J. (“SECNAVIST 1401.3”) [ECF No. 281-3], which was promulgated in
December 1989, and SECNAVINST 1401.3A, which superseded SECNAVINST 1401.3 in December 2005, see Ex.
5 to Def.’s Opp’n to Pls.’ Mot. for Summ. J. and Cross-Mot. for Summ. J. (“SECNAVIST 140.3A”) [ECF No. 3175]. Both instructions contain three “enclosures,” the first of which sets out further provisions applicable to the Navy’s
selection boards.

4

A9

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 5 of 45

SECNAVINST 1401.3A, encl. 1 ¶ (1)(c)(1)(f).

Similarly, during the relevant time period,

“precepts” addressed to individual selection boards instructed those boards to “ensure that officers
are not disadvantaged because of their race, creed, color, gender, or national origin.” See, e.g.,
Precept Convening FY-02 Promotion Selection Board [ECF Nos. 281-20] at C-1.
II.

PROCEDURAL HISTORY
The plaintiffs in this consolidated litigation are a group of non-liturgical Protestant

chaplains who claim that they were either denied a promotion or selected for early retirement
because of their religious affiliation. See generally Consolidated Compl. (“Compl.”) [ECF No.
134] add. A. Over its nearly twenty-year life span, plaintiffs’ case has been before the D.C. Circuit
at least five times, seen the retirement of two district judges, and generated over a thousand pages
of briefing on dispositive motions. Its history is nothing if not complex.
A.

Church of Full Gospel Chaplains v. Danzig and Adair v. Winter

The first two of the three cases consolidated in this action were filed in this district in 1999
and 2000, see Chaplaincy of Full Gospel Churches v. Danzig (“CFGC”), Civil Action No. 99-2945
(D.D.C. filed Nov. 5, 1999); Adair v. Winter, Civil Action No. 00-566 (D.D.C. filed Mar. 17,
2000), and later consolidated before Judge Ricardo Urbina. The plaintiffs—many of whom remain
in the litigation to this day—asserted constitutional claims related to the hiring, promotion, and
retention of chaplains, see Adair v. England, 183 F. Supp. 2d 31, 55–63 (D.D.C. 2002); the
treatment of non-liturgical Protestants within the chaplaincy, see id. at 63–67; and individual
alleged instances of constructive discharge and retaliation, see id. at 67. The Navy moved to
dismiss their claims for lack of jurisdiction and failure to state a claim, but Judge Urbina denied
the motion as to most claims. See id. at 68. Judge Urbina later granted the plaintiffs’ motion for
class certification, see Adair v. England, 209 F.R.D. 5, 13 (D.D.C. 2002), and the cases proceeded

5

A10

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 6 of 45

to discovery, see Aug. 27, 2002 Order, CFGC, ECF No. 119; Aug. 27, 2002 Order, Adair, ECF
No. 72.
Soon thereafter, a dispute arose over plaintiffs’ request to depose members of prior
chaplain selection boards. At the time, a federal statute provided that, “[e]xcept as authorized or
required by this section, proceedings of a selection board convened under [10 U.S.C. §] 611(a)”—
that is, selection boards for promotions but not for early retirement—“may not be disclosed to any
person not a member of the board.” 10 U.S.C. § 618(f). Nevertheless, Judge Urbina granted the
plaintiffs’ motion, concluding that § 618(f) did not apply in litigation because it “does not contain
specific language barring discovery” and “because of the circuit’s emphasis on providing litigants
full access to relevant information.” Chaplaincy of Full Gospel Churches v. Johnson, 217 F.R.D.
250, 260 (D.D.C. 2003). 2
The Navy appealed, and the D.C. Circuit reversed, explaining that “[d]isclosure of
selection board proceedings in civil discovery would certainly undermine, if not totally frustrate,
the purpose of Section 618(f).” In re England, 375 F.3d at 1178. The D.C. Circuit also rejected
plaintiffs’ reliance on the Supreme Court’s statement in Webster v. Doe that “where Congress
intends to preclude judicial review of constitutional claims its intent to do so must be clear,” 486
U.S. 592, 603 (1988), explaining that here, plaintiffs “remain free to litigate their discrimination
claims and to support them with other evidence.” Id. at 1180 n.2. Hence, the court concluded,

2
While plaintiffs’ motion to compel was pending before Judge Urbina, plaintiffs filed a motion for a
preliminary injunction that “would, among other things, ‘require the Navy to separate immediately those chaplains it
has allowed to continue on active duty beyond age 60,’” which plaintiffs sought in light of the Navy’s allegedly “‘well
established practice of allowing Catholic . . . chaplains, and only Catholic chaplains,’ to remain on active duty beyond
mandatory separation age limits.” Chaplaincy of Full Gospel Churches v. England, 454 F.3d 290, 296 (D.C. Cir.
2006) (citation omitted). Judge Urbina denied this motion, concluding only that plaintiffs had failed to demonstrate
irreparable injury, but the D.C. Circuit reversed, concluding that “the Navy’s alleged violation of the Establishment
Clause per se constitutes irreparable harm.” See id. at 296, 299. On remand, the district court ruled that plaintiffs
lacked standing, and this time the D.C. Circuit affirmed, noting that “plaintiffs have conceded that they themselves
did not suffer . . . discrimination” but rather argued that “other chaplains” did. In re Navy Chaplaincy, 534 F.3d 756,
758 (D.C. Cir. 2008), aff’g 516 F. Supp. 2d 119 (D.D.C. 2007).

6

A11

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 7 of 45

§ 618(f) “applies to block civil discovery of promotion selection board proceedings in civil
litigation.” Id. at 1181 (emphasis added). But because the statutory language referred only to
“section 611(a)” of Title 10, which governs the convening of promotion boards, while the
convening of selective early retirement boards is governed by § 611(b) of that title, the D.C. Circuit
remanded for the district court to consider in the first instance whether § 618(f) applied to the
proceedings of selective early retirement boards. Id. at 1181–82.
On remand, plaintiffs argued not only that § 618(f) was inapplicable to selective early
retirement boards, as the D.C. Circuit had suggested, but also that it was unconstitutional as applied
to their discovery requests for promotion board proceedings, because it deprived them of evidence
that they needed to prove their constitutional claims. Judge Urbina agreed with plaintiffs as to the
first point, see Adair v. Winter, 451 F. Supp. 2d 202, 206 (D.D.C. 2006) (allowing discovery of
selective early retirement board proceedings), but not the second, see Adair v. Winter, 451 F. Supp.
2d 210, 212 (D.D.C. 2006) (barring discovery of promotion board proceedings). In his view,
§ 618(f) was constitutional as applied to plaintiffs both because promotion board proceedings were
not essential to their claims, see id. at 217–19, and because in any case there was no “constitutional
right of access to evidence essential to establishing constitutional claims,” id. at 220.
A little more than a month after Judge Urbina’s rulings, Congress enacted the John Warner
National Defense Authorization Act, Pub. L. No. 109-364, § 547(a)(2), 120 Stat. 2083, 2216
(2006), which repealed § 618(f) and replaced it with 10 U.S.C. § 613a. Section 613a clarified that
“[t]he proceedings of a selection board convened under section . . . 611 . . . of this title may not be
disclosed to any person not a member of the board”; by its terms, therefore, the new statute applied
to selective early retirement boards. Moreover, § 613a explicitly states that:
The discussions and deliberations of a selection board . . . and any written or
documentary record of such discussions and deliberations—(1) are immune from
7

A12

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 8 of 45

legal process; (2) may not be admitted as evidence; and (3) may not be used for any
purpose in any action, suit, or judicial or administrative proceeding without the
consent of the Secretary of the military department concerned.
10 U.S.C. § 613a(b). The statute also specifies that it “applies to all selection boards . . . regardless
of the date on which the board was convened.” Id. § 613a(c). Following the enactment of § 613a,
Judge Urbina granted the Navy’s motion for reconsideration of his decision allowing discovery of
selection-board proceedings, concluding that those materials were no longer discoverable. See In
re Navy Chaplaincy, 512 F. Supp. 2d 58, 61 (D.D.C. 2007).
B.

Gibson v. United States Navy and In re Navy Chaplaincy

Earlier in 2006, following what the Navy called a series of “tactical defeats” suffered by
plaintiffs in CFGC and Adair, 3 a third case was filed in the Northern District of Florida. See
Gibson v. U.S. Navy, Civil Action No. 3:06-187 (N.D. Fla. filed Apr. 28, 2006). The Gibson
plaintiffs—again, a group of non-liturgical Protestant chaplains—were represented by the same
counsel as the plaintiffs in Adair and CFGC and, according to the Navy, asserted “nearly identical”
claims. Aug. 17, 2006 Order at 2, Gibson, ECF No. 33. The Navy successfully moved to transfer
Gibson to this Court, see Order, Gibson v. U.S. Navy, Civil Action No. 06-1696 (D.D.C. Sep. 29,
2006), ECF No. 1, and proceedings were later stayed pending the Navy’s motion to consolidate
the case with Adair and CFGC and a series of appeals related to the Northern District of Florida’s
transfer order. See Nov. 7, 2006 Min. Order, Gibson (imposing stay); July 3, 2008 Min. Order, In
re Navy Chaplaincy (lifting stay). In 2007, the three cases were consolidated and captioned In re
Navy Chaplaincy. See June 18, 2007 Mem. Order at 4, Gibson, ECF No. 11 at 4–5.

3
Order at 2, Gibson v. U.S. Navy, Civil Action No. 3:06-187 (N.D. Fla. Aug. 17, 2006), ECF No. 33.
According to the Navy, see id., these included the D.C. Circuit’s affirmance of Judge Urbina’s denial of plaintiffs’
motion for a temporary restraining order (which would have barred the Navy from discharging a single plaintiff) and
its denial of plaintiffs’ request to assign the case to a new district judge. See Adair v. Holderby, No. 06-5074 (D.C.
Cir. Apr. 20, 2006) (per curiam) (unpublished), aff’g Adair v. England, 417 F. Supp. 2d 1 (D.D.C. 2006).

8

A13

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 9 of 45

In late 2008 and early 2009, once the appeals related to Gibson’s transfer were resolved,
the parties filed a series of dispositive motions in the newly consolidated cases. While the briefing
on these motions was pending, plaintiffs served a new set of discovery requests, which prompted
the Navy to request a stay of discovery pending the resolution of the motions. The Court granted
this request “informally” in July 2009. See Mem. of P & A in Opp’n to Pls.’ Mot. to Lift Disc.
Stay (“Navy’s Disc. Opp’n”) [ECF No. 263] at 9; Case Mgmt. Order #1 at 3 [ECF No. 124].
In 2011, while briefing on the dispositive motions was still pending, plaintiffs moved for a
preliminary injunction prohibiting the Navy from implementing three selection-board procedures:
“(1) staffing the seven-member selection boards with two chaplains, (2) enabling members to keep
their votes secret . . . , and (3) allowing the Chief of Chaplains or his deputy to serve as the
selection board president.” In re Navy Chaplaincy, 738 F.3d 425, 427 (D.C. Cir. 2013); see Pls.’
Mot. for Prelim. Inj. [ECF No. 95]. Judge Urbina denied plaintiffs’ motion in January 2012,
concluding that plaintiffs lacked standing and that, in any case, they were unlikely to succeed on
the merits of their claims. See Jan. 30, 2012 Mem. Op. [ECF No. 108] at 8–12. On appeal, the
D.C. Circuit reversed Judge Urbina’s determination that plaintiffs lacked standing and remanded
for clarification as to whether the district court viewed the insufficiency of the chaplains’ claims
to be “legal or factual.” See In re Navy Chaplaincy, 697 F.3d 1171, 1173, 1180 (D.C. Cir. 2012).
On remand, the district court (now Judge Gladys Kessler, see infra) again denied plaintiffs’ motion,
explaining that plaintiffs’ constitutional claims were unlikely to succeed on the merits because
plaintiffs had provided no “evidence demonstrating that Defendants intentionally discriminated
against them.” In re Navy Chaplaincy, 928 F. Supp. 2d 26, 33–37 (D.D.C. 2013). This time, the
D.C. Circuit affirmed. See In re Navy Chaplaincy, 738 F.3d at 428.

9

A14

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 10 of 45

In early 2012, while plaintiffs’ appeal of the preliminary injunction ruling was still pending,
Judge Urbina resolved one of the dispositive motions that was then pending in the underlying case,
see In re Navy Chaplaincy, 850 F. Supp. 2d 86, 105–117 (D.D.C. 2012) (granting in part and
denying in part the Navy’s 2008 motion to dismiss on exhaustion, standing, and mootness grounds
and for failure to state a claim), and retired soon thereafter. The case was then reassigned to Judge
Gladys Kessler.
C.

Proceedings Before Judge Kessler

In July 2012, Judge Kessler entered a comprehensive case management order. See Case
Mgmt. Order #1. Among other things, the order: (1) directed plaintiffs to file a new, consolidated
complaint, see id. at 2; (2) continued the discovery stay, see id. at 3, apparently based on the Navy’s
representation that it intended to file a motion to dismiss on jurisdictional grounds, see Pls.’ Mot.
to Lift the Current Disc. Stay for All Remaining Claims (“Pls.’ Disc. Mot.”) [ECF No. 255]at 5;
and (3) directed the parties to file motions on class certification and statute-of-limitations issues,
see Case Mgmt. Order #1 at 3. Judge Kessler also denied the pending dispositive motions without
prejudice. See July 25, 2012 Minute Order.
Pursuant to Judge Kessler’s case management order, plaintiffs filed a 120-page
consolidated complaint asserting eighteen separate counts, see Compl. at 28–108, 4 and a motion
for class certification, see Pls.’ Mot. for Class Certification [ECF No. 147], and the Navy filed a
motion for partial summary judgment on statute-of-limitations grounds, see Defs.’ Mot. for Partial

4
Judge Kessler would later summarize the claims in the consolidated complaint as follows: (1) a challenge
to the Navy’s use of faith group categories, (2) allegations that the Navy “used religious quotas to apportion chaplain
opportunities among various faith groups,” (3) challenges to various selection-board practices, including the three
practices challenged in their earlier preliminary injunction motion and an additional practice by which “each selection
candidate’s three-digit ‘faith group identifier’ code was prominently displayed throughout the selection board
process,” and (4) claims “relating to a variety of specific instances, many of which date back as far as the 1970s and
1980s, in which they allegedly suffered discrimination and free exercise harm while serving in the Chaplain Corps.”
In re Navy Chaplaincy, 69 F. Supp. 3d 249, 253 (D.D.C. 2014).

10

A15

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 11 of 45

Summ. J. as to Claims that Accrued Outside the Limitations Period [ECF No 159]. Due to a
number of extensions in the briefing schedules on these motions, 5 they were not resolved until
September 2014, when Judge Kessler denied plaintiffs’ motion for class certification, see In re
Navy Chaplaincy, 306 F.R.D. 33, 38 (D.D.C. 2014), and granted defendants’ motion for partial
summary judgment on statute-of-limitations grounds, see In re Navy Chaplaincy, 69 F. Supp. 3d
249, 251 (D.D.C. 2014). Specifically, Judge Kessler concluded that any claim filed “more than
six years after finalization of the policies and personnel actions on which [it was] based” was timebarred. Id. at 256 (citing 28 U.S.C. § 2401(a)). The parties later stipulated that this ruling required
the dismissal of twenty-three of the sixty-five individual plaintiffs then in the action, all of whose
alleged adverse personnel actions had taken place prior to the applicable six-year statute of
limitations cutoff (1993 for the CFGC plaintiffs, 1994 for the Adair plaintiffs, and 2000 for the
Gibson plaintiffs). See Status Report [ECF No. 199] at 2 n.1, 4–5. The Court later held that one
additional plaintiff, Thomas Rush, fell outside the statute-of-limitations period for similar reasons.
See In re Navy Chaplaincy, 170 F. Supp. 3d 21, 44 (D.D.C. 2016).
In early 2015, the Navy filed another motion to dismiss, this time on standing and other
jurisdictional grounds. See Defs.’ Mot. to Dismiss on Jurisdictional Grounds [ECF No. 217].
Judge Kessler granted that motion in part and denied it in part in early 2016. See In re Navy
Chaplaincy, 170 F. Supp. 3d at 27, 31–46. Specifically, Judge Kessler dismissed: (1) ten distinct
claims related to “several of the Navy’s alleged policies or practices relating to accession,
personnel management, promotions, and career transition,” id. at 31; (2) claims alleging a “culture

5
During this period, the parties litigated a dispute over the scope of an exception to the discovery stay that
allowed either party to depose “any individuals whose testimony may well be subject to loss if not taken in the very
near future,” Case Mgmt. Order #1 at 3; see Nov. 29, 2012 Mem. Op. [ECF No. 146] (resolving the dispute in late
2012). The parties were also engaged in litigation over plaintiffs’ preliminary injunction motion, which was finally
resolved by the D.C. Circuit in December 2013. See In re Navy Chaplaincy, 738 F.3d at 428.

11

A16

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 12 of 45

of bias and hostility toward Non-liturgical chaplains,” id. at 39; (3) other “claims alleging ad hoc
actions against certain Plaintiffs,” except for one claim alleging interference with prayer, id. at 40,
44; and (4) certain other individual claims that fell outside the limitations period, see id. at 44–46.
The order accompanying Judge Kessler’s opinion detailed the nine claims in the consolidated
complaint that survived dismissal on jurisdictional and statute-of-limitations grounds:
1. Plaintiffs’ challenge to the alleged policy of staffing one Roman Catholic chaplain on each
promotion board since November 5, 1993 [six years before CFGC, the earliest of the three
consolidated cases, was filed], set forth in Counts 2 and 4;
2. Plaintiffs’ challenge to the inclusion of the Chief of Chaplains as president of certain
promotion boards since November 5, 1993, set forth in Count 4;
3. Plaintiffs’ challenge to the use of procedures employed by promotion boards since
November 5, 1993, set forth in Counts 2 and 4;
4. Plaintiffs’ challenge to the use of procedures employed by Selective Early Retirement
(“SER”) boards since November 5, 1993, set forth in Counts 2 and 4;
5. Plaintiffs’ constitutional challenge to 10 U.S.C. § 613(a), set forth in Count 16;
6. Plaintiffs’ claims under the Religious Freedom Restoration Act, 42 U.S.C. § 2000-bb et
seq., set forth in Count 14;
7. Plaintiffs’ challenge to the alleged constructive discharge of certain Plaintiffs since
November 5, 1993, set forth in Count 11;
8. Plaintiffs’ challenge to alleged retaliation against certain Plaintiffs since November 5,
1993, set forth in Count 12;
9. Plaintiffs’ challenge to alleged instances of interference with the form of prayer of certain
Plaintiffs since November 5, 1993, set forth in Count 9.
March 16, 2016 Order at 4–5 [ECF No. 238].
In November 2016, following a status conference at which plaintiffs asked that the
discovery stay be lifted, the Court entered a scheduling order dividing plaintiffs’ remaining claims
into three groups and continuing the stay. See Nov. 18, 2016 Order [ECF No. 246]. The Court’s
order directed that, of the nine claims listed in its March 16, 2016 order, the first six would be
addressed through summary judgment briefing, with the remaining three to be addressed
thereafter. See Pls.’ Proposal to Move the Case Forward [ECF No. 245] at 4. 6 Thus, the Court

6
In its separate case management proposal, the Navy indicated an intent to move to sever the remaining
individual claims from the consolidated litigation, explaining that “[t]hese claims are inherently fact-specific, and

12

A17

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 13 of 45

ordered three rounds of summary judgment briefing: first, as to the constitutionality of 10 U.S.C.
§ 613a as applied to plaintiffs in this litigation (“Claim 1”); 7 second, as to the Navy’s alleged
policy of placing one Roman Catholic chaplain on every chaplain selection board convened before
late 2002, when the Navy began staffing the boards with only two chaplains (“Claim 2”); 8 and
third, as to plaintiffs’ remaining challenges to selection-board procedures, as well as their parallel
challenges under the Religious Freedom Restoration Act (“RFRA”), 42 U.S.C. §§ 2000bb–1 to –
4 (“Claim 3”). 9 See Nov. 18, 2016 Order at 1–2; Pls.’ Proposal to Move the Case Forward at 3–
4. The Court also continued the existing discovery stay. See Nov. 18, 2016 Order at 2.
Plaintiffs then filed a memorandum explaining their need for further discovery, see Pls.’
Mem. Supporting Limited Disc. [ECF No. 247], but the Court ordered the parties to adhere to its
November 2016 schedule, noting that plaintiffs had not requested relief by motion, see Jan. 10,
2017 Order [ECF No. 253]. Plaintiffs then filed a motion to lift the discovery stay in March 2017.
See Pls.’ Disc. Mot. Later that year, plaintiffs filed another motion—styled as a motion under
Federal Rule of Civil Procedure 56(d)—to stay summary judgment briefing until the discovery
stay was lifted. See Pls.[’] Rule 56(d) Mot. [ECF No. 292]. Both motions are currently pending.

litigating them in consolidated fashion would impose unnecessary and counter- productive burden, expense, and delay
on the parties and the Court.” Def.’s Updated Case Mgmt. Proposal [ECF No. 244] at 7.
7
See Pls.’ Mot. for (1) Summ. J. that 10 U.S.C. § 613(a) [sic] is Unconstitutional as Applied to Pls.’
Establishment and Due Process Claims and (2) an Order Directing the Sec’y to Release Selection Bd. Members from
their Oath of Secrecy (“Pls.’ Claim 1 MSJ”) [ECF No. 254]; Def.’s Opp’n to Pls.’ Mot. for Summ. J and Cross-Mot.
for Summ. J. (“Navy’s Claim 1 Opp’n”) [ECF No. 260]; Pls.’ Reply Mem. of P. & A. to Def.’s Opp’n (“Pls.’ Claim
1 Reply”) [ECF No. 266]; Pls.’ Opp’n/Resp. to Defs.’ Cross-Mot. for Summ. J. (“Pls.’ Claim 1 Opp’n”) [ECF No.
267]; Reply in Supp. of Def.’s Cross-Mot. for Summ. J. (“Navy’s Claim 1 Reply”) [ECF No. 269].
8
See Pls.’ Mot. for Summ. J. that the Defs.’ Policy of Placing at Least One Roman Catholic Chaplain on
Every Selection Bd. Until the Practice Was Terminated in Fiscal Year 2003 Is Unconstitutional (“Pls.’ Claim 2 MSJ”)
[ECF No. 276]; Def.’s Opp’n to Pls.’ Mot. for Summ. J. and Cross-Mot. for Summ. J. (“Navy’s Claim 2 Opp’n”)
[ECF No. 281]; Pls.’ Mem. in Reply to Defs.’ Opp’n to Pls.’ Summ. J. Mot. (“Pls.’ Claim 2 Reply”) [ECF No. 291];
Pls.’ Opp’n to Def.’s Mot. for Summ. J. (“Pls.’ Claim 2 Opp’n”) [ECF No. 293]; Reply in Supp. of Defs.’ Cross-Mot.
for Summ. J. (“Navy’s Claim 2 Reply”) [ECF No. 298].
9
See Pls.’ Mot. for Summ. J. Concerning Pls.’ Phase III Claims Challenging Defs.’ Selection Bd. Practices
as Unconstitutional (“Pls.’ Claim 3 MSJ”) [ECF No. 313]; Def.’s Opp’n to Pls.’ Mot. for Summ. J. and Cross-Mot.
for Summ. J. (“Navy’s Claim 3 Opp’n”) [ECF No. 317]; Pls.’ Reply Mem. in Supp. of Their Mot. for Summ. J. (“Pls.’
Claim 3 Reply”) [ECF No. 325]; Reply in Supp. of Defs.’ Cross-Mot. for Summ. J. (“Navy’s Claim 3 Reply”) [ECF
No. 330].

13

A18

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 14 of 45

D.

Proceedings Before This Court

In October 2017, while briefing on the parties’ summary judgment and discovery motions
was underway, Judge Kessler retired, and this case was reassigned to the undersigned judge. The
Court later set a hearing on the pending motions and advised the parties that although it “ha[d]
reviewed and taken under advisement [255] plaintiffs’ motion to lift the discovery stay,” it would
“defer ruling on that motion until the motions hearing.” Jan. 11, 2018 Order [ECF No. 302].
Plaintiffs thereafter moved to stay summary judgment briefing on Claim 3 (by then,
briefing on Claims 1 and 2 was complete) pending the Court’s disposition of their motion to lift
the discovery stay and their constitutional challenge to 10 U.S.C. § 613a. See Pls.’ Rule 56(d)
Mot. for a Stay in the Summ. J. Proceedings [ECF No. 303]. The Court denied that motion,
construing it as one for reconsideration of its January 2018 order and explaining that, “instead of
reopening discovery on the eve of scheduled summary judgment briefing, the Court will consider
plaintiffs’ specific discovery requests in the context of their motion for additional discovery under
Federal Rule of Civil Procedure 56(d).” Mar. 1, 2018 Order [ECR No. 310] at 2.
Plaintiffs then petitioned the D.C. Circuit for a writ of mandamus compelling the Court to
stay summary judgment briefing, lift the discovery stay, and address the constitutionality of § 613a,
see Navy Chaplain Pls.’ Pet. for a Writ of Mandamus, In re Navy Chaplaincy, No. 18-5070 (D.C.
Cir. Mar. 14, 2018), but the D.C. Circuit denied the petition, see Order, In re Navy Chaplaincy,
No. 18-5070 (D.C. Cir. July 9, 2018). Plaintiffs thereafter filed a motion to submit additional Rule
56(d) declarations. See Pls.’ Mot. for Leave to File a Suppl. to Their Mot. to Lift the Stay and
Counsel’s Rule 56(d) Decls. (“Pls.’ Mot. to File Decls.”) [ECF No. 328].
A motions hearing was held on July 19, 2018. The pending discovery motions and crossmotions for summary judgment are now fully briefed and ripe for decision.

14

A19

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 15 of 45

LEGAL STANDARD
A party is entitled to summary judgment “if [it] shows that there is no genuine dispute as
to any material fact and [it] is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). “A
fact is ‘material’ if a dispute over it might affect the outcome of a suit under the governing law,”
and “[a]n issue is ‘genuine’ if ‘the evidence is such that a reasonable jury could return a verdict
for the nonmoving party.’” Holcomb v. Powell, 433 F.3d 889, 895 (D.C. Cir. 2006) (quoting
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)). “In determining whether a genuine
issue of material fact exists, the court must view all facts, and draw all reasonable inferences, in
the light most favorable to the party opposing the motion.” Lane v. District of Columbia, 887 F.3d
480, 487 (D.C. Cir. 2018). However, if the movant shows that “there is an absence of evidence to
support the nonmoving party’s case,” judgment should be entered in the movant’s favor. Durant
v. D.C. Gov’t, 875 F.3d 685, 696 (D.C. Cir. 2017) (quoting Celotex Corp. v. Catrett, 477 U.S. 317,
325 (1986)), cert. denied sub nom. Durant v. District of Columbia, 138 S. Ct. 2608 (2018).
Under Federal Rule of Civil Procedure 56(d), “[i]f a nonmovant shows by affidavit or
declaration that, for specified reasons, it cannot present facts essential to justify its opposition” to
a summary judgment motion, “the court may: (1) defer considering the motion or deny it; (2) allow
time to obtain affidavits or declarations or to take discovery; or (3) issue any other appropriate
order.” The purpose of this rule “is to prevent railroading the non-moving party through a
premature motion for summary judgment before [it] has had the opportunity to make full
discovery.” Kakeh v. United Planning Org., Inc., 537 F. Supp. 2d 65, 71 (D.D.C. 2008) (citation
omitted). Thus, although motions under Rule 56(d) “are routinely granted, . . . the rule is not
properly invoked to relieve counsel’s lack of diligence.” Id. (quoting Berkeley v. Home Ins. Co.,
68 F.3d 1409, 1414 (D.C. Cir. 1995)). To prevail on a Rule 56(d) motion, the party opposing

15

A20

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 16 of 45

summary judgment “must (1) ‘outline the particular facts [it] intends to discover and describe why
those facts are necessary to the litigation’; (2) ‘it must explain’ why the nonmoving party could
not produce those facts in opposition to the summary judgment motion; and (3) ‘it must show that
the information is . . . discoverable.’” Moore v. Carson, Civil Action No. 14-2109 (JDB), 2017
WL 1750248, at *5 (D.D.C. May 3, 2017) (quoting Convertino v. U.S. Dep’t of Justice, 684 F.3d
93, 99–100 (D.C. Cir. 2012)).
DISCUSSION
I.

THE NAVY’S SELECTION BOARD POLICIES AND PROCEDURES
Plaintiffs’ central contention in this litigation is that, at various times throughout the 1990s

and early 2000s, several Navy policies governing the staffing and proceedings of chaplain
selection boards favored liturgical Christians (i.e., Roman Catholics and liturgical Protestants) at
the expense of non-liturgical Protestants. Chief among the challenged policies is an alleged
practice of placing at least one Catholic chaplain on every selection board convened before late
2002. See Pls.’ Claim 2 MSJ at 7–9; Compl. ¶¶ 57(e), (g), 88(g), 90. Plaintiffs also challenge
various other procedures governing selection board proceedings, most of which were in place
throughout the entire period relevant to this litigation. See Pls.’ Claim 3 MSJ at 1–2.
Plaintiffs contend that these policies violate the First Amendment’s Establishment Clause,
the Fifth Amendment’s Equal Protection Clause, and RFRA. They seek, among other things, a
declaration that the challenged policies were unlawful, that “all boards using [them]” were “void
ab initio,” and that the Navy must reconsider any adverse action taken against any plaintiff by one
of those boards. Compl. at 111. 10 Plaintiffs also seek an injunction directing the Navy to cease

10
In Dilley v. Alexander, the D.C. Circuit concluded that several plaintiffs who had been denied promotions
by unlawfully constituted military selection boards and later discharged from service were “entitled to be reinstated
to active duty and to be considered anew by two properly constituted promotion selection boards.” 603 F.2d 914, 916

16

A21

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 17 of 45

those challenged policies that are still in place, see id. at 112, to establish a “monitor[ing]” and
“reporting” system for “claims of denominational preference,” id. at 114, and to develop a “fitness
report for chaplains” that is based on “objective performance criteria,” id.
The Navy contends that plaintiffs lack Article III standing to assert these claims. 11 It also
contends that plaintiffs have failed to raise a genuine issue of material fact that the challenged
policies were facially discriminatory or adopted for a discriminatory purpose, as D.C. Circuit
precedent requires. The Navy therefore seeks summary judgment in its favor.
A.

Article III Standing

At an “irreducible constitutional minimum,” Article III’s standing requirement has three
elements:
First . . . is injury-in-fact: A would-be plaintiff must have suffered “an invasion of
a legally protected interest” that is (i) “concrete and particularized” rather than
abstract or generalized, and (ii) “actual or imminent” rather than remote,
speculative, conjectural or hypothetical. Second is causation: The asserted injury
must be “fairly traceable to the challenged action of the defendant.” Third is
redressability: It must be “likely that a favorable decision by the court would redress
the plaintiff’s injury.”
In re Navy Chaplaincy, 534 F.3d 756, 759 (D.C. Cir. 2008) (quoting Lujan v. Defs. of Wildlife,
504 U.S. 555, 560–61 (1992)). On summary judgment, the plaintiff must establish each of these
elements with “specific facts” set out by affidavit or other admissible evidence. United States v.
$17,900 in U.S. Currency, 859 F.3d 1085, 1090 (D.C. Cir. 2017) (quoting Lujan, 504 U.S. at 561).
This showing is required “for each claim [the plaintiff] seeks to press and for each form of relief

(D.C. Cir. 1979), decision clarified, 627 F.2d 407 (D.C. Cir. 1980). The court declined to declare the boards “void
[a]b initio,” however, because such a declaration “would create an untenable situation for the Army with regard to
those officers who actually were promoted” by the selection boards in question. Dilley, 603 F.2d at 921.
11
The Navy presents the Article III standing issue later in its briefs, as something of an afterthought to its
merits discussion. See Navy’s Claim 2 Opp’n at 36–38; Navy’s Claim 3 Opp’n at 40–42. But the Court is not at
liberty to “‘assum[e]’ jurisdiction for the purpose of deciding the merits,” Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 94 (1998), so it will address standing first.

17

A22

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 18 of 45

that is sought.” Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650 (2017) (citation
omitted).
The Navy contends that plaintiffs lack Article III standing because they have failed to
demonstrate that the adverse personnel actions taken against them were the result of the policies
they challenge. On the contrary, the Navy argues, plaintiffs’ own complaint attributes those
actions “to causes entirely independent of the challenged procedures.” Navy’s Claim 3 Opp’n at
41 (pointing to allegations of “manipulation of the assignment process by senior chaplains,”
“manipulation of officer service records by unspecific persons,” “inaccurate or incomplete fitness
reports,” and “retaliation, personal animosity, or ‘blackballing’” (citations omitted)). Moreover,
the Navy claims, even if the plaintiffs’ allegations were sufficient to demonstrate causation,
plaintiffs have failed to cite any evidence substantiating those allegations. See id. 41. Thus,
plaintiffs have failed to carry their burden as to the causation element of standing.
Plaintiffs respond by pointing out—correctly—that “[t]he ‘injury in fact’ in an equal
protection case” alleging unlawful discrimination in a competitive process “is the denial of equal
treatment resulting from the imposition of the barrier, not the ultimate inability to obtain the
benefit.” Pls.’ Claim 3 Reply (quoting Gratz v. Bollinger, 539 U.S. 244, 262 (2003) (citing Ne.
Fla. Chapter of Associated Gen. Contractors of Am. v. City of Jacksonville (“Associated Gen.
Contractors”), 508 U.S. 656, 666 (1993)); see Worth v. Jackson, 451 F.3d 854, 859 (D.C. Cir.
2006) (applying this rule in the employment context). 12 Thus, a plaintiff asserting such a claim
“need only demonstrate that [he or she] is able and ready” to compete “and that a discriminatory

12
Plaintiffs also cite the D.C. Circuit’s 2006 decision in Chaplaincy of Full Gospel Churches for the
proposition that the “unconstitutional preference is in itself a constitutional injury.” Pls.’ Claim 2 Opp’n at 40. But
that case held only that “a party alleging a violation of the Establishment Clause per se satisfies the irreparable injury
requirement of the preliminary injunction calculus,” Chaplaincy of Full Gospel Churches, 454 F.3d at 304 (emphasis
added), and it expressly stated that its conclusion “presupposes, of course, that the party has standing to allege such a
violation,” see id. at 304 n.8. It therefore does not establish that plaintiffs have an injury-in-fact for standing here.

18

A23

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 19 of 45

policy prevents [him or her] from doing so on an equal basis.” Gratz, 539 U.S. at 262 (quoting
Associated Gen. Contractors, 508 U.S. at 666). When a plaintiff alleges such an injury, moreover,
“[i]t follows from [the Supreme Court’s] definition of ‘injury in fact’ that [the plaintiff] has
sufficiently alleged” that the policy “is the ‘cause’ of its injury and that a judicial decree directing
the [government] to discontinue [the policy] would ‘redress’ the injury.” Associated Gen.
Contractors, 508 U.S. at 666 n.5. 13
Properly framed, therefore, the question here is not whether other factors aside from the
allegedly discriminatory policies contributed to plaintiffs’ non-promotions or selections for early
retirement, see Scahill v. District of Columbia, 271 F. Supp. 3d 216, 228 (D.D.C. 2017) (explaining
that “[a] defendant need not be the ‘but-for cause’ of a plaintiff’s injuries” to establish standing),
but rather whether a discriminatory Navy policy prevented plaintiffs from competing in those
processes “on an equal basis,” Gratz, 539 U.S. at 262 (citation omitted); accord Monterey Mech.
Co. v. Wilson, 125 F.3d 702, 707 (9th Cir. 1997) (explaining that the plaintiff in this type of equal
protection case “need not establish that the discriminatory policy caused it to lose” the benefit
sought). Moreover, because courts “must be careful not to decide the questions on the merits”
when evaluating standing, the Court “must assume arguendo that the Navy’s operation of its
[selection boards] favors Catholic chaplains and disfavors non-liturgical Protestant chaplains.” In
re Navy Chaplaincy, 534 F.3d at 760 (citation and internal quotation marks omitted). Thus,
plaintiffs also need not prove that the policies they challenge were discriminatory to establish
standing; rather, all they must show is that each plaintiff received an adverse recommendation
from a selection board that employed (or was convened pursuant to) the challenged policies.

13

At a minimum, this is true of plaintiffs’ equal protection claims. Because plaintiffs’ Establishment Clause
claims allege the same injury—that plaintiffs were discriminated against based on their religion—the Court concludes
that the same theory of Article III standing governs those claims.

19

A24

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 20 of 45

When so clarified, Article III’s standing requirement is easily satisfied in this case. The
Navy does not dispute that each individual plaintiff received an adverse recommendation from a
promotion or selective early retirement board convened when at least some of the challenged
policies were in place. See, e.g., Compl. add. A ¶ 1 (alleging that one plaintiff, Robert H. Adair,
was “selected for early retirement in FY 95”—a fiscal year in which all of the challenged policies
were allegedly in place—“by a Selective Early Retirement Board . . . that selected only Nonliturgical chaplains while allowing Liturgical chaplains with inferior records to continue on active
duty”). This is sufficient to permit the Court to conclude that plaintiffs have standing. See Fed.
R. Civ. P. 56(e) (“If a party fails . . . to properly address another party’s assertion of fact . . . , the
court may . . . consider the fact undisputed for purposes of the motion.”). Indeed, the Court is
mindful that this case has been before three district judges and at least five panels of the D.C.
Circuit—each of which had an independent obligation to determine its own subject-matter
jurisdiction, see Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006)—and that none found standing
to be lacking. The Court explicitly confirms the implicit conclusions of these prior courts that
plaintiffs have standing and turns now to the merits of plaintiffs’ claims. 14
B.

Legal Standards

The D.C. Circuit set out the legal standards that govern plaintiffs’ Establishment Clause
and equal protection claims in a prior decision in this very litigation. See In re Navy Chaplaincy,
738 F.3d at 428–31 (concluding that plaintiffs’ challenges to several of the same selection-board

14

The Court also rejects the Navy’s argument that two plaintiffs lack standing because they have since
received the promotions that they were initially denied. See Navy’s Claim 3 Reply at 22. Because the injury at issue
is not plaintiffs’ failure to be promoted, but rather the alleged unequal treatment by the prior selection boards, see
Gratz, 539 U.S. at 262, the fact that these two plaintiffs were later promoted does not obviate the relevant injury for
standing purposes. Indeed, as the D.C. Circuit has recognized, the remedy for a servicemember who was improperly
not selected for promotion is generally retroactive, and hence these plaintiffs—were they to prevail on the merits—
could be eligible for “back pay, allowances and other benefits of constructive service.” Dilley, 627 F.2d at 408.

20

A25

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 21 of 45

procedures at issue here did not warrant preliminary injunctive relief because they were unlikely
to succeed on the merits). The Court reviews those standards only briefly here.
To evaluate plaintiffs’ equal protection claim, the Court must first determine whether the
challenged selection-board policy “on its face prefers any religious denomination.” Id. at 428. If
it does, then strict scrutiny applies; if it does not, then for strict scrutiny to apply plaintiffs must
show either that the policy was “adopted with discriminatory intent” or that it led to a “pattern of
disparate outcomes from which unconstitutional discriminatory intent could be inferred.” Id. at
429. To imply discriminatory intent on its own, a pattern of disparate outcomes must be “stark,”
id. (quoting Vill. of Arlington Heights v. Metro. Hous. Dev. Corp., 429 U.S. 252, 266 (1977)),
which means that it must be on par with the patterns at issue in two illustrative Supreme Court
cases: one in which the boundaries of a city were altered so as to remove nearly all of its 400
African American voters but not a single white voter, and another in which a city refused to waive
a building ordinance for over 200 Chinese applicants but waived the requirement for all nonChinese applicants except one. See id. at 428–30 (first citing Gomillion v. Lightfoot, 364 U.S.
339, 341 (1960); then citing Yick Wo v. Hopkins, 118 U.S. 356, 359 (1886)). Unless strict scrutiny
applies for one of these three reasons, plaintiffs must demonstrate that “the polic[y] lack[s] a
rational basis.” Id. at 430. Otherwise, their equal protection claim fails.
The Establishment Clause inquiry proceeds along similar lines. The first question is
“whether the law facially differentiates among religions.” Id.; accord Trump v. Hawaii, 138 S. Ct.
2392, 2417 (2018) (“[T]he clearest command of the Establishment Clause is that one religious
denomination cannot be officially preferred over another.” (citing Larson v. Valente, 456 U.S. 228,
246 (1982))). If it does, then strict scrutiny applies; if it does not, then the court “proceed[s] to
apply the customary three-pronged Establishment Clause inquiry derived from Lemon v.

21

A26

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 22 of 45

Kurtzman, 403 U.S. 602 (1971).” In re Navy Chaplaincy, 738 F.3d at 430 (citation omitted).
Under that test, a law or policy is valid only if it “(1) ha[s] a secular legislative purpose; (2) ha[s]
a principal or primary effect that neither advances nor inhibits religion; and (3) [does] not result in
excessive entanglement with religion or religious institutions.” Id. (citations omitted).
A law or policy has an unconstitutional purpose if “the government acted with the purpose
of advancing or inhibiting religion.” Agostini v. Felton, 521 U.S. 203, 222–23 (1997). It has an
unconstitutional effect if it “appear[s] to endorse religion in the eyes of a ‘reasonable observer,’
who ‘must be deemed aware of the history and context underlying a challenged program.’” In re
Navy Chaplaincy, 738 F.3d at 430 (emphasis omitted) (quoting Zelman v. Simmons–Harris, 536
U.S. 639, 655 (2002)). 15 As in the equal protection context, to satisfy the “effects” test with
statistical evidence alone, plaintiffs must show a stark pattern of disparate outcomes. See id. at
431 (concluding that “plaintiffs’ statistics fail to show government endorsement of particular
religions under the reasonable observer test for the same reason that, in the equal protection
context, they failed to show intentional discrimination paralleling that of Gomillion or Yick Wo”);
see also Harkness v. Sec. of Navy, 858 F.3d 437, 447–451 (6th Cir. 2017) (applying the same
standards to nearly identical Establishment Clause claims on summary judgment), cert. denied sub
nom. Harkness v. Spencer, No. 17-955, 2018 WL 3013822 (U.S. June 18, 2018).

15
The D.C. Circuit did not have the occasion to articulate the legal standards applicable under the third prong
of the Lemon test—entanglement—when this case was last before it. See In re Navy Chaplaincy, 738 F.3d at 430
(noting that plaintiffs did not press an entanglement claim). But according to the Navy, see Navy’s Claim 2 Opp’n at
44–45, the Court need not consider plaintiffs’ entanglement claims because the Supreme Court has “recast” the
entanglement inquiry as “simply one criterion relevant to determining a statute’s effect.” Mitchell v. Helms, 530 U.S.
793, 808 (2000) (citing Agostini, 521 U.S. at 232–33). Although some language from Agostini and later decisions
suggests that Agostini’s gloss on the Lemon test applies only to claims involving government monetary aid, see, e.g.,
Mitchell, 530 U.S. at 807 (noting that “in Agostini we modified Lemon for purposes of evaluating aid to schools”);
Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2041 n.1 (2017) (stating that “[g]overnment
aid that has the ‘purpose’ or ‘effect of advancing or inhibiting religion’ violates the Establishment Clause” (emphasis
added) (citing Agostini, 521 U.S. at 222–223, 234)), this case is similar to Agostini in that the entanglement alleged—
discrimination in favor of certain denominations—manifests as an effect on plaintiffs’ careers. Thus, as in Agostini,
“it is simplest” to “treat [entanglement] . . . as an aspect of the inquiry into a statute’s effect.” 521 U.S. at 233.

22

A27

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 23 of 45

C.

The Navy’s Alleged “One Roman Catholic” Policy

Plaintiffs first seek summary judgment on their constitutional challenge to the Navy’s
alleged policy of placing at least one Roman Catholic chaplain on each chaplain selection board
convened between 1948 and late 2002. See Pls.’ Claim 2 MSJ at 7. Plaintiffs challenge this policy
only under the Establishment Clause, not the Equal Protection Clause, see id. at 5–7; as noted
above, however, the analysis laid out by the D.C. Circuit is essentially the same under either
provision. 16 According to plaintiffs, that policy was facially discriminatory under Larson, see Pls.’
Claim 2 MSJ at 18–29, and also fails at each step of the Lemon test, see id. at 29–34. The Navy
cross-moves for summary judgment, arguing that plaintiffs have not demonstrated either that the
policy existed, see Navy’s Claim 2 Opp’n at 16–21, or that it was adopted with discriminatory
intent, see id. at 21–35. For the reasons given below, plaintiffs’ motion will be denied, and the
Navy’s will be granted.
1.

The Navy’s Board-Staffing Policies Were Facially Neutral.

The parties do not dispute that until late 2002, the Navy staffed chaplain selection boards
with one or two (or at most three) non-chaplain officers and filled the remaining seats with
chaplains. See Decl. of Killian Kagle (“Kagle Decl.”) [ECF No. 47-9] at 35–46 (listing the
denominational affiliation and faith group category of every member of every promotion selection
board convened between 1988 and 2002 and every selective early retirement board convened
between 1991 and 2002); SECNAVINST 1401.3, Encl. 1 ¶ 1(c)(1) (providing that “[a]t least one
member shall be a [non-chaplain] officer” and that “[t]he remaining members should be

16

Plaintiffs also contend that the policy violates the Constitution’s No Religious Test Clause. See U.S.
Const., art. VI, cl. 3 (“[N]o religious test shall ever be required as a qualification to any office or public trust under
the United States.”). The Navy argues that this claim fails because plaintiffs “never contend that a Chaplain must be
a Roman Catholic to sit on a selection board.” See Navy’s Claim 2 Opp’n at 39. Because plaintiffs allege that they
were discriminated against because of their religion—not that a particular “religious test” was “required as a
qualification” to the chaplaincy—the Court agrees that their claim is better analyzed under the Establishment Clause.

23

A28

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 24 of 45

[chaplains]”). The record is also clear that every promotion board convened between 1988 and
2002 had between four and seven chaplains and that, with one exception, at least one of those
chaplains was Catholic. 17 See Kagle Decl. at 35–46. Plaintiffs contend that this fact alone
demonstrates that the Navy had a “policy” of placing at least one Catholic chaplain on every board,
and that this policy triggers strict scrutiny because it was facially discriminatory.
The Navy’s evidence tells a different story. According to the Navy, during the relevant
time period, chaplain selection boards were staffed with chaplains from a “mix” of faith group
categories—including Catholics—as part of a larger effort to ensure selection-board diversity. See
Rock Decl. ¶ 5–8 (testimony of former Navy personnel officer that selection boards “represented,
to the extent possible, the different experiences of the many chaplains within the Chaplain Corps,”
including “east-coast chaplains, west-coast chaplains, Navy chaplains, Marine Corps chaplains,
Coast Guard chaplains, and chaplains from each faith-group category”). Thus, of the 202 chaplains
staffed on the forty-two chaplain promotion boards convened between 1988 and 2002, sixty-six
were liturgical Protestants, sixty-nine were non-liturgical Protestants, forty-eight were Catholic,
eighteen fell in the Special Worship faith group category, and one was unknown. See Kagle Decl.
at 35–44. Similarly, of the twenty-seven chaplains staffed on the twelve selective early retirement
boards convened between 1991 and 1998, ten were liturgical Protestants, ten were non-liturgical

17
Plaintiffs also allege that, beginning in 1977, the Navy had a policy of placing two Roman Catholic
chaplains on every selection board. See Compl. ¶ 8 & n.8. According to plaintiffs, that practice ended in 1986, when
plaintiffs’ counsel secured a preliminary injunction against the practice from a district court in the Southern District
of California, see Prelim. Inj., Wilkins v. Lehman, Civil Action No. 85-3031 (S.D. Cal. Feb. 10, 1986), ECF No. 1353, and the Navy later settled with the plaintiff in that case, see Compl. ¶ 88(e). This alleged policy is not at issue here,
however, because it falls outside the limitations period established by the Court’s 2016 ruling on the Navy’s motion
to dismiss. See In re Navy Chaplaincy, 69 F. Supp. 3d at 256.

24

A29

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 25 of 45

Protestants, four were Catholic, and two were Special Worship. Id. at 45–46. Among the four
faith groups, then, the Navy’s policies hardly resulted in outsized representation for Catholics. 18
The Navy also points to its own regulations, which represent the only written evidence of
its board-staffing policies during the relevant time period. Far from directing selection boards (or
those responsible for convening them) to discriminate against non-liturgical Protestants, those
regulations expressly prohibited discrimination on the basis of religion. See SECNAVINST
1401.3 ¶ 4(a) (“Exclusion from board membership by reason of gender, race, ethnic origin, or
religious affiliation is prohibited.”); SECNAVINST 1401.3, Encl. 1 ¶ (1)(c)(1)(e) (stating that
members of chaplain selection boards “shall be nominated without regard to religious affiliation”).
Moreover, a federal statute requires selection board members to swear an oath to act “without
prejudice or partiality and having in view both the special fitness of officers and the efficiency of
[the Navy].” 10 U.S.C. § 613. These sources all suggest that the Navy’s board-staffing policies
were nondiscriminatory—at least on their face. See Harkness, 858 F.3d at 447 (concluding that
other procedures employed by the Navy’s selection boards were not facially discriminatory under
Larson, in part because of the Navy’s facially neutral regulations).
Plaintiffs offer nothing to rebut this evidence. Instead, they quibble with the applicable
legal standard, arguing that the presence of one Catholic on each board triggers strict scrutiny
because it “suggest[s] ‘a denominational preference.’” Pls.’ Claim 2 MSJ at 17 (emphasis added)
(quoting County of Allegheny v. ACLU, 492 U.S. 573, 609 (1989) (quoting Larson, 456 U.S. at
246), abrogated on other grounds by Town of Greece v. Galloway, 134 S. Ct. 1811 (2014)). But

18

In response, plaintiffs argue that the Navy’s policies “singled out one denomination for an advantage which
it gave to no other”: “a reserved seat on every selection board.” Pls.’ Claim 2 MSJ at 26 (emphasis added). Thus,
while the selection boards may have been balanced among faith groups, they were not balanced among denominations.
See id. at 19–20 (chart purporting to show that, between 1977 and 2002, twice as many selection board members were
Roman Catholic as compared to any other denomination). But plaintiffs do not explain why this is the relevant point
of comparison for purposes of their Establishment Clause claim—which, after all, alleges discrimination against nonliturgical Protestants as a whole, not against any particular non-liturgical Protestant denomination.

25

A30

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 26 of 45

this precise argument was rejected by the Sixth Circuit in Harkness, which concluded—relying in
part on the D.C. Circuit’s 2013 decision in this case—that “strict scrutiny applies only when the
law facially prefers one religion over another.” 858 F.3d at 447 (collecting cases and concluding
that this approach was “more consistent with both Supreme Court and [Sixth Circuit] precedent”).
And in any case, this Court is not free to depart from the legal standards previously articulated by
the D.C. Circuit in this litigation. “Larson teaches that, when it is claimed that a denominational
preference exists, the initial inquiry is whether the law facially differentiates among religions.” In
re Navy Chaplaincy, 738 F.3d at 430 (emphasis added) (citing Hernandez v. Comm’r, 490 U.S.
680, 695 (1989)). At most, the presence of one Catholic on each selection board suggests that the
Navy’s facially neutral board-staffing policies may have resulted in disproportionate
representation among denominations.

But it does not show the existence of a facially

discriminatory policy and so does not trigger strict scrutiny under Larson. 19
2.

Plaintiffs Have Not Demonstrated that the Navy’s Facially Neutral
Board-Staffing Policies Were Adopted for a Discriminatory Purpose.

Similarly, plaintiffs have failed to raise a genuine issue of material fact that the Navy’s
facially neutral board-staffing policies were adopted for a discriminatory purpose. Although the
record reveals a policy of staffing selection boards with a “mix” of chaplains from different faith
group categories, see Rock Decl. ¶¶ 5–8, plaintiffs have pointed to nothing in the record to suggest

19

Plaintiffs’ reliance on stray language from County of Allegheny appears to derive from a decision by this
Court in 2002, which quoted that same language and then stated that “if the plaintiffs can demonstrate after discovery
that some or all of the Navy’s policies and practices suggest a denominational preference,” strict scrutiny would apply.
Adair v. England, 217 F. Supp. 2d 7, 14 (D.D.C. 2002). But as the Court clarified over a decade later—after noting
that plaintiffs had “misread[]” its prior statement—it meant that “although policies that explicitly discriminate on the
basis of religion are subject to strict scrutiny, such scrutiny should not be applied to policies that do not explicitly
discriminate on the basis of religion unless ‘[P]laintiff[s] can demonstrate after discovery that some or all of the Navy’s
policies and practices suggest a denominational preference[.]’” In re Navy Chaplaincy, 928 F. Supp. 2d at 35 (citation
omitted).

26

A31

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 27 of 45

that this policy was intended to benefit any denomination at the expense of another. 20 On the
contrary, the Navy’s evidence suggests that the policy was intended to “maximize” a selection
board’s ability to consider candidates from diverse backgrounds, as well as to “dispel any potential
appearance of bias or impropriety.” Id. ¶ 6. Plaintiffs offer no direct evidence to contravene the
asserted secular objectives of the Navy’s board-staffing policies.
Instead, plaintiffs argue (in essence) that the sheer improbability that at least one Catholic
would appear on nearly every chaplain selection board during a 54-year period demonstrates that
the Navy’s placement of Catholics on the boards was intentional. See, e.g., Pls.’ Claim 2 MSJ at
7–9. But the relevant question for Lemon’s purpose prong is not whether the challenged policy
was intentional or unintentional; rather, the question here is whether its purpose was specifically
to prefer one religion over another. See Larson, 456 U.S. at 254 (invalidating a Minnesota statute
whose legislative history “demonstrated[] that [it] was drafted with the explicit intention of
including particular religious denominations and excluding others,” including, for example,
evidence that legislators “delet[ed] . . . clause[s] . . . for the sole purpose of exempting the [Roman
Catholic] Archdiocese from the . . . Act”); Wallace v. Jaffree, 472 U.S. 38, 60 (1985) (invalidating
an Alabama school prayer statute where “[t]he legislature enacted [the law] . . . for the sole purpose
of expressing the State’s endorsement of prayer activities”). Because plaintiffs have offered no
direct evidence of any such purpose here, their Establishment Clause claim fails at the purpose
prong of the Lemon test.

20
Nor have plaintiffs persuasively addressed the Navy’s asserted secular purpose of the faith group categories
themselves. As the Navy explains, “Chaplains in each category were deemed generally capable of meeting the
religious needs of personnel encompassed by those categories.” Navy’s Claim 2 Opp’n at 24; see id. at 24–25
(explaining that whereas a non-liturgical Protestant chaplain could perform religious services for any service member
in that faith group category, the Navy had determined that “Roman Catholic personnel have distinct needs, some of
which can be met only by Roman Catholic Chaplains” (citing Rock Decl. ¶ 14)).

27

A32

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 28 of 45

3.

Plaintiffs Have Not Demonstrated that the Navy’s Facially Neutral
Board-Staffing Policies Had a Sufficient Discriminatory Impact.

Plaintiffs fare no better at Lemon’s effects prong. Here, plaintiffs argue that the Navy’s
board-staffing policies “gave [Catholic] chaplains a reserved seat for every promotion board which
resulted in higher promotion rates for [Catholics] than other denominations.” Pls.’ Claim 2 MSJ
at 34; see Compl. ¶ 57(e) (alleging that the Navy’s board-staffing policies “led to a high[er]
selection rate for Catholics not based on performance or other legitimate selection criteria”). For
this proposition, plaintiffs rely chiefly on a third-party study showing at most a 14.5% differential
in the promotion rates of Catholic chaplains as compared to non-liturgical Protestant chaplains.
See Ex. 17 to Pls.’ Claim 2 MSJ (“Faith Group Promotions”) [ECF No. 276-19]. Plaintiffs also
rely on the expert declaration of Dr. Harald Leuba, a statistician, who concludes that the differential
in promotion rates is statistically significant. See Apr. 6, 2017 Decl. of Harald Leuba [ECF No.
276-46] at 17; Harkness, 858 F.3d at 449 (explaining that a finding of statistical significance
“means only that the disparity in promotion decisions was not ‘due to chance’” (citing In re Navy
Chaplaincy, 738 F.3d at 431)).
But as the D.C. Circuit explained earlier in this litigation, to make out a disparate-impact
claim using statistics, a plaintiff must demonstrate a “stark” disparity in outcomes between the
classes at issue. In re Navy Chaplaincy, 738 F.3d at 429, 431. The D.C. Circuit previously
concluded that plaintiffs were unlikely to succeed on the merits of their disparate-impact claim
because their evidence of “a 10% advantage in promotion rates” did not “remotely approach the
stark character” necessary to make this showing. Id. at 429. The same is true here. Plaintiffs point
to a differential in promotion rates between Catholic and non-liturgical Protestant chaplains that
varies, based on the rank in question, between 2.5% (a 79.5% promotion rate for non-liturgical
Protestant chaplains at the lieutenant commander rank versus an 82% promotion rate for Catholics)
28

A33

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 29 of 45

and 14.5% (a 69.2% promotion rate for non-liturgical Protestants at the commander rank versus
an 83.7% promotion rate for Catholics). See Pls.’ Claim 2 MSJ at 20–21 (citing a study conducted
by the Center for Naval Analysis (“CNA”) in 1998); see also Faith Group Promotions. If a 10%
disparity does not “remotely approach” the showing necessary to prevail on a disparate-impact
claim, then surely a 14.5% disparity is likewise insufficient. Cf. Gomillion, 364 U.S. at 341; Yick
Wo, 118 U.S. at 359. Moreover, even if it were sufficient, plaintiffs have offered no evidence that
the alleged one-Roman-Catholic policy caused the disparity. See In re Navy Chaplaincy, 738 F.3d
at 429 (observing that statistically significant disparities in chaplain promotion rates are potentially
influenced by multiple causes).
Hence, plaintiffs have failed to establish that strict scrutiny applies under a disparateimpact theory (or any other theory). And because plaintiffs have likewise failed to establish that
the Navy’s board-staffing policies lack a rational basis, they have failed to make out their
constitutional challenge to the Navy’s alleged policy of placing one Catholic chaplain on every
chaplain selection board. The Navy is therefore entitled to summary judgment as to that claim.
D.

Selection-Board Procedures

Next, plaintiffs challenge a set of procedures used by the selection boards themselves,
arguing that those procedures unconstitutionally disadvantage non-liturgical Protestant chaplains.
See Pls.’ Claim 3 MSJ at 1–2. Specifically, plaintiffs challenge the following: (1) the boards’ use
of secret ballots; (2) the Chief of Chaplains’ role as president of the selection boards and
involvement in choosing each board’s members; (3) the practice whereby a single board member
first reviews a candidate’s file and only then briefs the full board on the candidate; (4) the practice
of allowing board members to discuss a candidate’s file before voting; and (5) a prior practice
whereby each candidate’s denomination was disclosed to the selection board. See id.

29

A34

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 30 of 45

The D.C. Circuit previously rejected plaintiffs’ motion for a preliminary injunction against
the first and second of these practices: secret voting and the Chief of Chaplains’ role in convening
the selection boards. 21 See In re Navy Chaplaincy, 738 F.3d at 427. The court concluded that: (1)
the policies were facially neutral, see id. at 428–29 (explaining that “even if one of the chaplains
always serves as board president (as the chaplains allege), the board president . . . must be a person
chosen for the board without regard to religious affiliation” and that “the practice of secret voting
is neutral on its face”); (2) “the chaplains have presented no evidence of discriminatory intent in
the policies’ enactment,” id. at 429; and (3) plaintiffs’ statistical evidence was insufficiently
“stark” to raise an inference of discriminatory intent, see id. (rejecting evidence of “a 10%
advantage in promotion rates for officers of the same denomination as the Chief of Chaplains”).
Plaintiffs’ statistics were further undermined by the fact that they had “made no attempt to control
for potential confounding factors, such as promotion ratings, education, or time in service.” Id.
Little has changed since the D.C. Circuit’s decision in 2013. As plaintiffs’ counsel
conceded at the motions hearing, neither the two policies at issue then nor the three additional
policies challenged now—briefing, discussion, and the now-discontinued practice of disclosing
chaplain denominations—facially discriminates against any specific denomination, and plaintiffs
point to no evidence that they were adopted for a discriminatory purpose. Moreover, save for a
new report from Dr. Leuba and two largely inapposite studies, see Pls.’ Claim 3 MSJ at 28–33,
plaintiffs present no new statistical evidence concerning the challenged policies—and certainly no
evidence demonstrating a “stark” disparity in promotion rates on par with Gomillion or Yick Wo.

21

According to the Navy, although “[t]he D.C. Circuit’s opinion did not explicitly address the briefing of
officers’ records,” that practice was “challenged as part and parcel of Plaintiffs’ argument,” so “the constitutionality
of that procedure . . . was squarely before the court.” Navy’s Claim 3 Opp’n at 12 n.4.

30

A35

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 31 of 45

Plaintiffs contend that Dr. Leuba’s new report accounts, at least, for the “confounding
factors” identified by the D.C. Circuit in its review of his prior analysis. See Pls.’ Claim 3 MSJ at
28–31. But Dr. Leuba’s new report—entitled “Promotions in the U.S. Navy Chaplain Corps Are
Not Now, Nor Have They Ever Been, Merit Based, Nor Have They Ever Been Denominationally
Neutral[,] Let me Explain Why”—fails to meaningfully respond to the D.C. Circuit’s concern that
the statistical disparities identified by plaintiffs could have resulted from other factors. See, e.g.,
Feb. 22, 2018 Decl. of Harald Leuba [ECF No. 313-40] ¶ 75 (concluding that “there is no basis
for observing or testing the value or benefit of an additional amount of education”); id. ¶ 94
(acknowledging that Dr. Leuba had not controlled for promotion ratings). Nor are the two new
studies cited by plaintiffs of any more than tangential relevance, since neither purports to examine
the chaplaincy during the time period at issue in this litigation. See Pls.’ Claim 3 MSJ at 31–32
(discussing a study analyzing Methodists in the chaplaincy between 1975 and 1987 and a 1992
PhD dissertation analyzing the relationship between faith group categories and promotion rates).
And in any case, none of this new evidence even attempts to argue that plaintiffs’ statistical
evidence demonstrates a sufficiently stark disparity to support their constitutional claims.
Instead of attempting to show a disparity of the required magnitude, plaintiffs urge this
Court to disregard the D.C. Circuit’s prior decision in this litigation and to apply instead the
standards articulated in Palmer v. Shultz, 815 F.2d 84 (D.C. Cir. 1987), a Title VII case involving
a disparity in selection rates between male and female job applicants, see id. at 87, 91–92
(suggesting that a “5% probability of randomness” in disparate outcomes would raise an inference
of intentional discrimination under Title VII). But the D.C. Circuit has previously rejected
plaintiffs’ attempts to rely on Title VII cases involving “statistically significant” disparities,
doubting not only that plaintiffs’ “statistical evidence properly controlled for confounding

31

A36

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 32 of 45

variables,” but also that “a court could properly impute a belief in denominational favoritism to
the reasonable observer simply on the basis of statistics that might satisfy a plaintiff’s Title VII
burden.” In re Navy Chaplaincy, 738 F.3d at 431. Thus, even if the 14.5% promotion rate disparity
identified by plaintiffs were statistically significant, that fact alone would be insufficient to support
plaintiffs’ constitutional claims.

See id. (“[W]hen reasonable observers find that the term

[‘statistically significant’] means only that there is little likelihood that the ‘discrepancy’ is due to
chance, they are most unlikely to believe that the policies convey a message of government
endorsement.”); see also Burgis v. New York City Dep’t of Sanitation, 798 F.3d 63, 69 (2d Cir.
2015) (“[T]o show discriminatory intent in a[n] . . . Equal Protection case based on statistics alone,
the statistics must not only be statistically significant in the mathematical sense, but they must also
be of a level that makes other plausible non-discriminatory explanations very unlikely.”).
Plaintiffs’ specific argument that they have brought a “religious disparate impact” claim—
one that requires no proof of discriminatory intent—is similarly misguided. See Pls.’ Claim 3
Reply at 18–20. Plaintiffs are correct that under Title VII, a plaintiff may make out a prima facie
case of discrimination by presenting “statistical evidence . . . that ‘observed, nonrandom
disparities’ in hiring, firing, or other significant employment decisions ‘were caused by a “facially
neutral” selection criterion.’” Davis v. District of Columbia, 246 F. Supp. 3d 367, 393 (D.D.C.
2017) (quoting Palmer, 815 F.2d at 114). They are also correct that under this so-called “disparate
impact” theory of discrimination, “[p]roof of discriminatory motive . . . is not required.” Id. at 392
(quoting Anderson v. Zubieta, 180 F.3d 329, 338 (D.C. Cir. 1999)). But the Supreme Court has
repeatedly made clear that this theory of discrimination is not available under the Equal Protection
Clause, see City of Cuyahoga Falls v. Buckeye Cmty. Hope Found., 538 U.S. 188, 194 (2003)
(“‘[P]roof of racially discriminatory intent or purpose is required’ to show a violation of the Equal

32

A37

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 33 of 45

Protection Clause.” (quoting Arlington Heights, 429 U.S. at 265)); Washington v. Davis, 426 U.S.
229, 247 (1976) (“Disproportionate impact is not irrelevant, but it is not the sole touchstone of an
invidious . . . discrimination forbidden by the Constitution.”), and plaintiffs offer no reason to
reach a different conclusion as to the Establishment Clause. Their attempt to repackage their
constitutional claims under a “disparate impact” theory is therefore unavailing.
In sum, plaintiffs’ challenges to the selection-board policies at issue here fail for essentially
the same reason that plaintiffs previously failed to secure a preliminary injunction against those
policies: plaintiffs have failed to demonstrate that the challenged policies either were facially
discriminatory, were adopted with discriminatory intent, or had a stark enough disparate impact
on non-liturgical Protestant chaplains that discriminatory intent could be inferred. See In re Navy
Chaplaincy, 738 F.3d at 428–31. Under the standards previously articulated by the D.C. Circuit,
therefore, the Navy is entitled to summary judgment on these claims.
Perhaps recognizing this to be the case, plaintiffs attempt to reframe their claims in various
ways. For example, they argue that the Chief of Chaplain’s role in choosing selection board
members impermissibly “delegate[s] . . . discretionary civic authority to the Chief and other
denominational representatives.” Pls.’ Claim 3 MSJ at 39; see id. at 37–42 (first citing Larkin v.
Grendel’s Den, Inc., 459 U.S.116 (1982); and then citing Board of Education v. Grumet, 512 U.S.
687 (1994)). But this Court and the D.C. Circuit have repeatedly rejected this argument. See In
re Navy Chaplaincy, 697 F.3d at 1179 (explaining that unlike in Larkin, where “a Massachusetts
statute grant[ed] religious institutions an effective veto power over applications for liquor licenses”
without requiring any “reasons, findings, or reasoned conclusions,” here “Congress and the
Secretary of the Navy have articulated secular, neutral standards to guide selection board members
in evaluating candidates for promotion”); Adair, 417 F. Supp. 2d at 6 (rejecting plaintiffs’

33

A38

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 34 of 45

“assumption” that “the usual rule for a chaplain sitting on a promotion board will be to discriminate
against promotion candidates on the basis of religious denomination” (citation omitted)); Adair,
183 F. Supp. 2d at 61–62 (distinguishing Larkin on the ground that chaplains on selection boards
act “first and foremost [as] Naval officers . . . evaluating a fellow officer’s fitness for promotion,”
not “private clergy” exercising unchecked discretion); see also Harkness, 858 F.3d at 449–50
(rejecting the same argument on summary judgment). Plaintiffs provide no reason to reach a
different conclusion this time around.
Similarly unpersuasive is plaintiffs’ argument that the challenged procedures
impermissibly “vest[] . . . unbridled discretion in a government official.” See Pls.’ Claim 3 MSJ
at 21–26 (quoting Forsyth Cty. v. Nationalist Movement, 505 U.S. 123, 132–33 (1992)). Even
assuming that this theory applies in the Establishment Clause context—Forsyth County, on which
plaintiffs chiefly rely, was a free-speech case—plaintiffs have simply not raised a genuine factual
issue that the procedures vest anyone with the type of unchecked power at issue in plaintiffs’ cited
authorities. See Forsyth County, 505 U.S. at 133 (striking down an ordinance that “left [it] to the
whim of” a county official to set the fee amount for a public assembly permit, where the official
was “not required to rely on any objective factors” or to “provide any explanation” for his
“unreviewable” decision). Plaintiffs have not explained how an individual member of a sevenmember selection board could exercise such authority, and they do not dispute that the decisions
of the selection boards themselves are subject to multiple layers of administrative and judicial
review. See 10 U.S.C. § 628(g). Hence, plaintiffs’ alternative legal theories also fail, and the
Navy is entitled to summary judgment on plaintiffs’ challenges to its selection-board procedures.

34

A39

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 35 of 45

II.

PLAINTIFFS’ CONSTITUTIONAL CHALLENGE TO 10 U.S.C. § 613a
Plaintiffs also challenge the constitutionality of 10 U.S.C. § 613a’s ban on the disclosure

of selection board proceedings. See Pls.’ Claim 1 MSJ at 1. That provision states that “[t]he
proceedings of a selection board convened under section . . . 611 . . . of this title may not be
disclosed to any person not a member of the board,” 10 U.S.C. § 613a(a), and specifically provides
that the “discussions and deliberations” of such a board “are immune from legal process,” “may
not be admitted as evidence,” and “may not be used for any purpose in any action, suit, or judicial
or administrative proceeding without the consent of the Secretary of the military department
concerned,” id. § 613a(b). Plaintiffs allege that § 613a is unconstitutional as applied to them,
because it deprives them of evidence needed to prevail on their constitutional challenges to the
various selection-board procedures described above. See Pls.’ Claim 1 MSJ at 2.
But plaintiffs have already unsuccessfully challenged § 613a—as well as its statutory
predecessor, § 618(f)—several times. They brought their first challenge after the D.C. Circuit held
in 2004 that § 618(f) prohibited the disclosure of selection-board proceedings in litigation. See In
re England, 375 F.3d at 1181. In 2006, this Court rejected plaintiffs’ argument that § 618(f) “bars
judicial review of constitutional claims arising out of promotion-board proceedings,” explaining
that the statute “merely restricts the evidence available to the plaintiffs in support of their claims.”
Adair, 451 F. Supp. 2d at 215–17. And in any case, because plaintiffs “challenge the Navy’s
policies, not simply the alleged impermissible intentions and actions of individual board
members,” id. at 219, the evidence barred by § 618(f) was not strictly necessary to proving their
claims, see id. at 218 (noting that § 618(f) “does not preclude testimony . . . concerning directives,
orders, or policies (written or unwritten) communicated to board members that may have been
intended to infuse a denominational preference into the promotion selection process”). Finally,

35

A40

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 36 of 45

the Court concluded that even if § 618(f) did bar plaintiffs from accessing information necessary
to proving their claims, plaintiffs had failed to establish the existence of “a constitutional right of
access to evidence essential to establishing constitutional claims, even when that evidence is
privileged by statute.” Id. at 220. Thus, given “the absence of any precedent recognizing a right
to statutorily privileged information in a civil case involving constitutional claims, the thinness of
the plaintiffs’ legal theory, and the broad deference constitutionally afforded Congress to regulate
the Navy,” the Court in Adair rejected plaintiffs’ challenge to § 618(f). Id. at 222.
Plaintiffs again challenged the constitutionality of the statutory privilege for selectionboard proceedings after Congress repealed § 618(f) and enacted § 613a.

See In re Navy

Chaplaincy, 512 F. Supp. 2d 58, 61 (D.D.C. 2007) (reversing the Court’s earlier ruling that
plaintiffs could discover selective early retirement board proceedings under § 618(f) and rejecting
plaintiffs’ argument that “to deny them discovery of [those] proceedings would effectively deny
them judicial review of their causes of action by denying them the evidence necessary to vindicate
them”). The Court reiterated its earlier conclusion that “‘information may be withheld [pursuant
to a statutory privilege], even if relevant to the lawsuit and essential to the establishment of
plaintiff’s claim,’ whether statutory or constitutional.” Id. (quoting Baldrige v. Shapiro, 455 U.S.
345, 351, 360 (1982)). It then warned: “Whatever wisdom may be associated with the adage ‘the
third time’s the charm,’ the plaintiffs are advised to accept this second ruling as conclusive and
refrain from testing their luck a third time before this court.” Id. at 62. 22

22

Judge Urbina addressed the constitutionality of § 613a again in 2012, when he denied without prejudice
the Navy’s 2008 motion to dismiss the affirmative constitutional challenge to the statute that plaintiffs had raised in
Gibson. See In re Navy Chaplaincy, 850 F. Supp. 2d at 115. Without citing his 2007 opinion in Adair (which had
approved the application of § 613a to selective early retirement board proceedings), Judge Urbina noted that while
“[a]t first blush, the court’s prior reasoning concerning the constitutionality of § 618(f) would appear to also apply in
determining the constitutionality of § 613a,” further briefing on the differences between the two statutes might
persuade him otherwise. Id. Plaintiffs do not address any such differences here, however.

36

A41

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 37 of 45

Plaintiffs have not heeded that admonition, offering no new authority to buttress their third
attempt to assert a constitutional right to evidence in support of their constitutional claims. Rather,
they argue chiefly that the reasoning underlying Judge Urbina’s 2006 and 2007 decisions was
undercut in 2013, when this Court—and, later, the D.C. Circuit—held that discriminatory intent
was a necessary element of their constitutional claims. See Pls.’ Claim 1 MSJ at 2, 12–15 (arguing
that “the current law of the case requires Plaintiffs [to] demonstrate intent to discriminate on the
part of the chaplain board members”); see also In re Navy Chaplaincy, 738 F.3d at 428–31, aff’g
928 F. Supp. 2d 26 (D.D.C. 2013).
But the reasoning of those prior decisions remains valid here. For one thing, the law
concerning the role of intent in equal protection and Establishment Clause challenge was
established by Supreme Court precedent well before the early 2000s, so plaintiffs’ suggestion that
the 2013 decisions of this Court and the D.C. Circuit somehow upset the prevailing legal
framework underlying Judge Urbina’s earlier decisions is simply unfounded. See, e.g., In re Navy
Chaplaincy, 738 F.3d at 429–30 (citing, among other authorities, Larson, Lemon, and Arlington
Heights—all Supreme Court cases from the 1970s and 1980s). And even if those decisions had
altered the applicable legal framework, that fact still would not undermine the reasons that Judge
Urbina actually gave for his decision: that the proceedings of individual selection boards are of
limited relevance to plaintiffs’ constitutional claims, see Adair, 451 F. Supp. 2d at 217–19, and
that in any case plaintiffs have “advanced no coherent theory supporting” an unqualified right of
access to information needed to prove such claims, see id. at 220. Because plaintiffs have still not
meaningfully addressed these points—which Judge Urbina first articulated over a decade ago—
the Navy is entitled to summary judgment on plaintiffs’ challenge to the constitutionality of §
613a.

37

A42

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 38 of 45

III.

PLAINTIFFS’ REQUESTS FOR ADDITIONAL DISCOVERY
Finally, plaintiffs have filed several motions for additional discovery. These include

plaintiffs’ March 2017 motion to lift the discovery stay, see Pls.’ Discovery Mot., their September
2017 motion under Federal Rule of Civil Procedure 56(d) to stay summary judgment briefing until
the discovery stay was lifted, see Pls.[’] Rule 56(d) Mot., and their July 2018 motion seeking leave
to file additional declarations, see Pls.’ Mot. to File Decls. For the reasons that follow, plaintiffs’
discovery motions will be denied.
A.

Plaintiffs’ March and September 2017 Rule 56(d) Motions

The March 2017 motion to lift the discovery stay seeks discovery of various materials in
support of the challenges to the Navy’s selection-board policies. 23 In support of the challenge to
the Navy’s alleged one-Roman-Catholic policy, plaintiffs seek the following documents: (1)
unredacted copies of two reports prepared by the inspectors general of the Department of Defense
and the Navy concerning allegations of religious discrimination by chaplain selection boards in
1997 and 1998 (the “IG reports”), see Pls.’ Discovery Mot. at 25–27; (2) documents related to the
Navy’s alleged decision to stop staffing chaplain selection boards with two Roman Catholic
chaplains beginning in 1986 and its decision to staff selection boards with two chaplains and five
non-chaplain officers beginning in 2003, see id. at 27–28; (3) documents mentioning the phrase
“denominational balancing,” id. at 28–29; (4) communications between the Chief of Chaplains
and his staff regarding the chief’s nominations to chaplain selection boards, see id. at 29–30; and
(5) data from various sources regarding the denominational composition of selection boards

23

Because briefing on the parties’ cross-motions for summary judgment is now complete, the Court will treat
plaintiffs’ motion to lift the discovery stay as a motion for additional discovery under Rule 56(d). See Mar. 1, 2018
Order at 2 (“[I]nstead of reopening discovery on the eve of scheduled summary judgment briefing, the Court will
consider plaintiffs’ specific discovery requests in the context of their motion for additional discovery under Federal
Rule of Civil Procedure 56(d) and in light of the summary judgment briefing on their claims.”).

38

A43

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 39 of 45

throughout the 1970s, 1980s, and 1990s, see id. at 30–31. 24 In support of their challenge to the
procedures employed by the selection boards themselves, plaintiffs seek (among other things) the
results of promotion board proceedings from 2005 to 2016 (including “identification of those
seeking promotion as well as those selected”), “Alpha rosters” from 2013 to 2017, and “[c]opies
of complaints about [chaplain] board misconduct and all investigations of [such] misconduct from
1993 to the present.” Pls.’ Discovery Mot. at 34–36. 25
Plaintiffs’ primary argument in support of their discovery requests is that the Court never
formally established a cutoff for discovery. See id. at 11–15. The Navy responds that the parties
agreed to a nine-month discovery period in 2002 (although this period was admittedly stayed
several times and was never formally closed), and that since then plaintiffs have had ample time
to obtain the discovery they need.

See Navy’s Discovery Opp’n at 1–2; Fed. R. Civ. P.

26(b)(2)(C)(ii) (providing that a court “must” limit discovery where “the party seeking discovery
has had ample opportunity to obtain the information by discovery in the action”); Moore, 2017
WL 1750248, at *5 (a party seeking to stay summary judgment pending discovery of additional
facts “‘ . . . must explain’ why [it] could not produce those facts in opposition to the summary
judgment motion” (quoting Convertino, 684 F.3d at 99–100)). Moreover, the Navy argues, most
of the discovery that plaintiffs now seek is either irrelevant, privileged, or duplicative, and hence
cannot support reopening discovery now.
As a brief review of the history of discovery in this litigation demonstrates, the Navy is
correct that plaintiffs have had ample time to conduct discovery. Discovery in CFGC and Adair
began in 2002, after the Court resolved the parties’ first round of dispositive motions. See Aug.

24

Plaintiffs also seek certain admissions, depositions of certain witnesses interviewed in the investigations
by the inspectors general, and permission to examine certain Chaplain Corps records. Pls.’ Discovery Mot. at 31–33.
25
Plaintiffs also aver that the discovery sought in connection with the Navy’s board-staffing policies is
relevant to their challenge to the other selection-board policies. See Pls.’ Discovery Mot. at 32–33.

39

A44

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 40 of 45

27, 2002 Order, CFGC, ECF No. 119; Aug. 27, 2002 Order, Adair, ECF No. 72. At the Court’s
direction, the parties submitted a joint discovery plan that outlined a nine-month discovery period,
which would begin in November 2002 and conclude in August 2003. See Status Report at 2,
CFGC, ECF No. 121. 26 Despite this agreed-upon discovery cutoff—which apparently was never
enforced—discovery continued during the dispute over plaintiffs’ motion to compel deposition
testimony of selection board members and their subsequent constitutional challenge to 10 U.S.C.
§ 618(f). See Status Report at 2–3, CFGC, ECF No. 182 (noting that by February 2005, both
parties had deposed several additional witnesses); Status Report, CFGC, ECF No. 178 (noting that
between November 2002 and January 2004, plaintiffs had served their first round of document
requests and deposed six witnesses). The Court stayed discovery “informally” in July 2009, and
in mid-2012 Judge Kessler continued the stay based on the Navy’s representation that it intended
to file a dispositive motion. See Pls.’ Discovery Mot. at 5. In January 2018, this Court again
continued the discovery stay, advising the parties that it would consider plaintiffs’ requests for
additional discovery once the parties’ summary judgment motions were fully briefed. See Jan. 11,
2018 Order.
In short, discovery in this case—which the parties initially agreed would take only nine
months—was open for a period of several years between 2002 and 2009. Plaintiffs are correct that
discovery was “conducted on and off” during this period, Pls.’ Reply Mem. of P. & A. in Supp. of
Pls.’ Mot. to Lift the Discovery Stay [ECF No. 268] at 6, and that significant other proceedings
took place during that time. They are also correct that they were never formally put on notice that
the 2009 discovery stay would later become permanent. See In re Navy Chaplaincy, 287 F.R.D.
100, 102 (D.D.C. 2012) (“Parties must remember that discovery has been stayed only, and no cut-

26

Although this document is not accessible on CFGC’s electronic docket, the Navy has provided it here. See
Ex. A to Navy’s Discovery Opp’n.

40

A45

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 41 of 45

off date for its completion has been set. If and when discovery is reopened, Plaintiffs will have
their full opportunity to proceed . . . .”). But neither the flurry of collateral proceedings—most of
which, it bears mentioning, were initiated by plaintiffs—nor the lack of a formal warning that
discovery would not remain open indefinitely excuses plaintiffs’ failure to obtain earlier the
discovery that they now seek. Indeed, according to the Navy, plaintiffs were able to take—and
did in fact take—a substantial amount of discovery between 2002 and 2009. 27 Their failure to take
additional discovery then is ultimately their responsibility. See Kakeh, 537 F. Supp. 2d at 71 (Rule
56(d) “is not properly invoked to relieve counsel’s lack of diligence” (citation omitted)).
In their September 2017 Rule 56(d) motion, Pls.[’] Rule 56(d) Mot. at 2, plaintiffs advance
the additional argument that the D.C. Circuit’s 2013 ruling that their claims required proof of
“intent and specific harm”—as well as its more specific holding that their statistical evidence “had
not covered certain factors such as ‘education’ and ‘promotion factors’”—justify their failure to
seek certain evidence earlier on. In re Navy Chaplaincy, 738 F.3d at 428–31. This argument is
unpersuasive. As already noted, in holding that plaintiffs’ claims could be proven using a showing
of disparate impact, the D.C. Circuit relied on established Supreme Court case law from as early
as 1886. See In re Navy Chaplaincy, 738 F.3d at 428–31 (citing Arlington Heights, Gomillion,
and Yick Wo). Any reasonable counsel would have been aware that statistical evidence was at

27

As the Navy explains,

Plaintiffs have served—and received objections and responses to—twenty-five interrogatories, 136
requests for production of documents (to which the Navy responded by producing approximately
9,000 pages of documents), and ninety-one requests for admission. In addition, Plaintiffs have taken
seventeen depositions in CFGC and Adair, as well as several more depositions in the related matter
of Larsen v. United States Navy, including the depositions of three former Navy Chiefs of
Chaplains. Plaintiffs’ designated expert, Dr. Harald Leuba, has submitted at least fifteen reports
consisting of at least 1,300 pages of argument and analysis in this litigation between 2000 and 2011,
and the Navy’s expert has submitted nine expert reports or declarations in this or related actions.
See Navy’s Discovery Opp’n at 9–10.

41

A46

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 42 of 45

least one method of pursuing the equal protection and Establishment Clause claims here, and
counsel’s failure to thoroughly pursue this evidence when discovery was open more than a decade
ago does not provide a reason to reopen discovery now.
The Navy is also correct that many of the materials plaintiffs now seek either are
undiscoverable or appear to be of limited probative value. Moore, 2017 WL 1750248, at *5
(explaining that materials sought on a Rule 56(d) motion must be both “discoverable” and
“necessary to the litigation” (citation omitted)). For example, plaintiffs seek unredacted copies of
the IG reports, which contain information that is not subject to discovery pursuant to 10 U.S.C.
§ 613a—a statutory privilege that this Court has already upheld as applied here. Other materials—
including records of the membership and denominational composition of selection boards
convened before 1993, promotion board results from 2007 to 2016, and “Alpha rosters” from 2013
to 2017—are only tangentially relevant to plaintiffs’ claims because they pertain to boards
convened either before 1993 (the applicable statute-of-limitations cutoff, see In re Navy
Chaplaincy, 69 F. Supp. 3d at 256) or after 2006 (when the last of these three consolidated cases
was filed). Still other materials sought by plaintiffs are duplicative of discovery already obtained
and hence are likewise not necessary to the litigation. See, e.g., Navy’s Discovery Opp’n at 19
(noting that plaintiffs request copies of communications between the Chief of Chaplains and his
staff, but that plaintiffs have already deposed three former Chiefs of Chaplains).
In sum, plaintiffs have failed to demonstrate that they are entitled to additional discovery
under Rule 56(d). Although plaintiffs have “outline[d] the particular facts [they] intend[] to
discover,” they have failed to explain “why [they] could not produce those facts in opposition to
the [Navy’s] summary judgment motion” earlier in the litigation. Moore, 2017 WL 1750248, at
*5 (citation omitted). Moreover, plaintiffs have failed to show that many of those facts are

42

A47

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 43 of 45

“necessary to the litigation” or even discoverable. Id. (citation omitted). Plaintiffs’ March and
September 2017 motions to lift the discovery stay will therefore be denied, and no further
discovery will be permitted.
B.

Plaintiffs’ July 2018 Motion for Leave to Submit Additional Evidence

Although it is framed as a supplement to their March 2017 discovery motion, plaintiffs’
July 2018 motion seeks leave to present additional declarations and other evidence in support of
their challenges to the Navy’s selection-board policies. See Pls.’ Mot. to File Decls. at 1. Plaintiffs
appear to claim that this previously uncited evidence provides grounds both to deny the Navy’s
summary judgment motions and to reopen discovery. See id. at 1–2. In fact, it does neither.
First, the motion cites a declaration by Commander David Gibson, a plaintiff, which
recounts his “unsolicited recollection of important events just prior to Plaintiffs[’] filing [of] their”
final summary judgment brief, which “[c]ounsel did not have time to address.” Id. at 2. Gibson
declares that he heard statements: (1) by one selection board member that his board had “ma[de]
room for a Roman Catholic [candidate] when [it] discovered no Catholic had been selected,” (2)
by another board member that he routinely used the practice of “zeroing out”—that is, a practice
whereby one selection board member rates a candidate so low that the candidate is virtually
guaranteed not to be selected—to “advance [his] agenda,” and (3) by a Navy captain that
promotion boards “make selections based on . . . denominational considerations.” Id. at 2.
The first and third statements have no apparent connection to any of the challenged
selection-board policies, so they are irrelevant. And although the second statement relates to the
policy of keeping selection-board votes secret—plaintiffs allege that “zeroing out” is feasible as a
tool for religious discrimination only because the alleged discriminator is not required to disclose
his or her “zero” vote to the entire board, see Pls.’ Claim 3 MSJ at 24 & n.4—nothing about the

43

A48

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 44 of 45

statement itself suggests that the speaker’s allegedly invidious “agenda” was one of religious
discrimination.

Nor do the assortment of additional declarations and testimony cited by

plaintiffs—most of which was filed in other cases—permit that inference.

See id. at 3–4

(discussing statements about “agendas” made by persons other than the speaker referred to in
Commander Gibson’s declaration). Commander Gibson’s declaration therefore does not provide
a reason to deny the Navy’s summary judgment motion or to reopen discovery here.
The remainder of the evidence cited in plaintiffs’ motion is equally unpersuasive. For
example, the motion asks the Court to consider evidence that purportedly shows a “culture” within
the Navy of discouraging servicemembers from reporting misconduct by their superiors—
evidence that includes, among other things, statements made to counsel during a medical
appointment with his personal doctor, an Army physician who never responded to counsel’s
request for a formal declaration. See id. at 4–6. The motion also asks the Court to consider the
fact that Rear Admiral Brent Scott, who will be the first member of a certain non-liturgical
Protestant denomination to assume the position of Chief of Chaplains, will also be the first Chief
of Chaplains not to be promoted to the two-star rank of Rear Admiral (upper half). Id. at 6–7.
This evidence is even further afield from the selection-board policies that plaintiffs challenge here.
In sum, plaintiffs’ July 2018 discovery motion relies on evidence whose relevance to this
case is tangential at best and that, for the most part, could have been presented much earlier in the
litigation. Therefore, the motion presents no reason to deny the Navy’s summary judgment motion
or to reopen discovery, and it will be denied.
CONCLUSION
For the foregoing reasons, plaintiffs’ motions for summary judgment as to Claims 1, 2, and
3 will be denied, and the Navy’s corresponding cross-motions for summary judgment will be

44

A49

Case 1:07-mc-00269-JDB Document 336 Filed 08/30/18 Page 45 of 45

granted. Plaintiffs’ March 2017, September 2017, and July 2018 discovery motions will also be
denied. A separate order has been issued on this date.

/s/

JOHN D. BATES
United States District Judge
Dated: August 30, 2018

45

A50

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued November 6, 2013

Decided December 27, 2013

No. 13-5071
IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
APPELLANTS
v.
UNITED STATES NAVY, ET AL.,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:07-mc-00269)
Arthur A. Schulcz Sr., argued the cause and filed the
briefs for appellants.
Sushma Soni, Attorney, U.S. Department of Justice,
argued the cause for appellees. With her on the brief were
Stuart F. Delery, Assistant Attorney General, Ronald C.
Machen Jr., U.S. Attorney, and Marleigh D. Dover, Attorney.
Before: TATEL and KAVANAUGH, Circuit Judges, and
WILLIAMS, Senior Circuit Judge.

A51

Page 1 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

2
Opinion for the Court filed by Senior Circuit Judge
WILLIAMS.
WILLIAMS, Senior Circuit Judge: Plaintiffs, whom we’ll
call simply the chaplains, are a group of current and former
officers in the Navy Chaplain Corps who identify themselves
as non-liturgical Christians, plus two chaplain-endorsing
agencies. They sued in district court, claiming (among other
things) that several of the Navy’s policies for promoting
chaplains prefer Catholics and liturgical Protestants at the
expense of various non-liturgical denominations. The basic
argument is that the policies amount to disparate treatment of
the non-liturgical chaplains, violating the equal protection
component of the Fifth Amendment and the Establishment
Clause of the First Amendment.
The case has already been before this court several times.
See In re Navy Chaplaincy, 697 F.3d 1171 (D.C. Cir. 2012);
In re Navy Chaplaincy, 534 F.3d 756 (D.C. Cir. 2008);
Chaplaincy of Full Gospel Churches v. England, 454 F.3d
290 (D.C. Cir. 2006). The judgment now on review is that of
the district court denying plaintiffs’ motion for a preliminary
injunction against the Navy’s use of the challenged practices.
In re Navy Chaplaincy, 928 F. Supp. 2d 26 (D.D.C. 2013).
The district court reviewed the statistical evidence offered by
the plaintiffs to show inter-denominational discrimination, and
found it wanting. We affirm.
* * *
The Navy uses “selection boards” to choose officers for
promotion. See 10 U.S.C. § 611(a). By law, such boards
must have at least five members. 10 U.S.C. § 612(a)(1).
Except in certain circumstances not at issue here, at least one
member of a selection board for a competitive category—

A52

Page 2 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

3
here, the Chaplain Corps—must be from that competitive
category. 10 U.S.C. § 612(a)(2)(A). Selection boards for
chaplains before fiscal year 2003 consisted of five or more
members, at least one of whom was not a chaplain. Under a
change in Navy regulation, boards for fiscal year 2003 and
thereafter are composed of seven officers, two of whom are
chaplains “nominated without regard to religious affiliation.”
SECNAVINST 1401.3A, Encl. (1), ¶ 1.c.(1)(f). Either the
Chief of Chaplains or one of his two deputies serves as
selection board president.
According to a Defense
Department Inspector General report cited by plaintiffs,
“sleeves” hide the board members’ hands as they depress
buttons reflecting their votes, making them secret ballots.
According to the chaplains, the boards take an initial secret
vote and then the board president recommends two score cutoffs: candidates above the higher score are treated as clearly
deserving promotion, and ones below the lower score are
treated as deserving no further consideration. Candidates who
fall between the two are re-evaluated for the remaining
available promotions.
The chaplains asked the district court to enjoin three
current Navy selection board policies—(1) staffing the sevenmember selection boards with two chaplains, (2) enabling
members to keep their votes secret via the “sleeves,” and (3)
allowing the Chief of Chaplains or his deputy to serve as the
selection board president—that they claim result in disparate
treatment of the non-liturgical candidates. Plaintiffs’ (July 22,
2011) Motion for a Preliminary Injunction 1. The disparate
treatment, they say, is shown by various statistical data, which
we’ll consider shortly.
The chaplains’ theory is that a candidate is more likely to
be promoted if he or she shares a religious denomination with
one of the chaplains on the selection board, or with the Chief
of Chaplains. The bottom line is an advantage in promotion

A53

Page 3 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

4
rates for Catholics and liturgical Protestants over nonliturgical Christians. The chaplains posit that the small board
size, combined with secret votes, enables each board’s
chaplains to ensure that a particular candidate will not be
promoted, thus increasing the odds for their preferred (and
discriminatory) results.
Pending resolution of their summary judgment motion,
the chaplains asked the district court for a preliminary
injunction halting the challenged policies. The district court
denied the request, but we vacated the denial and remanded
for the district court to clarify its reasoning on the chaplains’
likelihood of success on the merits; we were unsure whether
the district court viewed the insufficiency of the chaplains’
claims to be legal or factual. See In re Navy Chaplaincy, 697
F.3d at 1180. On remand, the district court concluded that the
chaplains were unlikely to succeed on the merits of either
claim because the statistics they offered failed to show any
discriminatory intent behind the challenged policies or the
resulting outcomes. In re Navy Chaplaincy, 928 F. Supp. 2d
at 36-37.
The chaplains appeal to us again, claiming that the court
erred in requiring a showing of intent to prove either an equal
protection or establishment clause violation. We find that the
chaplains’ equal protection attack on the Navy’s facially
neutral policy could prevail only if they showed a likelihood
of success in proving an intent to discriminate (which they
have not shown) or the lack of a rational basis for the policies
(which they have not claimed). As to the Establishment
Clause, the chaplains have not shown a likelihood of success
under any test that they have asked the court to apply. We
therefore affirm the district court’s denial of the preliminary
injunction.

A54

Page 4 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

5
* * *
In order to determine whether to issue a preliminary
injunction, the district court applies four familiar criteria: (1)
likelihood of success on the merits; (2) irreparable injury; (3)
lack of substantial injury to other parties; and (4) furthering
the public interest. Chaplaincy of Full Gospel Churches, 454
F.3d at 297. We have already found an absence of any error
in the district court’s analysis of the last three factors, and
have made clear that the only unresolved issue is whether the
chaplains have shown a likelihood of success on the merits.
In re Navy Chaplaincy, 697 F.3d at 1179. The chaplains in
effect argue that the district court used improper legal
standards on that issue. But the record and the district court’s
findings allow us to resolve the question of likelihood of
success on the merits on our own, and we accordingly do so.
See Chaplaincy of Full Gospel Churches, 454 F.3d at 297
(legal conclusions upon which denial of preliminary
injunction relies are reviewable de novo).
Equal protection. The chaplains argue that the three
challenged policies result in disparate treatment of nonliturgical chaplains. But none of the challenged practices on
its face prefers any religious denomination. The regulation
behind the practice of staffing boards with two chaplains
explicitly requires denominational neutrality. “Chaplain
Corps board members shall be nominated without regard to
religious affiliation.” SECNAVINST 1401.3A Encl. (1),
¶ 1.c.(1)(f) (Dec. 20, 2005). Thus, even if one of the
chaplains always serves as board president (as the chaplains
allege), the board president, necessarily a board member, must
be a person chosen for the board without regard to religious
affiliation. Finally, the practice of secret voting is neutral on
its face. All three policies together, then, are facially neutral
with respect to denomination.

A55

Page 5 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

6
The chaplains nonetheless claim that the policies either
were adopted with discriminatory intent or have been applied
in such a manner as to favor denominations other than the
non-liturgical ones. As the district court found, the chaplains
have presented no evidence of discriminatory intent in the
policies’ enactment. Nor have they shown a current pattern of
disparate
outcomes
from
which
unconstitutional
discriminatory intent could be inferred under the prevailing
understanding of equal protection. For such claims, “Absent a
pattern as stark as that in Gomillion or Yick Wo, impact alone
is not determinative.” Village of Arlington Heights v.
Metropolitan Housing Development Corp., 429 U.S. 252, 266
(1977) (citing Gomillion v. Lightfoot, 364 U.S. 339 (1960);
Yick Wo v. Hopkins, 118 U.S. 356 (1886)). The district court
found, at best, only a 10% advantage in promotion rates for
officers of the same denomination as the Chief of Chaplains
(the difference between a 73.3% promotion rate for candidates
of different denominations and an 83.3% rate for candidates
of the same denomination). In re Navy Chaplaincy, 928 F.
Supp. 2d at 37.
There is some internal contradiction in the chaplains’
position on these figures. Their brief states that they cover
promotions in the period 2003-2012, when the current
procedures were in place (Appellants’ Br. at 15), but it cites
Joint Appendix (“J.A.”) 1107, an affidavit that situates the
data in 1981-2000, before the proportion of chaplains on the
selection boards was decreased. Giving the chaplains the
benefit of the doubt, we assume the data apply to the later
period, the one governed by the rules they seek to enjoin. The
chaplains’ only efforts to show a larger disparity rely on data
for selections occurring before the 2003 changes.
The district court correctly noted that the disparity
between 73.3% and 83.3% does not remotely approach the
stark character of the disparities in Gomillion or Yick Wo. Id.

A56

Page 6 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

7
For reinforcement, plaintiffs cite their expert’s opinion
that this disparity is statistically significant. The record does
not explain the reasoning behind the choice of one set of
statistical tests for significance over another (e.g., a “simple
binomial” test versus a standard test of the differences in
proportions), or demonstrate the actual calculations. See, e.g.,
Appellants’ Br. at 15. But assuming arguendo that the
methodology for determining statistical significance is
reasonable, the finding does little for our analysis.
“Correlation is not causation.” Tagatz v. Marquette Univ.,
861 F.2d 1040, 1044 (7th Cir. 1988). Statistical significance,
assuming it has been shown, indicates only a low probability
for one possible cause of the alleged disparities—random
chance. The chaplains have made no attempt to control for
potential confounding factors, such as promotion ratings,
education, or time in service. (That statement must be
qualified by recognition that time in service is broadly
reflected in occasional references to whether the candidates
were “in zone” (i.e., were within a group of a predetermined
number of the most senior officers who had not previously
been considered for promotion to a given grade) or “above
zone” (i.e., had previously been considered for promotion to a
given grade). See, e.g., J.A. 1468-70 (chaplains’ tables noting
comparisons of in zone candidates, and of in zone and above
zone candidates); J.A. 1289-92 (Navy employee affidavit
describing the zone compositions).)
Thus the label
“statistically significant” does nothing to elevate plaintiffs’
figures into the realm of Yick Wo or Gomillion.
Given facially neutral policies and no showing of intent
to discriminate, the chaplains’ equal protection attack on the
Navy’s specific policies could succeed only with an argument
that the policies lack a rational basis. See Washington v.
Davis, 426 U.S. 229, 242 (1976); United States v. Thompson,
27 F.3d 671, 678 (D.C. Cir. 1994). The chaplains attempt no

A57

Page 7 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

8
such argument. So we agree with the district court that they
have not shown the requisite likelihood of success.
Establishment. The chaplains say that under Larson v.
Valente, 456 U.S. 228 (1982), we must subject the challenged
selection methods to strict scrutiny on the ground that they
“grant[] a denominational preference,” id. at 246, or, failing
that, find that they run afoul of Lemon v. Kurtzman, 403 U.S.
602 (1971), notably the element of Lemon now generally
described as the “endorsement” test.
The chaplains’ proposed analytical sequence matches the
structure laid down by the Supreme Court for measures
assailed as denominational preferences. “Larson teaches that,
when it is claimed that a denominational preference exists, the
initial inquiry is whether the law facially differentiates among
religions. If no such facial preference exists, we proceed to
apply the customary three-pronged Establishment Clause
inquiry derived from Lemon v. Kurtzman, 403 U.S. 602
(1971).” Hernandez v. Comm’r of Internal Revenue, 490 U.S.
680, 695 (1989). As the challenged policies are facially
neutral, Larson doesn’t trigger strict scrutiny, and we proceed
to Lemon.
Lemon presents us again with a multipart test: “In order to
pass constitutional muster under the Lemon test, laws and
government practices involving religion must: (1) have a
secular legislative purpose; (2) have a principal or primary
effect that neither advances nor inhibits religion; and (3) not
result in excessive entanglement with religion or religious
institutions.” Bonham v. D.C. Library Admin., 989 F.2d 1242,
1244 (D.C. Cir. 1993) (citing Lemon, 403 U.S. at 612-13).
The chaplains naturally do not challenge the chaplaincy
program as a whole; the Second Circuit has found it
compatible with the Establishment Clause, in an opinion that
does not precisely track Lemon. Katcoff v. Marsh, 755 F.2d

A58

Page 8 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

9
223 (2d Cir. 1985). Nor do the chaplains claim that the first
or third element of Lemon cuts against the disputed selection
procedures.
Rather they claim that the challenged policies have the
“effect” of advancing particular denominations, which at least
in this context entails application of the “endorsement” test.
Bonham, 989 F.2d at 1245. That in turn takes us to the
question of whether the selection policies appear to endorse
religion in the eyes of a “reasonable observer,” who “‘must be
deemed aware’ of the ‘history and context’ underlying a
challenged program.” Zelman v. Simmons-Harris, 536 U.S.
639, 655 (2002) (quoting Good News Club v. Milford Central
School, 533 U.S. 98 (2001)). As the policies themselves are
facially neutral, the chaplains under this theory argue in effect
that a reasonable observer, contemplating the results of the
policies (as gathered in the chaplains’ statistical evidence),
would infer that the government had as a practical matter
endorsed the liturgical denominations.
Assuming arguendo that it is proper to see the
“reasonable observer” as a hypothetical person reviewing an
array of statistics (the observer is already a judicial construct
rather than a human being), the figures in this case would not
lead him to perceive endorsement. Here the plaintiffs’
statistics fail to show government endorsement of particular
religions under the reasonable observer test for the same
reason that, in the equal protection context, they failed to
show intentional discrimination paralleling that of Gomillion
or Yick Wo. The only new wrinkle, perhaps, is that we must
impute to the reasonable observer either enough grasp of
statistics not to be misled by the assertion of “statistical
significance,” or at least the modesty not to leap to a
conclusion about the data without making an elementary
inquiry on the subject. We feel confident that when
reasonable observers find that the term means only that there

A59

Page 9 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

10
is little likelihood that the “discrepancy” is due to chance, they
are most unlikely to believe that the policies convey a
message of government endorsement.
Plaintiffs cite Title VII cases in which we found that
statistically significant “disparities” in such matters as hiring
and pay were enough to support district court findings of
racial discrimination. See, e.g., Berger v. Iron Workers
Reinforced Rodmen Local 201, 843 F.2d 1395 (D.C. Cir.
1988); Segar v. Smith, 738 F.2d 1249, 1277-79, 1286-87
(D.C. Cir. 1984). But in these cases the court found liability
only after being satisfied that the statistical evidence properly
controlled for confounding variables. See, e.g., Berger, 843
F.2d at 1413-21 (reviewing potential non-discriminatory
explanations); id. at 1419 (reasoning that the “entire notion of
employing statistical proof is to eliminate non-discriminatory
causes” of the disparities); Segar, 738 F.2d at 1274-77. Here,
as we observed in the equal protection analysis, the chaplains
point to no serious effort at such controls for any of their
statistical comparisons. Accordingly, even assuming that a
court could properly impute a belief in denominational
favoritism to the reasonable observer simply on the basis of
statistics that might satisfy a plaintiff’s Title VII burden, the
chaplains’ data fail to meet that standard and thus fail to show
a likelihood of success on the merits.
Finally, the chaplains point to our observation in Bonham
that there is no “de minimis exception to traditional
Establishment Clause analysis.” 989 F.2d at 1245. But the de
minimis defense that we rejected there was a notion that state
actions could be excused, even though a reasonable observer
would have regarded them as endorsing religion, so long as
the action in question had only a trivial impact, for example,
an action affecting “only a single day of the year.” It was,
obviously, not a suggestion that the “reasonable observer”
should be deemed to spot “endorsement” on a bare surmise.

A60

Page 10 of 11

USCA Case #13-5071

Document #1472661

Filed: 12/27/2013

11
The district court’s order denying the chaplains’ motion
for preliminary injunction is therefore
Affirmed.

A61

Page 11 of 11

USCA Case #13-5071

Document #1481280

Filed: 02/24/2014

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 13-5071

September Term, 2013
1:07-mc-00269-GK
Filed On: February 24, 2014

In re: Navy Chaplaincy,
-----------------------------Chaplaincy of Full Gospel Churches, et al.,
Appellants
v.
United States Navy, et al.,
Appellees

BEFORE:

Garland, Chief Judge; Henderson, Rogers, Tatel, Brown, Griffith,
Kavanaugh, Srinivasan, Millett, Pillard, and Wilkins, Circuit Judges;
and Williams, Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for rehearing en banc, and the
absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

A62

/s/
Jennifer M. Clark
Deputy Clerk

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 1 of 29

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
)

IN RE: NAVY CHAPLAINCY

Case No. 1:07-mc-269 (GK)

)

_____________________________ )
MEMORANDUM OPINION

Plaintiffs,

current

and

former

non-liturgical

Protestant

chaplains in the United States Navy ("Navy"), endorsing agencies
for

non-liturgical

non-denominational

Protestant
Christian

chaplains,
evangelical

and

a

fellowship. of

churches,

bring

this

action against Defendants, Department of the Navy and several of
its officials.
against

them on

decisions
Clause

Plaintiffs allege that Defendants discriminated

the

Amendment's

Due

authority

basis

in violation of

and

violated

the

the

the

religion when making
First Amendment's

equal

protection

Process

Clause,

Establishment

over

of

personnel

Clause
decisions

component
and
by
to

that

personnel

Establishment

of

the

Fifth

Defendants

delegating
chaplains

also

governmental
who

sat

on

chaplain selection boards.
This matter is before the Court on Plaintiffs' Motion for a
Preliminary Injunction [Dkt. No. 95] on remand from the Court of
Appeals. 1

Upon consideration of the Motion, Opposition [Dkt. No.

1

The District Court denied this Motion on January 30, 2012.
Plaintiffs appealed that judgment and the Court of Appeals
reversed and remanded for further proceedings. See infra Section

A63

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 2 of 29

98],

Reply

[Dkt. No.

99],

and the entire record herein,

and for

the reasons set forth below, Plaintiffs' Motion is denied.
I .

BACKGROUND

Factual Background2

A.

Congress provided for the organization of the Navy Chaplain
Corps,

"whose

possess

specialized education,

the

spiritual

families."
2002)

needs

Adair

commissioned

in the

marks

the Chaplain Corps

into four

"faith groups" :

non-liturgical

Worship. In re Navy Chaplaincy,

697

2d

to meet

31,

35

omitted).

Protestant,

F. 3d 1171,

who

Navy and their

quotation

Protestant,

183

serve

(internal

liturgical

2012)

officers

training and experience

those who

England,

Naval

Supp.

I)

v.

of

are

F.

(Adair

divides

members

The

Navy

Catholic,

and

1173

(D.D.C.

Special

(D.C.

Cir.

0

The term "liturgical Protestant" refers to "those Christian
Protest~nt

denominations whose services include a set liturgy or

order of worship." Adair I,

183 F.

the

Protestant"

term

"non-liturgical

I.B. (setting out
matter) .

in detail

Supp.

2d at 36.
refers

the procedural

2

to

In contrast,
"Christian

background of

this

For a more detailed account of the facts in this case, refer to
Chaplaincy of Full Gospel Churches v. England, 454 F. 3d 290,
293-96 (D.C. Cir. 2006) and Adair v. England, 183 F. Supp. 2d
31, 34-38 (D.D.C. 2002) (Adair I).
-

2 -

A64

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 3 of 29

denominations or faith groups that do not have a formal liturgy
or order in their worship service."

Id.

Plaintiffs are current

and former non-liturgical

Protestants,

"represent [ing]

Southern

Baptist, Christian Church,

Pentecostal, and other non-liturgical

Christian faith groups." Id.
In
have

order

an

to

become

a

'ecclesiastical

endorsing

agency

chaplain,

endorsement'

certifying

professionally qualified
the

Navy

to

that

represent

"an

Churches

of

are

Full
two

Gospel

the

individual

such

endorsing

and

agencies

must
group

a

that

Churches

faith

from

Chaplain Corps." In re Navy Chaplaincy,

Chaplaincy

individual

is

faith

group

within

697

F. 3d at

1173.

Associated
and

are

Gospel

among

the

Plaintiffs in this case. Id.
The

Navy

officers,
1172

the

including

(D.C.

.careers

uses

Cir.

personnel

chaplains.

2004).

to provide

same

That

In

system

critical personnel

continuation

on

retirement."

Id.
for

active

Chaplains,
promotion

like

by

best

and
all

'selection

all

375

F.3d

to manage

of

its

1169,

officers'

qualified personnel

decisions:

duty;

for

England,

"seeks

the Navy with the

through three

recommended

re

system

(1)

(3)

Navy

promotion;

selective

early

officers,

boards'

(2)

convened

"are
to

consider whether particular candidates should be promoted to a

- 3 -

A65

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 4 of 29

higher rank." In re Navy Chaplaincy,

697 F.3d at 1173. Chaplain

selection boards are

currently composed of

seven members:

chaplains

other

(citing

and

five
~

1401. 3A, Suppl.

officers.

Id.

two

SECNAVINST

1. c. (1) (f)) .

Plaintiffs allege that Defendants "discriminated against
[them]

on

the

basis

of

their

by

religion,

[]

establishing,

promoting and maintaining illegal religious quotas and religious
preferences

in

their

Chaplaincy,

841

F.

personnel
Supp.

2d

decision
336,

making."

In

(D.D.C.

341

re

Navy

2012).

More

specifically, Plaintiffs allege that "the Navy's selection board
process
Catholic

results
and

in

denominational

liturgical

favoritism

chaplains

while

that

advantages

disadvantaging

non-

liturgical chaplains" and that "this alleged systematic bias has
left non-liturgical chaplains underrepresented in the Navy." Id.
340.
Plaintiffs claim that,
" [c] haplain

promotion

depressing one of

five

under the selection board process,

board

members

buttons

in a

'vote
'sleeve'

the

record'

by

which hides

the

voter's hands, ensuring the secrecy of the vote" and that "[t]he
buttons coincide with degrees of confidence the voter has in the
record

considered,

increments."

Pls.'

ranging
Mot.

from

for

0

Prelim.

- 4 -

A66

to

in

100

Inj.

at

25
4

degree

(internal

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 5 of 29

quotation marks omitted) . Plaintiffs allege that the secrecy of
the vote enables chaplain promotion board members to engage in
the practice of "zeroing out" candidates, a practice in which "a
single [board] member voting zero" ensures that a candidate will
not be selected "because of the small number of board members
who vote [.]" Id. No other branch of the military uses the same
or similar procedures in the management of the careers of its
religious leaders.
Plaintiffs claim that,
has

no

that

accountability,

in

every

under this promotion system,

their

[Navy

"[s] tatistical

Chaplain

Corps]

analysis

personnel

[]

which
shows

management

category that can be measured by data, the Navy has a preference
for

Catholics

first,

Liturgical

Protestants

second,

with non-

liturgical or Special Worship [faith group clusters] alternating
third and fourth." Id. at 4-5.
Plaintiffs

now move

for

a

preliminary

the Court to enjoin the Navy from " ( 1)
Chaplains

(the

board president;
accountability;
boards

without

'Chief')
(2)
and

or

his

Deputy

the use of
(3)

injunction,

asking

the use of the Chief of
as

chaplain

secret votes

selection

thereon with no

placing chaplains on chaplain selection

effective

guarantees

[that]

the

power

to

distribute government benefits will be used solely for secular,

-

5 -

A67

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 6 of 29

neutral

and

non-ideological

purposes."

Id.

at

1.

Plaintiffs

request that the preliminary injunction remain in force
the

Court

can

evaluate

on

their

merits

the

partial

"until
summary

judgment (PSJ) motions pending before this Court." 3 rd. at 2.
B.

Procedural Background

This

dispute

involves

three

cases,

Gospel Churches v. England, Civ. No.

Chaplaincy

of

Full

99-2945, ·Adair v. England,

Civ. No. 00-566, and Gibson v. Dep't of Navy, Civ. No. 06-1696,
the

earliest

of

which

was

complaint of over 85 pages,

filed

in

1999,

and

each

with

a

containing multiple constitutional

claims. On June 18, 2007, the District Court concluded that the
three

cases

challenges

to

raised
the

similar

"substantially

Navy

Chaplaincy

program"

constitutional
and

accordingly

consolidated the cases under the caption In re Navy Chaplaincy.
Order (June 18, 2007) at 3-4 [Dkt. No. 1].
On July 22, 2011, Plaintiffs filed the present Motion for a
Preliminary Injunction - which is their sixth such motion for
injunctive relief. 4 On August 26,

2011,

Defendants filed their

3

As discussed below, these motions are no longer pending. The
Court did not reach the merits of the motions, but denied them
See infra
without prejudice for case management purposes.
Section I.B.3.
4

The District Court denied all five of Plaintiffs' previous
motions for preliminary injunctive or similar emergency relief.
- 6 -

A68

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 7 of 29

Opposition

to

Plaintiffs'

Motion,

and on September

12,

2011,

Plaintiffs' filed their Reply in support of their Motion.
Plaintiffs'
January 30,

motion

2012.

was

denied

by

the

District

See In re Navy Chaplaincy,

841 F.

Court

on

Supp.

2d

336. Plaintiffs appealed that judgment, and on November 2, 2012,
the

Court

of

Appeals

reversed

and

remanded

for

further

proceedings. 5 See In re NavY Chaplaincy, 697 F. 3d 1171.
1. District Court Proceedings

In denying Plaintiffs' motion, the District Court "began by
concluding

that

plaintiffs

lacked

Article

standing,

III

reasoning that their asserted future injury was too speculative
because it rested on the assumption that chaplains sitting on
future

selection

affiliated with
the

court

found

boards
[their]

would

'necessarily

own denomination,'

implausible

given

that

favor

candidates

an assumption that
Naval

officers

'are

presumed to undertake their official duties in good faith.'" In
re

Navy

Chaplaincy,

697

F.3d

at

1175

(quoting

In

re

Navy

Chaplaincy, 841 F. Supp. 2d at 345).
The District Court then concluded that "even if Plaintiffs
had Article III

standing,

the balance of the four preliminary

5

The Court of Appeals issued its Mandate on January 18,
[Dkt. No. 154].
- 7 -

A69

2013

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 8 of 29

injunction factors 6 weighed against granting injunctive relief."
In

re

Navy

"[a]lthough

Chaplaincy,
the

697

[District]

F. 3d

at

[C] curt

1175.

More

presumed

specifically,

the

existence

of

irreparable harm because plaintiffs had alleged an Establishment
•
Clause violation,

the court found that plaintiffs were unlikely

to succeed on the merits,
and

the

public

interest

injunctive relief." Id.

and that the balance of the equities
weighed

against

granting

preliminary

(citations omitted)

2. Court of Appeals Proceedings
On

appeal,

the

Court

of

Appeals

reversed

the

District

Court's conclusion that Plaintiffs lacked Article III standing,
reasoning
policies

that
will

"[P]laintiffs'
likely

non-speculative
then "review [ed]

to

support

in

that

discrimination

standing."

Id.

at

the
is

challenged
sufficiently

1177.

The

Court

the district court's ultimate decision to deny

injunctive relief,
injunction

result

allegation

as well as its weighting of the preliminary

factors [.]"

Id.

at

1178.

6

The

Court

concluded

that

In order to obtain a preliminary injunction, a plaintiff "must
establish [1] that [she] is likely to succeed on the merits, [2]
that [she] is likely to suffer irreparable harm in the absence
of preliminary relief, [3] that the balance of the equities tips
in [her] favor, and [4] that an injunction is in the public
interest." Winter v. Natural Res. Def. Council, Inc., 555 U.S.
7, 20 (2008); see infra Section II (setting out in detail the
legal standard for injunctive relief) .
- 8 -

A70

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 9 of 29

"the

district

demonstrated
Court's

court

correctly

irreparable

conclusion

that

harm"
the

assumed
and

that

agreed

balance

of

plaintiffs

with

the

the

have

District

equities

and

public interest weighed against granting the injunction.

the

Id. at

1179 (stating that "in assessing the balance of the equities and
the

public

interest,

we

must

judgment

of

military

professional

'give

great

deference

authorities'

to

the

regarding

the

harm that would result to military interests if an injunction
were

granted")

(quoting Winter v.

Natural

Res.

Def.

Council,

Inc., 555 U.S. 7, 24 (2008)).
Noting that the remaining issue was likelihood of success
on

the

district

merits,

the

court's

Court

conclusion

of

Appeals

that

saw

"no

plaintiffs

error

are

in

the

unlikely

to

succeed on the merits" of their delegation theory. 7 Id. at 1179.
However,

the

Court

of

Appeals

noted

that

"[w] e

have

a

different view of the district court's resolution of plaintiffs'
denominational

preference

theory,

i.e.,

that

the

Navy

discriminates against non-liturgical Protestants on the basis of
their religious denomination." Id. at 1179-80. Plaintiffs claim
7

Under this theory, Plaintiffs claim that the Navy impermissibly
delegates governmental
authority to religious entities by
permitting
chaplains
to
make
promotion
decisions
without
effective guarantees that the authority will be exercised in a
secular manner.
- 9 -

A71

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 10 of 29

that

"their statistical analysis provides strong evidence of a

pattern of
Plaintiffs'
analysis,

discrimination."
statistical
which

they

Id.

at

evidence
claim

1180.

and

Defendants

offer

their

demonstrates

challenge

own

expert

no

that

such

discrimination exists. Id.
The Court of Appeals observed that "the district court made
no factual findings to resolve these competing claims" and that
"[a] 11 it had to say about the issue was this:
have

submitted no

that

the

future

evidence
promotion

from which the
boards

pattern of

alleged discrimination.'"

Chaplaincy,

841 F.

Supp.

will

court

follow

Id.

2d at 346)).

'the plaintiffs
could assume
any

(quoting

In

putative
re

Navy

The Court then concluded

that "[t]he district court's entirely conclusory statement gives
us no insight at all into whether the court perceived the defect
in the Establishment Clause claim to be legal or factual, or, if
factual, whether it thought the weakness lay in the evidence of
past

or future

Appeals

vacated

discrimination."
the

District

Id.

Accordingly,

Court's

denial

of

the

Court of

Plaintiffs'

Motion and remanded for further proceedings consistent with its
opinion.

- 10 -

A72

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 11 of 29

3. Reassignment of the Case

On May 31, 2012, Judge Ricardo Urbina, who had handled this
dispute

since

2001,

retired

and

the

thereafter,

Calendar

Committee reassigned it to the undersigned Judge. Because of the
complexity of the procedural and constitutional issues raised,
which

the

decade,

parties

have

now

been

litigating

for

well

over

a

the Court held a lengthy Status Conference on July 24,

2012 to fully explore the most efficient procedure for resolving
it.

After hearing from the parties. at that Status Conference,

this Court dismissed without prejudice nine outstanding motions,
at

least

five

of

which

were

Management Order

(July 25,

setting numerous

deadlines

dispositive,

2012) 8

[Dkt. No.

and

issued

a

Case

124, later amended]

in order to move

the

case

towards

resolution.
4. Record Considered in Resolving Plaintiffs' Motion

On
opinion

November
on

2,

2012,

Plaintiffs'

further proceedings.

the

Court

Motion,

of

reversing

On November 19,

8

2012,

Appeals
and

issued

its

remanding

for

this Court ordered

Under the Case Management Order, as amended, the parties will
have fully briefed their cross-motions for summary judgment on
statute of limitations grounds by May 20, 2013. After deciding
those motions, the Court will, if necessary, set a briefing
schedule for comprehensive dispositive motions on the merits of
the constitutional issues raised by Plaintiffs.
- 11 -

A73

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 12 of 29

the parties to submit a joint statement identifying those briefs
and

exhibits

they

considered

on

(Nov.

2012)

19,

parties

which

remand

filed

filings,

Statement

their

No.

and

12,

constituted

resolving

joint

agreed

(Dec.

in

[Dkt.

briefings

they

believed

143].

On

four

the

[Dkt. No.

December

record

21,

among

be

Order

2012,

dispositive

relevant

to

Motion.

identifying,

on

constituted
2012)

Plaintiffs'

statement

exhibits

the

the
other

motions,

record.

Joint

152]. The Court considered

that robust record for purposes of resolving Plaintiffs' Motion.
II.

LEGAL STANDARD FOR INJUNCTIVE RELIEF

A preliminary injunction is an "extraordinary and drastic
remedy," Munaf v. Geren, 553 U.S. 674, 689 (2008), and "may only
be awarded upon a clear showing that the plaintiff is entitled
to such relief,"
Cir.

2011)

555 U.S.
(1997)

Sherley v.

Sebelius,

644 F.3d 388,

(internal quotation marks omitted)

at 22);

see Mazurek v.

Armstrong,

392

(D.C.

(quoting Winter,
520 U.S.

968,

972

(noting that "the movant, by a clear showing, carries the

burden of persuasion").
A party
"[1]
[she]

that

seeking

[she]

a

preliminary

injunction

must

is likely to succeed on the merits,

establish
[2]

that

is likely to suffer irreparable harm in the absence of

preliminary relief,

[3] that the balance of the equities tips in

- 12 -

A74

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 13 of 29

[her]

favor,

and

[4]

that

an

injunction

is

in

the

public

interest." Winter, 555 U.S. at 20.
In

the

past,

evaluated on a

these

four

factors

'sliding scale [,] '"

"have

such that

typically
"[i] f

makes an unusually strong showing on one of the
[she]

1288, 1291-92

Pension Benefit Guar.

the movant

factors,

does not necessarily have to make as strong a

another factor." Davis v.

been

then

showing on

Corp.,

571 F.3d

(D.C. Cir. 2009). However, the continued viability

of the sliding scale approach is uncertain "as the Supreme Court
and the D.C.
that

a

Circuit have strongly suggested,

likelihood of success on the merits

free-standing

requirement

Up for California!
12-2071,

that

a

likelihood

need not

a

is an independent,

preliminary injunction."

Dep't of the Interior,

at *6

(D.D.C. Jan.

29,

Nos.

2013);

Stand

12-309,
Sherley,

("[W]e read Winter at least to suggest if not to

standing requirement
[w]e

U.S.

2013 WL 324035,

644 F.3d at 393
hold

v.

for

without holding,

wade

for
into

of
a

success

is

an

independent,

free[but]

preliminary injunction

this

circuit

split

today.")

(internal

quotation marks omitted) .
Nor need this Court resolve this unsettled issue because a
preliminary injunction is not
less

demanding

"sliding

appropriate here,

scale"

framework.

- 13 -

A75

See

even under the
Stand

Up

for

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 14 of 29

California!,
meet

2013 WL 324035,

the

less

demanding

fortiori,

they

cannot

at *6

("If the plaintiffs cannot

'sliding

satisfy

scale'

the

then

standard,

more

stringent

a

standard

alluded to by the Supreme Court and the Court of Appeals.").
III. ANALYSIS

Plaintiffs'

claims

rest

on

two

distinct

theories,

i.e.,

their delegation and denominational preference theories. Because
the Court of Appeals affirmed the District Court's rejection of
Plaintiffs'

delegation

theory,

this

Court

need

only

consider

whether Plaintiffs are entitled to injunctive relief under their
denominational preference theory.
A.

Likelihood of Success on the Merits

According

to

Plaintiffs,

submitted "suggests,
practices

result

in

the

expert

if not establishes,
clear

testimony
[that]

denominational

award of government benefits,

they

have

the challenged

preferences

in

the

advancing some denominations and

inhibiting others to the detriment of Plaintiffs[,]" Pls.' Mot.
for Prelim.

Inj.

at 17.

challenged

practices

compelling

purpose,"

Plaintiffs further contend that "[t] he

are
and

not

narrowly

therefore

tailored

"fail

all

to

achieve

a

Establishment

Clause tests and result in unequal treatment for all chaplains."
Id.

- 14 -

A76

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 15 of 29

Defendants respond that liability for discrimination based
upon

religion

evidence

of

cannot

disparate

"be

predicated

impact

in

solely

favor

of

on

statistical

or against

certain

denominations[,]" Defs.' Opp'n to Pls.' Mot. for Prelim. Inj. at
19, because "proof of intent is a prerequisite to a finding of
unconstitutional discrimination upon the basis of religion [,]"
id.

at

27.

Defendants

further

contend

that

"[t]here

is

no

empirical evidence that would suggest denominational favoritism
or discrimination correlated to the denominational affiliation
of chaplain board members."

Id.

at 19-20.

In support of their

argument, Defendants put forward evidence from their own expert
witness,

" [who]

analyzed

disparate

impact"

but did find

Plaintiffs'

claims

"serious flaws

and
in

found

no

[Plaintiffs'

expert's] analyses." Id.
The Court of Appeals directed this Court to resolve these
competing claims and to determine whether Plaintiffs are likely
to

succeed

on

the

merits

of

their

denominational

preference

theory. In re Navy Chaplaincy, 697 F.3d at 1180.
1. Proof of Intent Is a Prerequisite to a Finding of
Unconstitutional Discrimination on the Basis of
Religion

As

a

Plaintiffs

threshold
must

legal

show

issue,

that

the

- 15 -

A77

the

parties

dispute

discrimination

whether

alleged

was

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 16 of 29

intentional. 9 Defendants argue
the

Navy

intentionally

liturgical
Mot.

Christian

that

adopted

control

Plaintiffs must prove that

policies

over

the

for Summ. J. at 10-11; see Defs.'

Prelim.

Inj.

"argument

at

that

discrimination"
precedent"

26-31.
the
is

Plaintiffs

Chaplain

to

maintain

Corps.

Defs.'

Opp'n to Pls.' Mot.

respond

plaintiffs

"inconsistent

designed

must
with

that

for

Defendants'
intentional

show

Establishment

and "contrary to the law of the case."

Clause

Pls.'

First

Mot. for Summ. J. Reply at 10.
a) Plaintiffs Bear the
Discriminatory Intent

The

Court

denominational
Navy

of

Appeals

preference

discriminates

against

Burden

recognized

theory,

that,

Plaintiffs

non-liturgical

basis of their religious denomination."

of

Demonstrating

under

claim

their

that

Protestants

on

"the
the

In re Navy Chaplaincy,

697 F.3d at 1179-80 (emphasis added); see Adair First Am. Compl.
at 43

(claiming that Defendants

"are deliberately motivated by

9

The parties debate this point in the briefs on Plaintiffs'
instant motion, see Defs.' Opp'n to Pls.' Mot. for Prelim. Inj.
at 26-31; Pls.' Mot. for Prelim. Inj. Reply at 20-23, as well as
in several of the parties' merits briefs, see Defs.' Mot. for
Summ. J. at 10-11 [Dkt. No. 46]; Pls.' First Mot. for Summ. J.
Reply at 7-10 [Dkt. No. 50]; Pls.' Opp'n to Defs.' Mot. for
Summ. J. at 10-17 [Dkt. No. 56]; Defs.' Mot. for Summ. J. Reply
at 4-6, 10 [Dkt. No. 68]; Pls.' Second Mot. for Summ. J. Reply
at 8-9 [Dkt. No. 70].

- 16 -

A78

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 17 of 29

faith group bias")
denominational

(emphasis added) . Plaintiffs argue that their

preference

Fifth Amendment

theory

considerations.

raises

Pls.'

First

Mot.

Amendment

for Prelim.

and

Inj.

at

17-18.
Where,

as here,

contravention of
Court's]
prove

"the claim is

the

First

and

invidious discrimination in

Fifth Amendments,

Ashcroft

the

v.

defendant

Iqbal,

556

acted

U.S.

with

662,

520,

540-41

u.s.

229,

(1993)
240

under
traced

effect

the
to

256,

if

neutral

law

a

clear

a

a

racial

minority,

Protection Clause

only

discriminatory purpose.");

1234 n.78
that

disproportionate

v.

Amendment));

442 U.S.

upon

Equal

(Fifth

(D.C. Cir. 1980)

Hialeah,

see

272
has

also

(1979)

is

if

that

508 U.S.

Davis,

426

Personnel
(Fourteenth

unconstitutional

Brown v.

impact

can be

Califano,

627

("Supreme Court cases have

of

discriminatory

impact,

is

necessary

to

intent,

not

establish

an

protection violation of constitutional dimensions.").

A79

added)

disproportionately

it

proof

- 17 -

purpose."

(emphasis

Washington v.

Feeney,

("[E]ven

F.2d 1221,
made

(1976)

(2009)

Inc.

(First Amendment);

of Mass. V.

Amendment)

discriminatory

676

(citing Church of Lukumi Babalu Aye,

adverse

Supreme

decisions make clear that the plaintiff must plead and

that

Admin.

[the

just
equal

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 18 of 29

Under Iqbal,

"purposeful discrimination requires more than

'intent as volition or intent as awareness of consequences .
[i]t instead involves a decision maker's undertaking a course of
action

'because

of,

not

merely

in

spite

of,

[the

action's]

adverse effects upon an identifiable group."' 556 U.S. at 676-77
(emphasis added)

(quoting Feeney, 442 U.S. at 279).

It is true that,
of

a

in exceptional cases, the disparate impact

facially neutral

factual

pattern

purposeful

is

plaintiffs'

Corp.,

to

429 U.S.

challenged government

carry

on

Village

of

252,

Fourteenth Amendment
failed

so severe

"unexplainable

discrimination.

Metro. Hous. Dev.

plaintiffs

policy may be

grounds

266

(1977)

burden

decision was

not

of

the

other

Arlington

claim was

their

that

clear
than"

Heights

v.

(holding that
viable

proving

because
that

the

motivated by discriminatory

intent) .
Such cases,
stark

as

that

determinative,

however,
in
and

are "rare" and "[a]bsent a pattern as

Gomilion
the

or

Court

Yick
must

Arlington Heights, 429 U.S. at 266
v.

Lightfoot,

shape of a

364 U.S.

city from a

the effect of

339

look

impact
to

alone

other

(emphasis added).

(1960),

square to a

removing from the

Wo,

a

A80

not

evidence."
In Gomilion

local statute altered the
28-sided figure,

city all

- 18 -

is

but

which had

four of

its

400

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 19 of 29

African American voters,
Wo v. Hopkins,
denied

118 U.S. 356

building

applicants,

and not a single white voter.

but

(1886), a city board of supervisors

ordinance
granted

In Yick

waivers

waivers

to

all

but

Chinese

200

over

to

one

non-Chinese

applicant.
Accordingly, under Supreme Court precedent, Plaintiffs must
either

(1)

point

to evidence establishing the

existence of

a

policy or practice that the government adopted "because of, not
merely in spite of"

its adverse effect on Plaintiffs,

442 U.S.

(2)

at 279,

or

Feeney,

demonstrate disparate impact "as stark

as that in Gomilion or Yick Wo," Arlington Heights, 429 U.S. at
266.
b) The Law of the Case Doctrine Does Not Relieve
Plaintiffs of Their Burden
to Demonstrate
Discriminatory Intent

Plaintiffs

argue

that

Defendants'

position on the

intent

issue is contrary to the law of the case because "[Defendants]
first

raised this

Dismiss .
Inj.

Reply

argument,

argument

in

[their]

initial

2000 Motion to

which the Court rejected." Pls.' Mot. for Prelim.
at

20-23.

Plaintiffs

statement in Adair v.

In

support

of

heavily

rely

England,

17 F.

(Adair II) that:

- 19 -

A81

their

on

the

Supp.

law

of

District
2d 7

the

case

Court's

(D.D.C.

2002)

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 20 of 29

[t]he defendants are somewhat mistaken when they
repeatedly state that plaintiffs have the "burden to
prove the threshold inquiry: [that] the Chaplain Corps
instituted policies
that actually discriminate
against non-liturgicals" before the court can apply
strict
scrutiny.
E.g.,
Defs.'
Mot.
at
60.
The
plaintiffs' burden is not that onerous. Rather, under
Supreme Court precedent, the plaintiffs in this case
bear the initial burden to show that the challenged
Navy policies "suggest[] 'a denominational preference
'" County of Allegheny, 492 U.S. at 608-09
(1989). Accordingly, if the plaintiff can demonstrate
after discovery that some or all of the Navy's
policies
and
practices
suggest
a
denominational
preference, then the court will apply strict scrutiny
to
those
policies
and
practices
for
which
the
plaintiffs have met this initial burden.
Pls.'

Mot.

F. Supp.
J.

at

for Prelim.

Inj.

Reply at 21

(quoting Adair II,

2d at 14-15); see Pls.' Opp'n to Defs.' Mot.

11

(same) ;

Pls.'

Second Mot.

for

Summ.

J.

217

for Summ.

Reply

at

9

(same) .
Defendants
implies

[that]

respond
the

that

Court

"nothing
would

not

in

discrimination

(whatever that

demonstrate

denominational

preference"

one of

intentional discrimination."

for Prelim.

Inj.

at 28;

see Defs.'

A82

a

showing)

and

that

showing

of

in order to
"it

is

clear

claim on this front to be
Defs.'

Mot.

Defs.' Mot. for Summ. J. Reply at 5-6.

- 20 -

passage

require

intentional

that the Court understood Plaintiffs'

the

Opp' n

for Summ.

to Pls.'

Mot.

J. at 10-11;

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 21 of 29

Plaintiffs'
argument

that

contention

that

Plaintiffs must

discriminatory

intent

to

"Adair

II

the

rejected"

show that Defendants acted with

prevail

on

their

First

and

Fifth

Amendment claims, Pls.' Opp'n to Defs.' Mot. for Summ. J. at 1112,

reflects

decisions

a

in

misreading

this

determined that,

case.

of

In

the

Adair

District
II,

the

Court's

prior

District

Court

although policies that explicitly discriminate

on the basis of religion are subject to strict scrutiny,
scrutiny

should

explicitly

not

be

discriminate

applied
on

the

to

policies

basis

of

that

do

religion

such
not

unless

"[P]laintiff[s] can demonstrate after discovery that some or all
of

the Navy's policies and practices

preference[.]"

Adair

II,

217

F.

suggest

a

2d at

14.

Supp.

Court deferred "addressing the parties'

denominational
The District

dispute about how much

of this showing can be comprised of statistical evidence until
after discovery[.]" Id. at 15 n.9.
Defendants are correct that these passages do not imply, no
less

clearly state,

discrimination

in

preference.

in

subject

to

And
law

reconsidered prior

that

Plaintiffs need not

order
any

of
to

to

case,

the

denominational

"[i] nterlocutory orders

case

final

demonstrate

show intentional

doctrine

judgment."

- 21 -

A83

and

may

Langevine

v.

are

not

always

be

Dist.

Of

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 22 of 29

Columbia,

106 F.3d 1018,

1023

(D.C.

Cir.

1997);

see Spirit of

Sage Council v. Kempthorne, 511 F. Supp. 2d 31, 38 (D.D.C. 2007)
(n[T]he law of the case doctrine leaves discretion for the Court
to reconsider its decisions prior to final judgment.").
Moreover,
intent

issue

the

District

in Adair

Court

I

had

already

ruling at

a

the

addressed

the

early motion to

dismiss stage, delivered only months before Adair II. Therefore
Plaintiffs were on notice of the District Court's view of nthe
importance

of

the

government's

intent

in

the

Establishment

Clause calculus[.]" 183 F. Supp. 2d at 56 n.24.
Significantly, the District Court based its Adair
that

Plaintiffs

Clause,

on

had

the

discrimination.

stated

fact
See

a

that

id.

claim

under

Plaintiffs

at

56

the

ruling,

Establishment

alleged

(n[P]laintiffs

I

intentional

have

properly

asserted that the Navy intentionally hires liturgical protestant
chaplains

dramatically

out

of

proportion

representation among [Navy] personnel.")
56

n. 24

( n [P] laintiffs

adopted

policies

control

over

the

allege

designed
Chaplain

that

to

the

maintain

Corps.")

from

their

overall

(emphasis added) ; id at
Navy has

deliberately

liturgical
(emphasis

Christian

added) ;

id.

(n[Plaintiffs] have clearly alleged an intentional preference.")
(emphasis added);

id.

at 57

( n [P] laintiffs clearly offer well-

- 22 -

A84

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 23 of 29

pled factual allegations that the Navy institutes 'a deliberate,
systematic,

discriminatory'

retention policy 'whose purpose was

to keep non-liturgical chaplains from continuing on active duty,
thus

ensuring they would not

be considered for

minimizing their future influence.")

promotion and

(emphasis added)

(citation

omitted).
Thus,

far from rejecting the argument that Plaintiffs must

prove

intent,

Adair

I,

the law of the case,

recognizes

that

the

as clearly articulated in

central

theory

of

Plaintiffs'

Establishment Clause claim rested on their being subjected to
intentional discrimination.
2. Plaintiffs
Demonstrate
Have
Failed
to
Defendants Acted with Discriminatory Intent

The Court of Appeals pointed out that
are

likely to

succeed on the merits

preference theory]
showing of

a

-

[of

that

"whether plaintiffs
their denominational

turns on whether they have made a strong

pattern of

past

discrimination on

the

basis of

religious denomination and whether that pattern is linked to the
policies

they challenge."

In re Navy Chaplaincy,

697

F. 3d at

1180 (emphasis in original) .
It

is

Plaintiffs
alleged

clear
bear

"pattern

from

the
of

the

burden
past

precedent
of

discussed

demonstrating

discrimination"
- 23 -

A85

above

that
was

that

Defendants'

motivated

by

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 24 of 29

discriminatory

intent.

Although

"[p] roof

of

discriminatory

intent must necessarily usually rely on objective factors
[t]he

inquiry

"Determining
motivating

is

practical."

whether
factor

circumstantial

Feeney,

invidious

demands

and

U.S.

discriminatory
sensitive

a

direct

442

evidence

at

279

purpose

inquiry
intent

of

n.24.
was

such

into
as

a

may

be

available." Arlington Heights, 429 U.S. at 266.
The

evidentiary

preference
expert,

theory

Dr.

is

Harald

statistical
denominations

basis
a

series

Leuba.

analysis
benefitted

Corps

denominational

rank

of

reports

Plaintiffs

shows:

" [ 1]

from

their

promotions and accessions
Chaplain

Plaintiffs'

for

argue

denominational

written
that

[that]

by

Dr.

in

Leuba's
Chiefs'

the

position

their

terms

of

[2] the Chief's influence on the

structure

[3]

favoritism

[4]

the

Navy's

the

Navy's

hierarchy of

favorite denominations and their respective promotion rates
[and]

[5]

prejudice

against

Southern

other denominations with Chiefs."

Pls.'

Baptists
Mot.

compared

for Prelim.

to

Inj.

Reply at 11 (citations omitted) .
Because a preliminary injunction is an "extraordinary and
drastic remedy," Munaf,

553

U.S.

at 689,

it is axiomatic that

"the one seeking to invoke such stringent relief is obliged to

- 24 -

A86

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 25 of 29

establish a clear and compelling legal right thereto based upon
undisputed

facts,"

(D.D.C. 1984)
Inc.,

366

Belushi

v.

Woodward,

598

F.

Supp.

36,

37

(citing Rosemont Enterprises, Inc. v. Random House

F.2d

303,

311

(2d.

Cir.

1966)).

"If

the

record

presents a number of disputes regarding the inferences that must
be drawn from the facts in the record, the court cannot conclude
that

plaintiff

has

demonstrated

success on the merits."
at 345
Urban

(D.D.C. Nov.

14,

No.

substantial

In re Navy Chaplaincy,

(citing Suburban Assocs.
Development,

a

841 F.

of

Supp. 2d

Inc. v. U.S. Dep't of Housing &

05-00856HHK,

2005); SEC v.

likelihood

2005

WL

3211563,

at

*10

Falstaff Brewing Corp.,

No.

77-

0894, 1977 WL 1032, at *18 (D.D.C. Aug. 1, 1977)).
Based

on

the

existing

Plaintiffs

have

Defendants

intentionally

provided

no

evidence

discriminated

statistics proffered by Plaintiffs,
minimally

sufficient

to

the

record,

Court

finds

that

demonstrating

that

them.

against

without more,

demonstrate

the

The

are not even

need

for

the

"extraordinary and drastic remedy" of a preliminary injunction.
Munaf, · 553

U.S.

at

contention that Dr.
not establishes,

689.
Leuba' s

Even

if

we

accepted

statistical analysis

Plaintiffs'

"suggests,

if

[that] the challenged practices result in clear

denominational preferences in the award of government benefits,"

- 25 -

A87

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 26 of 29

Pls.'

Mot.

for Prelim.

Inj.

at 17,

Plaintiffs still would not

have met their burden of demonstrating probable success on the
merits

because

alleged

they made

pattern

of

no

past

attempt

to

show that

discrimination

was

Defendants'

motivated

by

discriminatory intent.
Instead,
they

do

Plaintiffs repeatedly, and incorrectly, argue that

not

demonstrate

need

a

to

show

likelihood

of

intentional
success

denominational preference theory,
them

to

put

forward

on

discrimination

the

merits

of

to

their

and that it is sufficient for

statistics

that

merely

"suggest

a

denominational preference." Pls.' Mot. for Prelim. Inj. Reply at
11-12, 20-23; see Pls.' Mot. for Prelim. Inj. at 17; Pls.' Opp'n
to Defs.'
J.

Mot.

Reply at

proffered
policies

for Summ.

9.

no

J.

at 11; Pls.'

Second Mot.

for Summ.

Plaintiffs misunderstand their burden and have

evidence

"because

of,

that
not

Defendants
merely

in

adopted
spite

the

of"

challenged

their

adverse

effect on Plaintiffs. Feeney, 442 U.S. at 279
Moreover,

the disparate impact demonstrated by Plaintiffs'

statistics is not nearly "as stark as that in Gomilion or Yick
Wo," and therefore, there is no justification for inferring that
the

pattern of

other

than"

their

purposeful

statistics

is

"unexplainable

discrimination.

- 26 -

A88

Arlington

on grounds

Heights,

429

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 27 of 29

U.S. at 266. For instance, Dr. Leuba found that when a candidate
considered for promotion to Commander happened to be of the same
denomination

as

the

Chief

of

candidates were selected for promotion.
Inj.

at

8.

In

contrast,

Dr.

83.3%

Chaplains,

Leuba

Pls.'

also

Mot.

found

of

those

for Prelim.
that

when

a

candidate considered for promotion to Commander happened to be
of

a

different

denomination

as

the

Chief

of

Chaplains,

only

73.3% of those candidates were selected for promotion. Id.
A

mere

10%

difference

between

the

promotion

rate

of

candidates of the same denomination as the Chief of Chaplains
and

candidates

Chaplains

is

of

a

different

certainly

Heights.

Plaintiffs'

promotion

rate

is

far

not

denomination

"stark"

demonstration
removed

from

as
of

as

defined
a

the

10%
pattern

the
in

Chief

Arlington

difference
in

of

in

Gomilion,

where the challenged local statute had the effect of removing
from the city 99% of African American voters and not a single
white voter,

and the

pattern in Yick Wo,

where

the

building

ordinance waiver was denied to over 200 Chinese applicants, but
granted to all but one non-Chinese applicant.
Accordingly,

Plaintiffs'

statistical

evidence

does

not

sufficiently show that Plaintiffs are likely to succeed on the
merits of their denominational preference claim.

- 27 -

A89

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 28 of 29

B.

Evaluation of the Preliminary Injunction Factors

As noted above,
district

court

demonstrated

the Court of Appeals concluded that

correctly

irreparable

assumed

harm"

and

that
it

saw

"the
have

plaintiffs
no

error

in

the

District Court's conclusion that the balance of the equities and
the public interest weighed against granting the injunction.

In

re Navy Chaplaincy, 697 F.3d at 1179.
Evaluating

the

four

preliminary

injunction

factors,

this

Court concludes that Plaintiffs are not entitled to injunctive
relief.

Significantly,

Plaintiffs

have

not

demonstrated

that

they are likely to succeed on the merits of their denominational
preference theory because they have not provided any evidence
that

Defendants

intentionally

against

discriminated

Moreover, as the District Court previously observed,
plaintiffs'

claims might

ultimately

vindicated

demonstrate

that

an

would

be

military personnel
Supp.
507-08

2d at

349

(1986);

an

"[a]lthough

irreparable
have

plaintiffs

injunction would not

third parties" and "[they]
interest

demonstrate

them.

injury if
failed

to

substantially injure

have failed to show that the public

furthered

by

decisions."

In

the
re

(citing Goldman v.

Weinberger v.

court's

Navy Chaplaincy,
Weinberger,

Romero-Barcelo,

- 28 -

A90

intrusion

841

475 U.S.

456 U.S.

into

305,

F.

503,
312

Case 1:07-mc-00269-GK Document 162 Filed 02/28/13 Page 29 of 29

( 1982)

(noting that courts must "pay particular regard for the

public

consequences

injunction")).

in

employing

Accordingly,

the

extraordinary

Plaintiffs

are

not

remedy

of

entitled

to

Reply,

and

injunctive relief.

IV.

CONCLUSION

Upon consideration of

the Motion,

Opposition,

the entire record herein, and for the reasons set forth in this
Memorandum

Opinion,

Plaintiffs'

Motion

for

a

Preliminary

Injunction is denied.

February 28, 2013

Gladys Ke ler
United States District Judge

Copies to: attorneys on record via ECF

- 29 -

A91

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued September 10, 2012

Decided November 2, 2012

No. 12-5027
IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
APPELLANTS
v.
UNITED STATES NAVY, ET AL.,
APPELLEES

Appeal from the United States District Court
for the District of Columbia
(No. 1:07-mc-00269)

Arthur A. Schulcz, Sr. argued the cause and filed the
briefs for appellant.
Lewis Yelin, Attorney, U.S. Department of Justice,
argued the cause for appellees. With him on the brief were
Stuart F. Delery, Acting Assistant Attorney General, Ronald
C. Machen Jr., U.S. Attorney, and Marleigh D. Dover,
Attorney.
Before: HENDERSON, ROGERS, and TATEL, Circuit
Judges.

A92

Page 1 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

2
Opinion for the Court filed by Circuit Judge TATEL.
TATEL, Circuit Judge: In this case, military chaplains, all
“non-liturgical Protestants,” allege that the Navy
systematically discriminates against members of their
religious denominations in the awarding of promotions in
violation of “[t]he clearest command of the Establishment
Clause . . . that one religious denomination cannot be
officially preferred over another.” Larson v. Valente, 456 U.S.
228, 244 (1982). The district court denied plaintiffs’ motion
for a preliminary injunction, concluding that they lacked
Article III standing and, alternatively, were unlikely to
succeed on the merits of their claims. For the reasons set forth
in this opinion, we reverse the district court’s determination
that plaintiffs lack Article III standing and remand for further
factual findings regarding their likelihood of success on the
merits.
I.
The Navy maintains a Chaplain Corps of commissioned
Naval officers who have the “responsibility . . . to provide for
the free exercise of religion” for all members of the Navy and
their families. In re England, 375 F.3d 1169, 1171 (D.C. Cir.
2004) (internal quotation marks omitted). Chaplains perform a
“unique” role, serving both “as clergy or . . . professional
representative[s] of a particular religious denomination and as
. . . commissioned naval officer[s].” Id. (internal quotation
marks omitted). The Navy divides the Chaplain Corps into
four “faith groups”: Catholic, liturgical Protestant, nonliturgical Protestant, and Special Worship. Id. at 1172.
Plaintiffs, current and former military chaplains, are “nonliturgical Protestants.” Non-liturgical Protestants belong to
Protestant denominations—including Baptist, Evangelical,
Pentecostal, and Charismatic—that follow no formal liturgy

A93

Page 2 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

3
in worship services and baptize at the “age of reason” rather
than at infancy. In re Navy Chaplaincy, 534 F.3d 756, 759
(D.C. Cir. 2008). In order to become a Navy chaplain, an
individual must have an “ecclesiastical endorsement” from a
faith group endorsing agency certifying that the individual is
professionally qualified to represent that faith group within
the Chaplain Corps. In re England, 375 F.3d at 1171–72. Two
such endorsing agencies, Chaplaincy of Full Gospel Churches
and Associated Gospel Churches, are among the plaintiffs in
this case.
Like all Navy officers, chaplains are recommended for
promotion by “selection boards” convened to consider
whether particular candidates should be promoted to a higher
rank. Id. at 1172. Because selection boards are required by
statute to include at least one member from the “competitive
category” being considered for promotion, selection boards
considering chaplain promotions must have at least one
chaplain as a member. 10 U.S.C. § 612(a)(2)(A). By
instruction of the Secretary of the Navy, chaplain selection
boards are currently composed of seven members: two
chaplains and five other officers. SECNAVINST 1401.3A,
Suppl. ¶ 1.c.(1)(f). Selection boards make initial promotion
recommendations that are subsequently reviewed by the
Secretary of the Navy and then submitted to the Secretary of
Defense for transmittal to the President. 10 U.S.C.
§§ 618(a)(1), (c)(1).
Plaintiffs contend that Naval selection boards discriminate
against non-liturgical Protestant chaplains on the basis of
religious denomination. Relying on statistical analysis by their
expert and other evidence, they assert that non-liturgical
Protestant chaplains are promoted to higher ranks at
significantly lower rates than are liturgical Protestant and
Catholic chaplains, and that candidates are more likely to be

A94

Page 3 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

4
recommended for promotion when they share the
denomination of the chaplains who sit on the selection board.
Plaintiffs focus on certain “policies, practices, and
procedures” that they allege “facilitate and allow
denominational or faith group favoritism.” Appellants’ Br. 7
(emphasis omitted). Specifically, plaintiffs allege that the
small size of the selection boards and the practice of voting in
secret allow promotion decisions to be made on the basis of
religious bias. Selection board members vote by pressing one
of five buttons that indicate the degree of confidence the voter
has in the candidate, ranging from zero to 100. Plaintiffs
contend that because boards are composed of only seven
members, a chaplain can essentially veto a candidate by
voting a “zero” level of confidence, thus significantly
reducing that candidate’s chances of selection. According to
plaintiffs, because chaplains can exercise this veto power in
secret, they are free to select candidates based on their own
religious conceptions of how ministry should be conducted.
Plaintiffs also challenge the practice of appointing the Chief
of Chaplains as president of chaplain selection boards,
asserting that the Chief’s “role and influence as a decision
maker in the award of Navy benefits introduces religion into
the decision and results in denominational favoritism.” Pls.’
Mem. in Supp. of Mot. for Prelim. Inj. 23. Plaintiffs tell us
that “the other Armed Services” avoid these problems by
convening larger selection boards and requiring public voting.
Appellants’ Br. 60.
As we understand it, plaintiffs’ claim rests on two distinct
theories. First, in what we shall call their “denominational
preference” theory, they assert that selection boards
discriminate against non-liturgical Protestants in making
promotion decisions in violation of the Establishment Clause
and the Fifth Amendment’s equal protection component.

A95

Page 4 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

5
Second, plaintiffs assert that the Navy, also in violation of the
Establishment Clause, impermissibly delegates governmental
authority to religious entities by permitting chaplains to award
government benefits in the form of promotions without
effective guarantees that such authority will be exercised in a
neutral, secular manner.
The Navy takes issue with both theories. With respect to
the denominational preference theory, the Navy asserts that
there is no “factual basis for [plaintiffs’] claims that Navy
chaplain promotion boards had discriminated against
plaintiffs in the past or would likely do so in the future.”
Appellees’ Br. 36. Relying on its own statistical expert, the
Navy challenges the methodology employed by plaintiffs’
expert and asserts that its “own evidence establish[es] the
absence of any religious discrimination by the promotion
boards.” Appellees’ Br. 35. As to plaintiffs’ second theory,
the Navy asserts that the authority delegated to chaplains who
sit on promotion boards is not at all standardless because the
chaplains “must abide by statutory requirements and Navy
instructions governing the selection of officers for
promotion.” Appellees’ Br. 43.
Plaintiffs filed a motion for a preliminary injunction
seeking to enjoin the challenged procedures. Denying the
motion, the district court began by concluding that plaintiffs
lacked Article III standing, reasoning that their asserted future
injury was too speculative because it rested on the assumption
that chaplains sitting on future selection boards would
“ ‘necessarily favor candidates affiliated with [their] own
denomination,’ ” an assumption the court found implausible
given that Naval officers “are presumed to undertake their
official duties in good faith.” In re Navy Chaplaincy, 841 F.
Supp. 2d 336, 345 (D.D.C. 2012) (citation omitted). The
district court went on to conclude that even if plaintiffs had

A96

Page 5 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

6
Article III standing, the balance of the four preliminary
injunction factors weighed against granting injunctive relief.
Although the court presumed the existence of irreparable
harm because plaintiffs had alleged an Establishment Clause
violation, id. at 347, the court found that plaintiffs were
unlikely to succeed on the merits, id. at 345–46, and that the
balance of equities and the public interest weighed against
granting preliminary injunctive relief. Id. at 347–49. Plaintiffs
now appeal.
II.
We begin with the question of whether we have statutory
jurisdiction to hear this case. In the district court, the Navy
argued that the court lacked jurisdiction to consider plaintiffs’
claims because courts are prohibited by statute from
reviewing claims based “on the failure of a person to be
selected for promotion by a promotion board” unless the
person has first exhausted administrative remedies. 10 U.S.C.
§ 628(h)(1). The district court rejected this argument, In re
Navy Chaplaincy, 841 F. Supp. 2d at 344, and the Navy has
wisely chosen not to renew it on appeal. As the district court
explained, jurisdiction is proper because plaintiffs ask us “to
determine the validity of [a] law, regulation, or policy relating
to selection boards,” not to review the promotion decisions of
individual selection boards. Id.; see 10 U.S.C. § 628(i)(1)
(“Nothing in this section limits[] the jurisdiction of any court
of the United States . . . to determine the validity of any law,
regulation, or policy relating to selection boards.”). We thus
turn to the question of Article III standing, an issue we review
de novo. LaRoque v. Holder, 650 F.3d 777, 785 (D.C. Cir.
2011).
“[T]hose who seek to invoke the jurisdiction of the federal
courts must satisfy the threshold requirement imposed by
Article III of the Constitution by alleging an actual case or

A97

Page 6 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

7
controversy.” City of Los Angeles v. Lyons, 461 U.S. 95, 101
(1983). To establish constitutional standing, a plaintiff must
show (1) an injury in fact that is “concrete and particularized”
and “actual or imminent”; (2) that the injury is “fairly
traceable” to the defendants’ challenged conduct; and (3) that
the injury is likely to be “redressed by a favorable decision.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61 (1992)
(internal quotation marks and alterations omitted). And, as we
earlier explained in this very litigation, “[i]n reviewing the
standing question, we must be careful not to decide the
questions on the merits for or against the plaintiff, and must
therefore assume that on the merits the plaintiffs would be
successful in their claims.” In re Navy Chaplaincy, 534 F.3d
at 760.
Where as here plaintiffs seek “forward-looking injunctive
. . . relief, past injuries alone are insufficient to establish
standing.” NB ex rel. Peacock v. District of Columbia, 682
F.3d 77, 82 (D.C. Cir. 2012) (internal quotation marks
omitted). Instead, plaintiffs must show that they face an
imminent threat of future injury. Lyons, 461 U.S. at 105; see
also O’Shea v. Littleton, 414 U.S. 488, 495–96 (1974). Here,
plaintiffs contend that they face future injury because they
will likely suffer discrimination on the basis of their religious
denomination when they are considered for promotion by
future selection boards. This assertion of future injury
depends on two subsidiary premises: that plaintiffs will be
considered for promotion by future selection boards and that
selection boards will discriminate against them on the basis of
their religious denomination.
The first premise is undisputed. The Navy concedes that
future selection boards may very well consider the promotion
of at least some plaintiffs. Appellees’ Br. 19. Thus, this is not
a situation in which plaintiffs have asserted mere “ ‘some day’

A98

Page 7 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

8
intentions” to engage in the conduct they claim will cause
them injury. Lujan, 504 U.S. at 564; see also Fair
Employment Council of Greater Washington, Inc. v. BMC
Marketing Corp., 28 F.3d 1268, 1273–74 (D.C. Cir. 1994)
(plaintiffs lacked standing to seek injunctive relief where they
failed to allege that they would seek job referrals in the near
future from the defendant they claimed would discriminate
against them on the basis of race). Here, at least some
plaintiffs will probably appear before selection boards in the
near future.
The second premise—that selection boards are likely to
discriminate against plaintiffs on the basis of their religious
denomination—is disputed by the Navy on the grounds that
the asserted future injury depends, as the district court found,
on the questionable assumption that “chaplains who will serve
as promotion board members will necessarily favor
candidates affiliated with [their] own denomination.” In re
Navy Chaplaincy, 841 F. Supp. 2d at 345 (internal quotation
marks omitted). According to the Navy, mere predictions that
chaplains will someday behave in a biased manner are too
conjectural to support standing. It is true that vague
predictions of future discriminatory conduct are insufficient to
demonstrate the imminent threat of future injury necessary to
support standing to seek injunctive relief. In Lyons, for
example, the Supreme Court held that a plaintiff who had
previously been stopped by the police and subjected to a
chokehold lacked standing to seek injunctive relief because
the plaintiff’s assertion that the police were likely to apply a
chokehold to him again in any future encounter was too
speculative to demonstrate an imminent threat of future
injury. 461 U.S. at 105–06. We have similarly found standing
lacking where plaintiffs claimed future injury based on
speculation about alleged discriminatory practices
unconnected to concrete policies. See Worth v. Jackson, 451

A99

Page 8 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

9
F.3d 854, 860 (D.C. Cir. 2006) (plaintiff failed to demonstrate
likely future injury where he “challenge[d] no statute,
regulation, or written policy committing HUD to favoring
minorities or women, resting his claim instead on speculation,
untethered to any written directive, about how HUD is likely
to make future employment decisions”).
In this case, however, plaintiffs’ asserted future injury
does not depend solely on speculation about whether
individual chaplains will behave in a biased manner. Instead,
plaintiffs challenge specific policies and procedures—the
casting of secret votes, the small size of selection boards, and
the appointment of the Chief of Chaplains as president—that
they claim have resulted in denominational discrimination
and, if not ended, will continue to do so in the future. Unlike
in other cases, like Lyons, where plaintiffs speculated about
the very existence of the unwritten discriminatory practices at
issue, here the Navy acknowledges that the challenged
policies and procedures not only exist, but will continue to
govern the conduct of future selection boards. The prospect of
future injury becomes significantly less speculative where, as
here, plaintiffs have identified concrete and consistentlyimplemented policies claimed to produce such injury. For
example, the Supreme Court suggested in Lyons that the
plaintiff would have been able to show a likelihood of future
injury had he alleged that the City maintained a policy
directing or authorizing the use of chokeholds without
provocation. 461 U.S. at 105–06. Similarly, in NB ex rel.
Peacock, where Medicaid-eligible plaintiffs claimed they
faced an imminent threat of future prescription coverage
denials without the required notice, we found it significant
that plaintiffs had alleged that the defendant maintained “a
policy of denying prescription coverage without providing the
various forms of notice that plaintiffs claim are required.” 682
F.3d at 85. We emphasized that plaintiffs had alleged “not

A100

Page 9 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

10
only that numerous specific denials of coverage were made
without adequate notice, but also that [the defendant’s]
guidance and manuals . . . contain no provisions for giving
Medicaid recipients written notice of the reasons for coverage
denials.” Id. (citations omitted).
To be sure, plaintiffs here never allege that the challenged
policies directly authorize discrimination against or require
disparate treatment of non-liturgical Protestants. Instead, they
assert that these policies facilitate or exacerbate
discrimination by chaplains serving on selection boards. We
take the Navy’s point that the asserted causal link between the
policies and the alleged discrimination is more attenuated here
than in a case where the challenged policies directly authorize
the allegedly illegal conduct. Cf. Worth, 451 F.3d at 859
(plaintiff had standing to challenge HUD’s written affirmative
action plan authorizing racial and gender goals in
employment). That said, we conclude that plaintiffs’
allegation that the challenged policies will likely result in
discrimination is sufficiently non-speculative to support
standing. For one thing, chaplains inclined to vote on the basis
of their religious preferences may be more likely to do so
under the cover of secret ballots. Moreover, it goes without
saying that the small size of selection boards gives potentially
biased chaplains more influence over the outcome of the
proceedings.
We would have a different view of this issue if plaintiffs’
claims of discrimination on the basis of religious
denomination were the type of “fantastic” allegations that
have given us pause elsewhere. Tooley v. Napolitano, 586
F.3d 1006, 1009 (D.C. Cir. 2009) (internal quotation marks
omitted). But this is not such a case. Our nation has long
grappled with the curse of discrimination on the basis of
religious belief. The “spiritual tyranny” of the Anglican

A101

Page 10 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

11
Church was one reason why Thomas Jefferson proposed the
Virginia Statute for Religious Freedom of 1786. Merrill D.
Peterson, Thomas Jefferson and the New Nation 133–34
(1970 ed.). In the late nineteenth century, reflecting the then
“pervasive hostility” towards the Catholic Church, the nation
nearly adopted the infamous Blaine Amendment, which
would have barred aid to “sectarian”—widely understood to
mean “Catholic”—institutions. Mitchell v. Helms, 530 U.S.
793, 828 (2000) (plurality opinion). And in more recent times,
courts have invalidated laws that discriminate against
particular religious beliefs or practices by laying “the hand of
the law . . . on the shoulder of a minister of [an] unpopular
group.” Fowler v. Rhode Island, 345 U.S. 67, 70 (1953)
(invalidating municipal ordinance interpreted to prohibit
preaching in public park by a Jehovah’s Witness but to allow
church services by Catholics and Protestants); see also
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520, 542, 546–47 (1993) (invalidating ordinances
prohibiting animal sacrifice found to be aimed at suppressing
the religious practices of Santeria adherents).
In response to plaintiffs’ claims, the Navy attacks the
evidentiary underpinnings of plaintiffs’ allegations and argues
that the challenged procedures do not result in discrimination
against non-liturgical Protestants. This argument, however,
goes to the merits of plaintiffs’ claims, not their standing to
bring them. To be sure, the Navy may challenge plaintiffs’
evidence to the extent it relates to standing, but it may not
“bootstrap standing analysis to issues that are controverted on
the merits.” Public Citizen v. FTC, 869 F.2d 1541, 1549 (D.C.
Cir. 1989). Here, the Navy neither disputes plaintiffs’ claims
that they will expose themselves to potential injury by
applying for promotions nor argues that it has any plans to
change the procedures alleged to injure plaintiffs. Instead, the
Navy argues that plaintiffs’ evidence fails to demonstrate a

A102

Page 11 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

12
pattern of discrimination against non-liturgical Protestants.
Perhaps the Navy is right about this, but that is a question for
the merits, not for standing, and at this stage we must assume
that plaintiffs will prevail on the merits. Thus, in In re Navy
Chaplaincy, we “assume[d] arguendo that the Navy’s
operation of its retirement system favors Catholic chaplains
and disfavors non-liturgical Protestant chaplains in violation
of the . . . Establishment Clause.” 534 F.3d at 760 (internal
quotation marks omitted). Here too we must assume that
plaintiffs will prevail on their claims that the Navy’s
promotion system operates in a similarly discriminatory
fashion.
We are thus satisfied that at least those plaintiffs whose
promotions will likely be considered by future selection
boards operating under the challenged policies have standing
to pursue their claims for injunctive relief. Although future
injury is not certain, “absolute certainty is not required.” NB
ex rel. Peacock, 682 F.3d at 85. It is sufficient that plaintiffs
have demonstrated a “likelihood of injury that rises above the
level of unadorned speculation—that is, a realistic danger that
[they] will suffer future harm.” Id. at 85–86 (internal
quotation marks omitted). Because only one plaintiff must
have standing, we have no need to consider either the Navy’s
motion to dismiss certain retired and former chaplains from
the appeal for lack of standing or whether the organizational
plaintiffs have standing to pursue their claims. Comcast Corp.
v. FCC, 579 F.3d 1, 6 (D.C. Cir. 2009).
III.
We turn next to the district court’s denial of plaintiffs’
motion for a preliminary injunction. A preliminary injunction
is “an extraordinary remedy that may only be awarded upon a
clear showing that the plaintiff is entitled to such relief.”
Winter v. Natural Resources Defense Council, Inc., 555 U.S.

A103

Page 12 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

13
7, 22 (2008). In order to obtain a preliminary injunction, a
plaintiff “must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of equities tips
in his favor, and that an injunction is in the public interest.”
Id. at 20. We review the district court’s ultimate decision to
deny injunctive relief, as well as its weighing of the
preliminary injunction factors, for abuse of discretion.
Chaplaincy of Full Gospel Churches v. England, 454 F.3d
290, 297 (D.C. Cir. 2006). We review the district court’s legal
conclusions de novo and its findings of fact for clear error.
Serono Laboratories, Inc. v. Shalala, 158 F.3d 1313, 1318
(D.C. Cir. 1998).
In this case, although the district court presumed the
presence of irreparable harm because plaintiffs had alleged an
Establishment Clause violation, it ultimately denied their
motion for a preliminary injunction, concluding that they
were unlikely to succeed on the merits and that both the
balance of equities and the public interest weighed against
granting the injunction. As the Navy concedes, the district
court correctly assumed that plaintiffs have demonstrated
irreparable harm. Appellees’ Br. 44; see Chaplaincy of Full
Gospel Churches, 454 F.3d at 303 (“[W]here a movant
alleges a violation of the Establishment Clause, this is
sufficient, without more, to satisfy the irreparable harm prong
for purposes of the preliminary injunction determination.”).
Moreover, the Supreme Court has instructed that, in assessing
the balance of equities and the public interest, we must “ ‘give
great deference to the professional judgment of military
authorities’ ” regarding the harm that would result to military
interests if an injunction were granted. Winter, 555 U.S. at 24
(quoting Goldman v. Weinberger, 475 U.S. 503, 507 (1986)).
This leaves the question of likelihood of success on the
merits.

A104

Page 13 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

14
We begin with plaintiffs’ delegation theory—that the
Navy impermissibly delegates governmental authority to
religious entities by permitting chaplains to make promotion
decisions without effective guarantees that the authority will
be exercised in a secular manner. In support, plaintiffs cite
Larkin v. Grendel’s Den, Inc., 459 U.S. 116 (1982), in which
the Supreme Court held that a Massachusetts statute granting
religious institutions an effective veto power over applications
for liquor licenses violated the Establishment Clause because
the delegated power was “standardless, calling for no reasons,
findings, or reasoned conclusions” and because there were no
“effective means of guaranteeing that the delegated power
will be used exclusively for secular, neutral, and
nonideological purposes.” Id. at 125; see also United
Christian Scientists v. Christian Science Board of Directors,
829 F.2d 1152, 1170–71 (D.C. Cir. 1987). Plaintiffs
emphasize that they object not to the mere delegation of civic
authority, but rather to the fact that such delegation is, as in
Larkin, devoid of standards and procedural guarantees to
ensure the neutral exercise of such power.
This case is a far cry from the “standardless” delegation
scheme at issue in Larkin. Here, Congress and the Secretary
of the Navy have articulated secular, neutral standards to
guide selection board members in evaluating candidates for
promotion. Specifically, board members are required by
statute to recommend for promotion those officers they deem
“best qualified for promotion within each competitive
category considered by the board,” 10 U.S.C. § 616(a), and
the Navy provides to each selection board specific “guidance
relating to the needs of the Navy . . . for officers with
particular skills in each competitive category, and other
information and guidelines as necessary to enable the board to
perform its functions properly.” SECNAVINST 1420.1B,

A105

Page 14 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

15
¶ 13.d.(2). And unlike in Larkin, where the churches had final
say over the liquor license applications, 459 U.S. at 125, here
the two chaplains on the selection boards share decisionmaking authority with five others, and the board’s promotion
decisions are subject to further review by the Secretary of the
Navy and the Secretary of Defense. 10 U.S.C. §§ 618(a)(1),
(c)(1). We thus see no error in the district court’s conclusion
that plaintiffs are unlikely to succeed on the merits of their
delegation theory.
We have a different view of the district court’s resolution
of plaintiffs’ denominational preference theory, i.e., that the
Navy discriminates against non-liturgical Protestants on the
basis of their religious denomination. As discussed above,
plaintiffs contend that their statistical analysis provides strong
evidence of a pattern of discrimination. For its part, the Navy
challenges plaintiffs’ evidence and offers its own expert
analysis that it claims demonstrates that no such
discrimination exists.
Unfortunately, the district court made no factual findings
to resolve these competing claims. All it had to say about the
issue was this: “the plaintiffs have submitted no evidence
from which the court could assume that the future promotion
boards will follow any putative pattern of alleged past
discrimination.” In re Navy Chaplaincy, 841 F. Supp. 2d at
346. But this is the wrong legal standard. Whether “future”
promotion boards are likely to discriminate on the basis of
religious denomination is, as we have explained, the question
we ask to determine whether plaintiffs have Article III
standing. The issue before us now—whether plaintiffs are
likely to succeed on the merits—turns on whether they have
made a strong showing of a pattern of past discrimination on
the basis of religious denomination and whether that pattern is
linked to the policies they challenge. Perhaps by saying that

A106

Page 15 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

16
plaintiffs had “submitted no evidence from which the court
could assume” future injury, id., the district court meant to
say that plaintiffs’ evidence of a pattern of past
discrimination, when considered in light of the Navy’s
contrary evidence, was unpersuasive. Yet the district court
never said so, much less explained why it reached any such
conclusion. Under these circumstances, we have no findings
to review for clear error. See Lyles v. United States, 759 F.2d
941, 944 (D.C. Cir. 1985) (“Where the trial court provides
only conclusory findings, unsupported by subsidiary findings
or by an explication of the court’s reasoning with respect to
the relevant facts, a reviewing court simply is unable to
determine whether or not those findings are clearly
erroneous.”).
The Navy insists that the district court did make factual
findings regarding plaintiffs’ showing of past discrimination.
In support, it points to the court’s statement that “the evidence
put forth by the plaintiffs at best establishes a colorable claim
to relief under the Establishment Clause.” In re Navy
Chaplaincy, 841 F. Supp. 2d at 349. At oral argument,
counsel for the Navy claimed that this amounts to an implicit
factual finding to which we must defer unless clearly
erroneous. Oral Arg. Rec. 34:05–34:32, 34:58–35:30; see
Ellipso, Inc. v. Mann, 480 F.3d 1153, 1159 (D.C. Cir. 2007)
(applying clear error review to implicit factual finding of
district court in granting preliminary injunction). But the cited
statement cannot fairly be read as a finding—implicit or
otherwise—about the strength of plaintiffs’ showing of past
discrimination. The district court’s entirely conclusory
statement gives us no insight at all into whether the court
perceived the defect in the Establishment Clause claim to be
legal or factual, or, if factual, whether it thought the weakness
lay in the evidence of past or future discrimination.

A107

Page 16 of 17

USCA Case #12-5027

Document #1402789

Filed: 11/02/2012

17
IV.
For the foregoing reasons, we reverse the district court’s
determination that plaintiffs lack Article III standing to seek
injunctive relief. We also vacate the district court’s denial of a
preliminary injunction and remand for further proceedings
consistent with this opinion.
So ordered.

A108

Page 17 of 17

USCA Case #12-5027

Document #1413259

Filed: 01/03/2013

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 12-5027

September Term, 2012
1:07-mc-00269-RMU
Filed On: January 3, 2013

In re: Navy Chaplaincy,
-----------------------------Chaplaincy of Full Gospel Churches, et al.,
Appellants
v.
United States Navy, et al.,
Appellees

BEFORE:

Henderson, Rogers, and Tatel, Circuit Judges

ORDER
Upon consideration of appellants’ petition for panel partial rehearing filed on
December 17, 2012, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

A109

/s/
Jennifer M. Clark
Deputy Clerk

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 1 of 18

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
IN RE: NAVY CHAPLAINCY

:
:
:

Civil Action No.:

07-0269 (RMU)

Re Document No.:

95

MEMORANDUM OPINION
DENYING THE PLAINTIFFS’ MOTION FOR A PRELIMINARY INJUNCTION
I. INTRODUCTION
This matter comes before the court on the plaintiffs’ sixth motion for a preliminary
injunction pursuant to Federal Rule of Civil Procedure 65(a). The plaintiffs claim that the Navy
Chaplain Corps’ selection board process, in which Navy chaplains cast votes resulting in the
promotion of other chaplains, violates the Establishment Clause of the First Amendment to the
United States Constitution. More specifically, the plaintiffs allege that the Navy’s selection
board process results in denominational favoritism that advantages Catholic and liturgical
chaplains while disadvantaging non-liturgical chaplains. 1 The plaintiffs contend that this alleged
systematic bias has left non-liturgical chaplains underrepresented in the Navy. For the following
reasons, the court denies the plaintiffs’ motion for a preliminary injunction.

1

The term “non-liturgical” denotes Christian denominations or faith groups that do not have a
formal liturgy or order in their worship service. Adair, Mem Op. (Jan. 10, 2002) at 5.

1

A110

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 2 of 18

II. FACTUAL & PROCEDURAL BACKGROUND
The court has recounted the rich factual history in this case on numerous occasions, and
forgoes yet another recitation of the facts. 2 See, e.g., Chaplaincy of Full Gospel Churches v.
England, 454 F.3d 290, 293-96 (D.C. Cir. 2006); Adair v. England, 183 F. Supp. 2d 31, 34-38
(D.D.C. 2002). For purposes of this memorandum opinion, the court notes that the plaintiffs
claim that the Department of the Navy and several of its officials (collectively, “the defendants”)
have discriminated against the plaintiffs on the basis of their religion, by establishing, promoting
and maintaining “illegal religious quotas” and religious preferences in their personnel decisionmaking. Adair et al. v. England et al., Civ. No. 00-566 (“Adair”), 4th Am. Compl. ¶ 1;
Chaplaincy of Full Gospel Churches et al. v. England et al., Civ. No. 99-2945 (“CFGC”), 4th
Am. Compl. ¶ 1; Gibson v. Dep’t of Navy, Civ. No. 06-1696 (“Gibson”), Am. Compl. ¶ 1. More
specifically, the plaintiffs allege that the Navy is discriminating against members of “nonliturgical” religions when, inter alia, making promotion decisions. Adair, Mem Op. (Jan. 10,
2002) at 5-9.
Three cases have been commenced, all raising “substantially similar constitutional
challenges to the Navy Chaplaincy program.” In re Navy Chaplaincy, Miscellaneous No. 07269, Mem. Order (June 18, 2007) at 3-4. The court ultimately determined that these cases,
Adair v. England, CFGC v. England and Gibson v. Department of the Navy, should be
consolidated under the caption In re Navy Chaplaincy. See id. at 4.

2

On June 18, 2007, the court consolidated these related matters and created a new miscellaneous
action for the three consolidated cases, captioned In re Navy Chaplaincy. See Mem. Order (June
18, 2007).

2

A111

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 3 of 18

Although their constitutional challenges are nearly identical, the plaintiffs in each case
are varied. The Adair plaintiffs are 17 current and former non-liturgical chaplains in the Navy.
Adair, Mem. Op. (Jan. 10, 2002) at 2. In the CFGC case, the plaintiffs are composed of an
endorsing agency for non-liturgical military chaplains called the Chaplaincy of Full Gospel
Churches, and seven of its individual members. Id. Lastly, the Gibson plaintiffs consist of 41
individual plaintiffs and one organizational plaintiff, the Associated Gospel Churches, which is
“a fellowship of non-denominational, evangelical churches.” Gibson, Am. Compl., ¶ 3.
As is immediately pertinent here, the Navy Chaplain Corps’ selection process allows
Navy chaplains to cast votes for or against chaplains, potentially resulting in the promotion of
chaplains to higher ranks and larger pay. See generally Pls.’ Mot. for Prelim. Inj. According to
the plaintiffs, chaplain selection board members vote by pressing one of five buttons (ranging
from zero to one hundred in twenty-five degree increments) that are concealed in a sleeve. Id. ¶
3. If one chaplain on the selection board presses the button for “zero,” that single vote “zeroes
out” the other votes, resulting in the likely non-promotion of a candidate. Id. ¶ 4. Because the
voting buttons are concealed in a sleeve, chaplains’ votes are and remain secret. Id. ¶ 3.
As a result of this process, the plaintiffs now move for preliminary injunction, asking the
court to enjoin the Navy from “(1) the use of the Chief of Chaplains (the ‘Chief’) or his Deputy
as chaplain selection board president; (2) the use of secret votes thereon with no accountability;
and (3) placing chaplains on chaplain selection boards without effective guarantees that the
power to distribute government benefits will be used solely for secular, neutral and nonideological purposes.” Id. at 1. The plaintiffs have recently discovered that the government
intends to proceed imminently with the selection board process, highlighting the plaintiffs’ need

3

A112

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 4 of 18

to swiftly prevent the government from beginning its promotion cycle. With the plaintiffs’
motion ripe for adjudication, the court turns to the applicable legal standards and the parties’
arguments.

III. ANALYSIS
A. Legal Standard for Injunctive Relief
This court may issue interim injunctive relief only when the movant demonstrates “[1]
that [they are] likely to succeed on the merits, [2] that [they are] likely to suffer irreparable harm
in the absence of preliminary relief, [3] that the balance of equities tips in his favor, and [4] that
an injunction is in the public interest.” Winter v. Natural Res. Def. Council, Inc., 129 S. Ct. 365,
374 (2008) (citing Munaf v. Geren, 128 S. Ct. 2207, 2218-19 (2008)). It is particularly important
for the movant to demonstrate a likelihood of success on the merits. Cf. Benten v. Kessler, 505
U.S. 1084, 1085 (1992) (per curiam). Indeed, absent a “substantial indication” of likely success
on the merits, “there would be no justification for the court’s intrusion into the ordinary
processes of administration and judicial review.” Am. Bankers Ass’n v. Nat’l Credit Union
Admin., 38 F. Supp. 2d 114, 140 (D.D.C. 1999) (internal quotation omitted).
The other critical factor in the injunctive relief analysis is irreparable injury. A movant
must “demonstrate that irreparable injury is likely in the absence of an injunction.” Winter, 129
S. Ct. at 375 (citing Los Angeles v. Lyons, 461 U.S. 95, 103 (1983)). Indeed, if a party fails to
make a sufficient showing of irreparable injury, the court may deny the motion for injunctive
relief without considering the other factors. CityFed Fin. Corp. v. Office of Thrift Supervision,
58 F.3d 738, 747 (D.C. Cir. 1995). Provided the plaintiff demonstrates a likelihood of success

4

A113

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 5 of 18

on the merits and of irreparable injury, the court “must balance the competing claims of injury
and must consider the effect on each party of the granting or withholding of the requested relief.”
Amoco Prod. Co. v. Gambell, 480 U.S. 531, 542 (1987). Finally, “courts of equity should pay
particular regard for the public consequences in employing the extraordinary remedy of
injunction.” Weinberger v. Romero-Barcelo, 456 U.S. 305, 312 (1982).
As an extraordinary remedy, courts should grant such relief sparingly. Mazurek v.
Armstrong, 520 U.S. 968, 972 (1997). The Supreme Court has observed “that a preliminary
injunction is an extraordinary and drastic remedy, one that should not be granted unless the
movant, by a clear showing, carries the burden of persuasion.” Id. Therefore, although the trial
court has the discretion to issue or deny a preliminary injunction, it is not a form of relief granted
lightly. In addition, any injunction that the court issues must be carefully circumscribed and
“tailored to remedy the harm shown.” Nat’l Treasury Employees Union v. Yeutter, 918 F.2d 968,
977 (D.C. Cir. 1990).

B. The Court Denies the Plaintiffs’ Motion for a Preliminary Injunction
1. The Court Has Jurisdiction to Entertain the Plaintiffs’ Claims
As a threshold matter, the defendants challenge the court’s jurisdiction to grant any
injunctive relief, and to entertain the plaintiffs’ claims insofar as they relate to the promotion
boards. According to the defendants, “[t]he court does not possess jurisdiction to enjoin
selection board proceedings” because Congress has statutorily limited the relief available by
enacting 10 U.S.C. § 628. The plaintiffs respond that § 628 does not specifically address
injunctions, and argue that “[h]ad [Congress] wanted to” deprive the court of jurisdiction in this

5

A114

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 6 of 18

regard, it would have chosen more specific language. Pls.’ Reply at 10. Additionally, the
plaintiffs assert that the court has jurisdiction “to enjoin unconstitutional action by government
officials.” Id.
In 2001, Congress enacted legislation that limits a court’s jurisdiction over those actions
filed on or after December 28, 2001 which seek judicial review of a decision or recommendation
by certain military boards. See 10 U.S.C. § 628(h). More specifically, the relevant provisions
require that a person seeking judicial review of a decision made by a “promotion board” must
first exhaust his or her administrative remedies by resorting to a “special selection board.” 3 See
10 U.S.C. § 628(h). Section 628(h)(1) forbids any “court of the United States” from considering
“a claim based to any extent on the failure of a person to be selected for promotion by a
promotion board,” unless “the person has first been referred by the Secretary concerned to a
special selection board convened under [10 U.S.C. § 628] and acted upon by that board and the
report of the board has been approved by the President.” Id. § 628(h)(1) (emphasis added).
Furthermore, 10 U.S.C. § 628(h)(2) states:
No official or court of the United States may, with respect to a claim based to any
extent on the failure of a person to be selected for promotion by a promotion
board –
except as provided in subsection (g), grant any relief on the claim unless the
person has been selected for promotion by a special selection board convened
under this section to consider the person for recommendation for promotion and
the report of the board has been approved by the President.

3

A “special selection board” is a board convened to consider an officer’s eligibility for a
promotion, see 10 U.S.C. § 628, or to review the decision by a selection board not to recommend
an officer (or a former officer) for promotion, see 10 U.S.C. § 14502.

6

A115

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 7 of 18

The plain language of these provisions indicates that a district court may review a
promotion board’s decisions only after a special selection board first considers a plaintiff’s
claim. 10 U.S.C. § 628(h); see also Blackmon-Malloy v. U.S. Capitol Police Bd., 575 F.3d 699,
704 (D.C. Cir. 2009) (observing that determining whether a statute’s exhaustion requirements are
jurisdictional “is a question of statutory interpretation”); Bd. of Governors of the Fed. Reserve
Sys. v. MCorp Fin. Inc., 502 U.S. 32, 44 (1991) (determining that the district court lacked
jurisdiction because the relevant statute had “provide[d the Court] with clear and convincing
evidence that Congress intended to deny the District Court jurisdiction” to review the case);
Randolph-Sheppard Vendors of Am. v. Weinberger, 795 F.2d 90, 101-103 (D.C. Cir. 1986)
(noting that “the inclusion of a detailed grievance procedure to resolve [] disputes . . . was the
strongest evidence of Congressional intent” that a party exhaust administrative remedies before
resorting to the federal courts”). Thus, a court lacks jurisdiction to review decisions by the
promotion boards and special selection boards if a plaintiff fails to exhaust his or her
administrative remedies under § 628. See Nat’l Coal. to Save Our Mall v. Norton, 269 F.3d
1092, 1095 (D.C. Cir. 2001) (determining that Congress’s “unequivocal intent to cut off judicial
review” for a specific type of claim meant that the court lacked jurisdiction over that claim);
Cotrich v. Nicholson, 2006 WL 3842112, at *2 (M.D. Fla. Dec. 19, 2006) (dismissing the case,
inter alia, for lack of jurisdiction due to the plaintiff’s failure to exhaust the administrative
procedures in § 1558). Additionally, the court may not grant “any relief” unless certain
procedural hurdles have been satisfied, i.e. the convening of a special selection board and
approval of that board’s report by the President. 10 U.S.C. § 628(i).

7

A116

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 8 of 18

There is, however, one critical exception carved out by Congress. Section 628(i) states
that “nothing in this section” limits “the jurisdiction of any court of the United States under any
provision of law to determine the validity of any law, regulation, or policy relating to selection
boards.” 10 U.S.C. 628(i). Stated otherwise, under § 628(i), a court retains jurisdiction to
review the actions by a selection or promotion board so long as the claim seeks that the court
decide the “validity of any law, regulation, or policy relating to selection boards.” 10 U.S.C. §§
1558(g), 628(i).
In reviewing § 628(i) and § 628(h), the court is persuaded that Congress did not intend to
deprive this court of jurisdiction to review the alleged unconstitutional policies that guide a
promotion board. The plaintiffs specifically challenge the policies used by the Navy to
determine the composition and decision-making of the promotion boards. Thus, because the
plaintiffs’ claims challenge the validity of policies relating to promotion boards, the court
concludes that it maintains jurisdiction to review these claims pursuant to § 628(i). Moreover,
the court believes that § 628(h), when read in conjunction with § 628(i), does not limit the
court’s ability to provide injunctive relief when such relief is taken as part of determining the
validity of promotion boards’ policies. Motion Picture Ass’n of Am., Inc. v. Fed. Commc’ns
Comm’n, 309 F.3d 796, 801 (D.C. Cir. 2002) (noting that individual sections of a single statute
should be construed together).

2. The Plaintiffs Fail to Demonstrate Standing for the Injunctive Relief Requested
The plaintiffs assert that they have standing because they “include active duty and active
duty Reserve chaplains and two endorsing agencies with active duty Navy chaplains and

8

A117

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 9 of 18

chaplain candidates who will be reviewed by the selection board procedures they challenge.”
Pls.’ Mot. at 2. The defendants argue that the plaintiffs do not meet their burden in
demonstrating standing because the plaintiffs cannot “show any injury-in-fact sufficient to
establish their standing to seek prospective relief enjoining any future [promotion] boards.”
Defs.’ Opp’n at 12. Specifically, the defendants contend that in requesting injunctive relief, the
plaintiffs ask the court to rely on “dubious presumptions.” Id.
To demonstrate standing, a plaintiff must have suffered (or in this case, will suffer) an
injury in fact, which is defined as a harm that is concrete and actual or imminent, not conjectural
or hypothetical. Byrd v. Envtl. Prot. Agency, 174 F.3d 239, 243 (D.C. Cir. 1999) (citing Steel
Co., 523 U.S. at 103). This Circuit has made clear that no standing exists if the plaintiff’s
allegations are “purely ‘speculative[, which is] the ultimate label for injuries too implausible to
support standing.’” Tozzi v. Dep’t of Health & Human Servs., 271 F.3d 301, 307 (D.C. Cir.
2001) (quoting Advanced Mgmt. Tech., Inc. v. Fed. Aviation Admin., 211 F.3d 633, 637 (D.C.
Cir. 2000)). Finally, if a plaintiff is an association, it may demonstrate standing as long as “its
members would have standing to sue in their own right, the interests at stake are germane to the
organization’s purpose, and neither the claim asserted nor the relief requested requires members’
participation in the lawsuit.” Consumer Fed’n of Am. v. Fed. Commc’ns Comm’n, 348 F.3d
1009, 1011 (D.C. Cir. 2003) (quoting Hunt v. Wash. State Apple Adver. Comm’n, 432 U.S. 333,
343 (1977)).
As the defendants observe, the plaintiffs essentially ask the court to assume that the
chaplains who will serve as promotion board members will “necessarily favor candidates
affiliated with his or her own denomination,” and that the future promotion boards’ decision will

9

A118

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 10 of 18

be controlled by the voting habits of these allegedly biased chaplain members. As the court has
previously explained to the parties, when a Navy chaplain sits on a promotion board, they act
“first and foremost as Naval officers,” and are presumed to undertake their official duties in good
faith. See Adair, Mem. Op. (Jan. 10, 2002) at 48-49. Absent compelling evidence to the
contrary, the plaintiffs’ suggestions cannot support a finding that the plaintiffs have standing.
Winpisinger v. Watson, 628 F.2d 133, 139 (D.C. Cir. 1980) (noting that standing does not exist
where the court “would have to accept a number of very speculative inferences and assumptions
in any endeavor to connect [the] alleged injury with [the challenged conduct]”). As such, the
court determines that the plaintiffs lack standing to move for the injunctive relief requested in
their motion. Trans World Airlines, Inc. v. National Mediation Bd., 1981 U.S. Dist. LEXIS
13618, at *27 (D.D.C. 1981) (noting that the harm suggested by the plaintiff was “too
speculative and minimal to generate standing to move for injunctive relief”).

3. Substantial Likelihood of Success on the Merits
The plaintiffs argue that the evidence they have submitted makes a clear showing that the
defendants will promote personnel who belong to certain denominations over others. Pls.’ Mot.
at 17. According to the plaintiffs, their expert testimony suggests that the defendants are
engaging in practices which “result in clear denominational preferences in the award of
government benefits, advancing some denominations and inhibiting others to the detriment of
Plaintiffs.” Id. at 17. They further contend that “[t]he challenged practices are not narrowly
tailored to achieve a compelling purpose,” and therefore “fail all Establishment Clause tests and
result in unequal treatment for all chaplains.” Id.

10

A119

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 11 of 18

The defendants respond that “[t]here is no empirical evidence that would suggest
denominational favoritism or discrimination correlated to the denominational affiliation of
chaplain board members.” Defs.’ Opp’n at 19-20. In support of this argument, the defendants
put forth testimony from their own expert which “found serious flaws in [the plaintiffs’ expert’s]
analyses.” Id. at 20. They further argue that establishment clause liability cannot “be predicated
solely on statistical evidence of disparate impact in favor of or against certain denominations.”
Id.
Because a preliminary injunction is an “extraordinary and drastic remedy,” it is axiomatic
that “the one seeking to invoke such stringent relief is obliged to establish a clear and compelling
legal right thereto based upon undisputed facts.” Belushi v. Woodward, 598 F. Supp. 36, 37
(D.D.C. 1984) (citing Rosemont Enterprises, Inc. v. Random House Inc., 366 F.2d 303, 311 (2d
Cir. 1966)). If the record presents a number of disputes regarding the inferences that must be
drawn from the facts in the record, the court cannot conclude that the plaintiff has demonstrated
a substantial likelihood of success on the merits. Suburban Assocs. Inc. v. U.S. Dep’t of Housing
& Urban Development, 2005 WL 3211563, at *10 (D.D.C. 2005); Secs. & Exchange Comm’n v.
Falstaff Brewing Corp., 1977 WL 1032, at *18 (D.D.C. 1977).
Here, the court concludes that the plaintiffs have not made the necessary showing that
they have a substantial likelihood of success on the merits. First, the plaintiffs have submitted no
evidence from which the court could assume that the future promotion boards will follow any
putative pattern of alleged past discrimination. See Defs.’ Opp’n at 23. Second, the plaintiffs’
constitutional theory is not one that has been endorsed by this Circuit or the Supreme Court. See
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 540-43 (1993); Larson

11

A120

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 12 of 18

v. Valente, 456 U.S. 228, 246 (1982); cf. Lemon v. Kurtzman, 403 U.S. 602 (1971). Accordingly,
the court concludes that the plaintiffs have not made a clear showing that they are likely to
succeed on the merits of their Establishment Clause claim. 4

4. Irreparable Harm
With regard to the irreparable harm prong, this Circuit has “set a high standard” in order
for a plaintiff to establish the existence of an irreparable injury. Chaplaincy of Full Gospel
Churches v. England, 454 F.3d 290, 297 (D.C. Cir. 2006). The injury must be both certain and
great, and must be actual and not theoretical. Id. In addition, the injury must be beyond
remediation. Id. “Mere injuries, however substantial, in terms of money, time and energy
necessarily expended in the absence of a stay are not enough.” Id. (quoting Va. Petroleum
Jobbers Ass’n v. FPC, 259 F.2d 921, 925 (D.C. Cir. 1958) (internal quotation marks omitted)).
The plaintiffs claim that absent the injunction, they will be denied benefits in the form of
promotions, continuation of active duty and key assignments. Pl.’s Mot. at 24. These losses,
however, constitute the very type of injury that the Circuit has indicated are insufficient to
establish irreparable harm. See England, 454 F.3d at 297. The loss of money, time and energy
from these benefits comprise the types of injuries that do not fall within the scope of relief of a
preliminary injunction.

4

In addition, the defendants maintain that one of the plaintiffs’ central arguments – that certain
duties have been impermissibly delegated to religious functionaries – has already been rejected
by this court. Defs.’ Opp’n at 24. The court need not reiterate its previous analysis; suffice it to
say that a religious individual need not be hermetically sealed from the decision-making process.
The presence of a religious employee on a board that evaluates another fellow officer’s fitness for
promotion does not, by itself, make a clear showing that a constitutional injury is imminent.
Adair, Mem. Op. (Jan. 10, 2002) at 47-50.

12

A121

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 13 of 18

Furthermore, “[t]he possibility that adequate compensatory or other corrective relief will
be available at a later date, in the ordinary course of litigation, weighs heavily against a claim of
irreparable harm.” Id. at 297-98 (quoting FPC, 259 F.2d at 925). The defendants here correctly
point out that even if the plaintiffs suffer injury in the form of denied benefits, any such injury
may be reparable through the Navy’s special selection board procedures to remedy past
promotion decisions that were influenced by discrimination. Def.’s Opp’n at 3. This Circuit has
noted that “former officers who prevail before the special selection board are entitled to revision
of their military record to correct an error or remove an injustice resulting from not being
selected for promotion by the initial board.” England, 454 F.3d at 298 (internal quotations and
citations omitted). Accordingly, the plaintiffs fail to establish that the harms alleged above are
irreparable.
The plaintiffs assert that the defendants’ challenged practices violate the Establishment
Clause by discriminating against the plaintiffs on the basis of their religious affiliation, and
therefore the defendants’ alleged violation is sufficient to satisfy the irreparable harm prong.
Pl.’s Mot. at 36. This Circuit has indeed held that the mere allegation that the government is
violating the Establishment Clause may suffice to satisfy this prong. England, 454 F.3d at 304.
The Circuit has further noted, however, that a “preliminary injunction will not issue unless the
moving party also shows, on the same facts, a substantial likelihood of success on the merits, that
the injunction would substantially injure other interested parties, and that the public interest
would be furthered by the injunction.” Id. The Circuit has indicated that “unsupported or
undeveloped allegations of government establishment . . . will not withstand scrutiny concerning
the movant’s likelihood of success on the merits, thereby defeating a request for a preliminary

13

A122

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 14 of 18

injunction.” Id. “Likewise,” the Circuit has concluded, is the fate of preliminary injunction
motions that “inflict untoward detriment on persons not party to the case,” as it is for “motions
that do not further the public interest.” Id. Thus, while the Circuit has found that a violation of
the Establishment Clause is sufficient to constitute irreparable harm, its holding does not “in any
way lessen[] the burden for parties seeking preliminary injunctive relief [and instead] merely
focuses greater attention on the three other factors that indisputably enter into the preliminary
injunction determination.” Id. Accordingly, the court presumes that irreparable harm is present
and weighs more heavily the other factors discussed herein in deciding the plaintiffs’ preliminary
injunction motion.

4. Substantial Injury to Others
The plaintiffs argue that a preliminary injunction would not substantially injure any third
parties. Pls.’ Mot. at 37-38. In contrast, the defendants argue that the issuance of a preliminary
injunction would affect those potential chaplains who are currently entitled to a promotion.
Defs.’ Opp’n at 38. The defendants further note that scores of military personnel currently rely
on a fully staffed chaplaincy corps; these individuals would be harmed by a judicial order that
interrupts the flow of military personnel decisions. Id.
Whether or not third parties would be affected by a preliminary injunction is of central
importance when deciding whether to issue a preliminary injunction. National Wildlife
Federation v. Burford, 835 F.2d 305, 315 (D.C. Cir. 1987). A preliminary injunction should
only be issued if “[t]hird parties are not subject to its prohibitions.” Id. at 316. Here, it appears
that two groups of people would be directly or indirectly affected by the injunction the plaintiffs

14

A123

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 15 of 18

seek. First, the injunction the plaintiffs seek would necessarily halt the promotion of those
individuals who are currently scheduled to be promoted. See Defs.’ Opp’n at 38. An injunction
would prevent those individuals from receiving all the benefits (monetary or otherwise) that
accompany the higher rank to which they are presumably entitled. Id.
Second, those military employees who rely upon a properly staffed chaplaincy corps
would be indirectly affected by enjoining promotion boards. Should the chaplaincy corps be
understaffed, these individuals would not be able to consistently rely on the religious services
provided by military chaplains. Defs.’ Opp’n at 38. The plaintiffs do not dispute this fact in
their briefing. See Pls.’ Reply at 24-25.
In sum, the defendants have shown that there is a substantial group of third parties who
would be affected – both directly and indirectly – by the judicial injunction sought by the
plaintiffs. Accordingly, the court’s analysis of the third prong of the preliminary injunction
framework militates against a finding that the plaintiffs have made “clear showing” of their
entitlement to injunctive relief. See Mazurek, 520 U.S. at 972.

5. Public Interest
The plaintiffs argue that a preliminary injunction would serve the public interest because
such an order would provisionally remedy any potential constitutional violations. Pls.’ Mot. at
38. The plaintiffs thus argue that the public would be served by an order requiring the military to
comply with the Constitution’s First Amendment guarantees. Id. In contrast, the defendants
argue that a preliminary injunction would harm the Navy by interrupting its personnel decisions
and causing its chaplaincy corps to be understaffed. Defs.’ Opp’n at 38. The defendants

15

A124

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 16 of 18

maintain that a halt in the flow of chaplaincy personnel decisions would cause increased gaps in
the ability of chaplains to carry out their mission. Id. In addition, the defendants maintain that
the public at large would be harmed by an unwarranted judicial intrusion into military matters.
Id.
As the Supreme Court held in Goldman v. Weinberger, “[the judicial] review of military
regulations [that are] challenged on First Amendment grounds is far more deferential than
constitutional review of similar laws or regulations designed for civilian society.” 475 U.S. 503,
507 (1986). Judicial deference is therefore “at its apogee” when a court is asked to review the
constitutional propriety of military affairs. Rostker v. Goldberg, 453 U.S. 57, 70 (1981).
Similarly, case law counsels extreme caution before second-guessing decisions relating to the
military’s personnel decisions. Blevins v. Orr, 721 F.2d 1419, 1423 (D.C. Cir. 1983) (“It is
beyond the expertise, as well as the authority, of the judiciary to second-guess the military with
respect to overall manpower needs and promotion policies or to pass judgment on military policy
concerns, such as possible congressional antipathy to officer promotion practices.”). This is
particularly true where, as is the case here, it is unclear that any constitutional violation is
imminent. See Bors v. Allen, 607 F. Supp. 2d 204, 212 (D.D.C. 2009).
The court is acutely aware of the nature and gravity of the constitutional injuries alleged.
Nevertheless, the judiciary must defer to military considerations even when the challenges
involve First Amendment guarantees protected by the Constitution. Goldman, 475 U.S. at 59708. In addition, the public may suffer when the judiciary interferes with the efficient
administration of the military. Kosnik v. Peters, 31 F. Supp. 2d 151, 158 (D.D.C. 1998) (“It
would be damaging to shift the decision [as to the composition, training, equipping, and control

16

A125

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 17 of 18

of a military force] from trained military professionals to a non-specialist judiciary.”).
Moreover, “interference in military personnel decisions causes great harm to the military because
of the potential cumulative effect of multiple injunctions.” Bors v. Allen, 607 F. Supp. 2d 204,
212 (D.D.C. 2009).
The defendants maintain that a judicially ordered halt in military personnel decisions
would hamper the military’s ability to carry out its mission. Id. In addition, the defendants
maintain that the public would be harmed by an unwarranted judicial intrusion into military
matters inasmuch as it would open the door to further intrusions. Id. The plaintiffs offer no
evidence with which to rebut the defendant’s arguments, opting instead to claim that these
matters are “specious” or unsubstantiated. See Pls.’ Reply at 24. In doing so, the plaintiffs
misconstrue their duty to satisfy the “extraordinary” burden that is borne by a party seeking a
judicial remedy prior to the commission of any constitutional injury. Mazurek, 520 U.S. at 972.
The plaintiffs argue that the public’s strong interest in the efficient administration of the military
only applies when the military strictly adheres to the Constitution. Pls.’ Reply at 25. This puts
the cart before the horse, however; the plaintiffs have not yet shown unequivocally that the
military will commit any constitutional error. See Part III.B.3, supra. Until the plaintiffs have
done so “by a clear showing,” Mazurek, 520 U.S. at 972, the court must defer to the military’s
personnel decisions, Goldberg, 475 U.S. at 507. Accordingly, the court concludes that the
plaintiffs have not made a clear showing that a preliminary injunction would serve the public
interest.

17

A126

Case 1:07-mc-00269-RMU Document 108

Filed 01/30/12 Page 18 of 18

In sum, the court concludes that the plaintiffs have not satisfied their burden of showing
their entitlement to injunctive relief. The court notes that the evidence put forth by the plaintiffs
at best establishes a colorable claim to relief under the Establishment Clause. Absent a clearer
showing of the plaintiffs’ likelihood of success on the merits, there is no justification for the
court to deviate from the ordinary course of adjudication and judicial review. See Am. Bankers
Ass’n, 38 F. Supp. 2d at 140. Although the plaintiffs’ claims might demonstrate an irreparable
injury if ultimately vindicated, see England, 454 F.3d at 304, the plaintiffs have failed to
demonstrate that an injunction would not substantially injure third parties. In addition, the
plaintiffs have failed to show that the public interest would be furthered by the court’s intrusion
into military personnel decisions. Goldman, 475 U.S. at 507-08; Weinberger v. Romero-Barcelo,
456 U.S. at 312 (noting that courts must “pay particular regard for the public consequences in
employing the extraordinary remedy of injunction”). Accordingly, the court denies the
plaintiffs’ motion.

IV. CONCLUSION
For the foregoing reasons, the court denies the plaintiff’s motion for injunctive relief. An
Order consistent with this Memorandum Opinion is separately and contemporaneously issued
this 30th day of January, 2012.

RICARDO M. URBINA
United States District Judge

18

A127

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5204

September Term, 2020
1:07-mc-00269-JDB
Filed On: January 15, 2021

In re: Navy Chaplaincy,
-----------------------------Chaplaincy of Full Gospel Churches, et al.,
Appellees
Associated Gospel Churches,
Appellant
v.
United States Navy, et al.,
Appellees
-----------------------------Consolidated with 19-5206
BEFORE:

Srinivasan, Chief Judge; Henderson, Rogers, Tatel, Garland*,
Millett, Pillard, Wilkins, Katsas*, Rao, and Walker, Circuit Judges;
and Ginsburg, Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for rehearing en banc, and the
absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

*Circuit Judges Garland and Katsas did not participate in this matter.

A128

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

451 F.Supp.2d 210
United States District Court,
District of Columbia.
Robert H. ADAIR et al., Plaintiffs,
v.
Donald C. WINTER,1 Secretary of the Navy et al., Defendants.
Chaplaincy of Full Gospel Churches et al., Plaintiffs,
v.
Donald C. Winter, Secretary of the Navy et al., Defendants.
Civil Action Nos. 00–0566 (RMU), 99–2945(RMU).
|
Sept. 11, 2006.

Synopsis
Background: Current and former Non-Liturgical Protestant chaplains and their endorsing agency filed two separate suits against
the Secretary of the Navy, other Navy officials, and the Navy, alleging that the Navy's policies and practices discriminated against
them in favor of Catholic and Liturgical Protestant chaplains in violation of the First and Fifth Amendments. After the suits were
consolidated, plaintiffs moved to compel the testimony of chaplain selection-board personnel. The United States District Court
for the District of Columbia, 217 F.R.D. 250, granted the motion, and defendants filed interlocutory appeal and petition for
mandamus. The Court of Appeals, 375 F.3d 1169, reversed in part and vacated and remanded in part. Thereafter, plaintiffs
moved for declaratory judgment that statute barring any disclosure of proceedings of military officer selections boards was
unconstitutional.

Holdings: The District Court, Urbina, J., held that:

[1] determination by Court of Appeals, that there was no exception to statutory ban on disclosure, was not law of case barring
suit on constitutionality of statute;

[2] statute was not unconstitutional, on grounds that it barred all judicial review of officer selection process;

[3] barred information was not necessary to proof of claimant's case; and

[4] statute was not unconstitutional as applied.
Declaratory judgment motion denied.

See, also, 451 F.Supp.2d 202, 2006 WL 2587577.

West Headnotes (4)

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A129

1

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

[1]

Federal Courts Law of the case in general
Law of the case doctrine, barring reconsideration of previously decided issue in later phase of same case, did not
preclude district court from reviewing on remand claim that statute prohibiting disclosure of military officer selection
board proceedings to any person was unconstitutional, following Court of Appeals determination that there was no
exception for discovery in civil suit; constitutional determination was neither made nor implied in Court of Appeals'
decision. 10 U.S.C.A. § 618(f).

1 Cases that cite this headnote

[2]

Armed Services Appointment and Promotion
Statute prohibiting disclosure of proceedings of military officer selection board was not unconstitutional, on grounds
that it barred any judicial review of officer selection process; restriction was not of review, but rather of access to
information which could be presented as part of review procedure. U.S.C.A. Const. Art 1, § 3; 10 U.S.C.A. § 618(f).

Cases that cite this headnote

[3]

Armed Services Appointment and Promotion
Statute barring disclosure of proceedings of military officer selection boards was not unconstitutional, as applied to
chaplains attempting to obtain information in support of their claim that preference in retention and promotions in Navy
was being given to chaplains from liturgical Christian denominations, despite allegation that without information
chaplains could not proceed with their claims; as far as challenge was directed to specific policies, information regarding
individual selection procedures was irrelevant, and insofar as actions of specific boards were challenged, other evidence
of statistical nature was available. U.S.C.A. Const.Amend. 1; 10 U.S.C.A. § 618(f).

Cases that cite this headnote

[4]

Armed Services Appointment and Promotion
Disclosure of proceedings of military officer selection board was not constitutionally required, in suit by chaplains
bringing as applied challenge to statute barring disclosure of proceedings of military officer selection board, sought in
furtherance of claim that Navy favored chaplains from liturgical Christian denominations in retention and promotion;
there was absence of precedent recognizing right to statutorily privileged information in civil case involving
constitutional claims, and court was required to show deference to Congressional regulation of Navy. U.S.C.A.
Const.Amend. 1; 10 U.S.C.A. § 618(f).

2 Cases that cite this headnote

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A130

2

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

Attorneys and Law Firms
*211 Arthur A. Schulcz, Sr., The Law Office of Arthur A. Schulcz, Sr., Vienna, VA, for Plaintiffs.
Michael Q. Hyde, U.S. Department of Justice, Civil Division/Federal Programs Branch, Washington, DC, for Defendants.
Opinion

MEMORANDUM OPINION

URBINA, District Judge.

Denying the Plaintiffs' Motion for Declaratory Judgment

I. INTRODUCTION
The plaintiffs in this consolidated case are current and former Navy chaplains and an ecclesiastical endorsing agency for military
chaplains. The plaintiffs charge that the hiring, retention and promotion policies of the Navy Chaplain Corps demonstrate an
unconstitutional endorsement of liturgical Christian sects over non-liturgical Christian sects. Currently before the court is the
plaintiffs' motion for declaratory judgment.2 This motion does not *212 directly concern the plaintiffs' underlying constitutional
claims. Rather, the plaintiffs' instant motion comprises a constitutional challenge to 10 U.S.C. 618(f),3 which, as the D.C. Circuit
determined in a previous appeal in this case, serves as an absolute bar to civil discovery of the proceedings of Naval officer
promotion selection boards. In re England, 375 F.3d 1169 (D.C.Cir.2004). In essence, the plaintiffs argue that 618(f), as applied
to their underlying constitutional challenges of Naval policy, denies them an opportunity for meaningful judicial review because
the evidence barred by 618(f) is essential to their claims. Because there is no general constitutional right to statutorily privileged
evidence essential to establishing a constitutional claim and because evidence of the proceedings of individual promotion boards
is not essential to the plaintiffs' constitutional challenges to Naval policies, the court denies the plaintiffs' motion for declaratory
judgment.

II. BACKGROUND

A. Factual Background
Because the court has published nearly a dozen opinions in this case, it will dispense with a full recitation of the lengthy and
convoluted factual background.4 The plaintiffs' claims fall into three principal categories: First Amendment Establishment Clause
claims, Free Exercise Clause claims and Equal Protection Clause claims. Adair v. England, 183 F.Supp.2d 31, 41 (D.D.C.2002).
First, the plaintiffs charge that the Navy has established and maintained an unconstitutional religious quota system which enables
the Navy to hire, promote and retain chaplains from liturgical denominations at a rate greater than the liturgical Christian
representation among all Navy personnel. Id. at 41–42. Second, the plaintiffs allege a variety of constitutional challenges to the
Navy's chaplain-promotion system, including the placement of one Catholic chaplain on each promotion board, the use of
chaplains to rate other chaplains, the application of “faith group identifier” codes,5 and the general domination of promotion
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A131

3

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

boards by liturgical Protestant and Catholic chaplains. Id. at 42–44. Finally, the plaintiffs assert that the Navy's discriminatory
policies against, and general hostility toward, non-liturgical denominations deny non-liturgical chaplains and their would-be
congregants the constitutional right to free exercise of their religion. Id. at 44–45.

*213 B. Procedural History
Without unnecessarily expending judicial resources providing a full exposition of the lengthy procedural background of this case, 6
the court notes the following. In a previous decision in this case, the court granted the plaintiffs' motion to compel, ruling that
618(f)'s general bar on disclosure did not bar civil discovery of promotion-board proceedings. Chaplaincy of Full Gospel
Churches v. Johnson, 217 F.R.D. 250 (D.D.C.2003). The D.C. Circuit reversed, holding that 618(f)'s command that
promotion-board proceedings “may not be disclosed” includes “no inherent ambiguity ... that would justify departing from those
plain terms pursuant to a judicially-crafted exception.” In re England, 375 F.3d at 1177. The provision, therefore, constitutes an
absolute statutory privilege from civil discovery of those proceedings under Rule 26(b)(1) of the Federal Rules of Civil Procedure.
Id. As a result of the D.C. Circuit's decision in In re England, the plaintiffs argue that § 618(f) is unconstitutional. The court now
turns to the plaintiffs' motion.

III. ANALYSIS

A. The Plaintiffs' Current Constitutional Challenge is Not Barred by the Law–of–the–Case Doctrine
[1] The government argues that by previously questioning the constitutionality of § 618(f) to the D.C. Circuit in In re England,
the plaintiffs are barred from raising their present constitutional challenge. Defs.' Opp'n at 10–12. Accordingly, before addressing
the difficult constitutional issues posed by the plaintiffs, the court will consider whether the law-of-the-case doctrine bars the
plaintiffs from raising those claims. To do so, the court will briefly summarize the issues at play before the D.C. Circuit in In re
England and the plaintiffs' arguments levied in that proceeding.

In In re England, the D.C. Circuit ruled that § 618(f) constitutes a statutory bar to civil discovery of promotion-board
proceedings. In re England, 375 F.3d at 1181 (stating that despite the “harsh outcome,” § 618(f) “applies to block civil discovery
of promotion selection board proceedings in civil litigation”). In appellate briefing to the In re England court, the plaintiffs argued
that if § 618(f) constituted a statutory bar to civil discovery of promotion-board proceedings, it should not apply in cases (such
as this) in which plaintiffs raise constitutional claims. Defs.' Opp'n Ex. 6 at 22.

To support this argument, the plaintiffs relied on Webster v. Doe, id. at 529–32, 108 S.Ct. 2047, a case in which a CIA employee
claimed that the CIA violated his constitutional rights by terminating him because of his sexual orientation. Webster v. Doe, 486
U.S. 592, 596, 108 S.Ct. 2047, 100 L.Ed.2d 632 (1988). At issue in Webster was Section 102(c) of the National Security Act,
which allows the CIA Director to terminate employees whenever he “shall deem such termination necessary or advisable in the
interests of the United States.” 5 U.S.C. § 701(a)(2). The Court ruled that § 102(c) “fairly exudes deference to the Director, and
appears ... to foreclose the application of any meaningful judicial standard of review.” Webster, 486 U.S. at 600, 108 S.Ct. 2047.
The Court, however, declined to infer that *214 Congress intended § 102(c) to bar judicial review of constitutional challenges
finding no “clear intention” to that effect. Id. The Webster Court utilized this “clear intention” requirement for interpretations
of congressional bars to judicial review of constitutional claims to avoid “the ‘serious constitutional question’ that would arise
if a federal statute were construed to deny any judicial forum for a colorable constitutional claim.” Id. at 603, 108 S.Ct. 2047
(quoting Bowen v. Mich. Acad. of Family Physicians, 476 U.S. 667, 681 n. 12, 106 S.Ct. 2133, 90 L.Ed.2d 623 (1986) (noting
that “all agree that Congress cannot bar all remedies for enforcing federal constitutional rights”) (citation omitted)).

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A132

4

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

Attempting to shove § 618(f) into the Webster framework, the plaintiffs relied in their appellate brief on the legal assumption that
a bar to civil discovery of promotion-board proceedings is tantamount to a legislative attempt to preclude judicial review of their
constitutional claims. Defs.' Opp'n Ex. 6 at 22. The D.C. Circuit rejected this argument, noting that “[s]ection 618(f) ... does not
preclude judicial review of the [plaintiffs'] claims, and the government has not argued that it does.” In re England, 375 F.3d at
1180 n. 2. The Circuit noted that the “plaintiffs here remain free to litigate their discrimination claims and to support them with
other evidence.” Id.

The law-of-the-case doctrine applies to issues expressly addressed in a previous judicial decision and those issues decided by
“necessary implication.” Bouchet v. Nat'l Urban League, 730 F.2d 799, 806 (D.C.Cir.1984). Although the plaintiffs raised
Webster concerns to the D.C. Circuit, they did not directly challenge the constitutionality of § 618(f). Rather, the plaintiffs cited
Webster to encourage the D.C. Circuit to interpret § 618(f) so as not to bar civil discovery of promotion-board proceedings. Defs.'
Opp'n Ex. 6 at 22–23. In interpreting § 618(f), the circuit court rejected the existence of any Webster-like concern. In re England,
375 F.3d at 1180 n. 2. A necessary implication of this ruling, however, is not that the circuit considered, much less ruled, on the
constitutionality of § 618(f). Indeed, the plaintiffs could not have challenged the constitutionality of § 618(f) (because of its total
bar on civil discovery), until the D.C. Circuit first interpreted the statute as a total bar to civil discovery of promotion-board
proceedings. Accordingly, the plaintiffs' constitutional challenge to § 618(f), via its current motion for declaratory judgment, is
not barred by the law-of-the-case doctrine. The court now turns to an analysis of the plaintiffs' motion.

B. The Court Denies the Plaintiffs' Motion for Declaratory Judgment

1. Legal Standard for Declaratory Judgment Act
Under the Declaratory Judgment Act, a court “may declare the rights and other legal relations of any interested party” in “a case
of actual controversy within its jurisdiction.” 28 U.S.C. § 2201(a). “The term ‘actual’ is ... one of emphasis, and not indicative
of a different standard from Article III as to what qualifies as a controversy.” Fed. Express Corp. v. Air Line Pilots Ass'n, 67 F.3d
961, 963 n. 2 (D.C.Cir.1995). “To satisfy the Constitution's case or controversy requirement, a party filing a declaratory judgment
action must show that there is a controversy of ‘sufficient immediacy and reality to warrant the issuance of a declaratory
judgment.’ ” Mova Pharm. Corp. v. Shalala, 140 F.3d 1060, 1073 (D.C.Cir.1998) (quoting Md. Cas. Co. v. Pac. Coal & Oil Co.,
312 U.S. 270, 273, 61 S.Ct. 510, 85 L.Ed. 826 (1941)). There must be “a real and substantial controversy admitting of specific
*215 relief through a decree of a conclusive character as distinguished from an opinion advising what the law would be upon a
hypothetical state of facts.” Fed. Express, 67 F.3d at 963–64. If “an action has no continuing adverse impact and there is no
effective relief that a court may grant, any request for judicial review of the action is moot.” Sw. Bell Tel. Co. v. Fed. Commc'n
Comm'n, 168 F.3d 1344, 1350 (D.C.Cir.1999). Even if a controversy exists, however, a district court has broad discretion to
withhold declaratory judgment. Wilton v. Seven Falls Co., 515 U.S. 277, 287, 115 S.Ct. 2137, 132 L.Ed.2d 214 (1995) (noting
“the unique breadth of [a district court's] discretion to decline to enter a declaratory judgment”); Jackson v. Culinary Sch. of
Wash., Ltd., 59 F.3d 254, 256 (D.C.Cir.1995) (stating that the Supreme Court “took great pains to emphasize the singular breadth
of the district court's discretion to withhold declaratory judgment”).

2. Section 618(f) Does Not Bar Judicial Review of Constitutional Claims and is Not Unconstitutional as Applied to the
Plaintiffs
According to the plaintiffs, discovery into promotion-board proceedings constitutes the sole means of collecting evidence to
support their underlying constitutional claims. Pls.' Mot. at 13–14. Thus, they argue that by denying discovery into
promotion-board proceedings, 618(f) strips them of access to any meaningful judicial review. See, e.g., Pls.' Mot. at 16 (stating
that “[t]he practical effect of 618(f)'s bar to discovery is to also bar Plaintiffs' claims that their rights under ... the Due Process
Clause were violated through illegal criteria and considerations in the selection7 board process and proceedings”); id. at 17 (stating
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A133

5

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

that “[t]o deny the means to obtain such proof is to deny the claim”).

The plaintiffs ask the court to rule either (1) that § 618(f) is unconstitutional because it denies judicial review of constitutional
claims arising from promotion-board proceedings or (2) that § 618(f), as applied to these plaintiffs, is unconstitutional because
it so severely limits relevant discovery so as to deny the plaintiffs meaningful judicial review of their constitutional claims. For
reasons that follow, the court rules that § 618(f) does not bar judicial review of constitutional claims and is not unconstitutional
as applied to the plaintiffs.
a. Section 618(f) Does Not Bar Judicial Review of Constitutional Claims
[2] The plaintiffs contend that 618(f) is unconstitutional because it bars judicial review of constitutional claims arising out of
promotion-board proceedings. See, e.g., Pls.' Mot. at 22 (arguing that “[b]y barring discovery that provides critical evidence
establishing the validity of Plaintiffs' claims, Congress has deprived the courts of judicial review”). The plaintiffs make two
principal arguments in support of this position, both of which are unpersuasive.

First, the plaintiffs claim that the In re England court ruled that Congress intended 618(f) to bar judicial review of their claims.
See, e.g., Pls.' Mot. at 16. The plaintiffs' interpretation of In re England stems from their reliance on Webster, which requires a
“clear statement” of congressional intent for the court to rule that Congress intended to preclude judicial review of colorable
constitutional claims.*216 See supra at 5–6. As the plaintiffs' argument goes, “[b]y holding that Congress intended to bar
discovery into promotion board proceedings ... In re England implicitly held that Congress intended to extinguish Plaintiffs'
constitutional rights.” Pls.' Mot. at 16.

This convoluted argument is plausible only if 618(f) precludes judicial review in a similar way as did the National Security Act
at issue in Webster—by foreclosing any “judicial standard of review” through statutory delegation of promotion decisions to the
sole discretion of the Secretary of the Navy. Webster, 486 U.S. at 600, 108 S.Ct. 2047. Section 618(f), however, does not alter
or foreclose any judicial review of Naval policies, it merely restricts the evidence available to the plaintiffs in support of their
claims. In re England, 375 F.3d at 1180 n. 2.

Second, the plaintiffs argue that § 618(f) is unconstitutional because it “bars the judiciary from exercising its power to review
the constitutional issue arising from or on promotion boards and transfers that power” to the Secretary of the Navy. Pls.' Mot.
at 24. In support of this argument, the plaintiffs cite Bartlett v. Bowen, 816 F.2d 695 (D.C.Cir.1987). Id.

In Bartlett, the plaintiff challenged the constitutionality of a provision of the Social Security Act which barred Medicare payments
for nursing care to anyone who had received similar care in a Christian Science nursing facility. Id. at 697. At issue in that case
was the constitutionality of an amount-in-controversy provision of the Medicare Act that explicitly barred judicial review of any
benefits determination when the amount in controversy was less than $1,000.00. Id.

The plaintiffs cite Bartlett for its statement that “a statutory provision precluding all judicial review of constitutional issues
removes from the courts an essential judicial function under our implied mandate of separation of powers and deprives an
individual of an independent forum for the adjudication of a claim of constitutional right.” Pls.' Mot. at 24 (quoting Bartlett, 816
F.2d at 703). The plaintiffs then remind this court that the D.C. Circuit had “little doubt that such a limitation on the jurisdiction
of ... federal courts to review the constitutionality of federal legislation ... would be an unconstitutional infringement of due
process.” Id. (quoting Bartlett, 816 F.2d at 703). Though the words cited by the plaintiffs appear at first blush to lend great weight
to their argument, the plaintiffs quotation is selective and takes the D.C. Circuit's statement grossly out of context.

Had the plaintiffs quoted the Bartlett court's previous three sentences, the plaintiffs would have learned that the D.C. Circuit's
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A134

6

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

concern for a preclusion of judicial review emanates from a situation in which a plaintiff “would have no judicial forum
whatsoever (in either a federal or state court) in which to pursue her constitutional claim.” Bartlett, 816 F.2d at 703. The Bartlett
court's concern comes into play only in instances in which a litigant “would have no forum at all for the pursuit of her claims.”
Id. at 703–704 (emphasis in original). As the D.C. Circuit stated, due process places limits on Congress' power “when Congress
denies any forum—federal, state or agency—for the resolution of a federal constitutional claim.” Id. (emphasis in original).

The present case does not present a situation in which legislation precludes “all judicial review of constitutional issues.” Id.
Section 618(f), as the circuit court ruled, simply does not preclude judicial review of the plaintiffs' claims.In re England, 375 F.3d
at 1180 n. 2.

*217 As a corollary to their Bartlett-based constitutional challenge, the plaintiffs argue that 618(f) violates the separation of
powers by removing from this court its constitutional authority under Article III. Pls.' Mot. at 25. According to the plaintiffs, a
bar of judicial review of constitutional claims realigns the Constitution's assigned powers, expands the congressional power, and
“deprive[s] the judiciary of its powers under the Constitution to declare the law.” Id. at 21.

Because the plaintiffs' arguments rest on the faulty assumption that 618(f) bars judicial review of the plaintiffs' constitutional
claims, the court rejects them. Even if § 618(f) did bar judicial review, however, the plaintiffs' separation of powers argument
is without merit. The plaintiffs suggest that § 618(f) “[e]xpands Congress' power over the judiciary by legislatively altering the
judiciary's power to review constitutional claims and issues while increasing the executive's power by removing it from judicial
accountability.” Pls.' Mot. at 21–22. But, the Constitution vests the judicial power in the Supreme Court and “such inferior Courts
as the Congress shall from time to time ordain and establish.” U.S. Const. art. III. That is, a statute proscribing the jurisdiction
of the inferior courts or otherwise limits its judicial power “cannot be in conflict with the Constitution.” Sheldon v. Sill, 49 U.S.
(1 How.) 441, 449 (1850); see also, Webster, 486 U.S. at 611–612, 108 S.Ct. 2047 (Scalia, J., dissenting) (stating that the Court
“long ago held that the power not to create any lower federal courts at all includes the power to invest them with less than all of
the judicial power”) (citing Sheldon, 49 U.S. (1 How.) 441).

b. Section 618(f) is Not Unconstitutional as Applied to the Plaintiffs' Claims
The plaintiffs' as-applied challenge to § 618(f) rest on two predicates: (1) that discovery of promotion-board proceedings is
essential to the plaintiffs' claims, and (2) that the Constitution confers to civil litigants a right of access to discovery (though
privileged), which is essential to their constitutional claims. The court rules that such discovery is not essential to the plaintiffs'
challenges to Naval chaplain promotion guidelines and that civil litigants do not have a constitutional right of access to discovery
essential to their constitutional claims.

i. Discovery of Promotion–Board proceedings is Not Essential to the Plaintiffs' Claims
[3] The plaintiffs argue that testimony of promotion-board proceedings is essential to their claims because such evidence can
establish that the Navy utilized a denominational preference in deciding which chaplains to promote. 8 Pls.' Mot. at 16. According
to the plaintiffs, their claims require a showing that “forbidden denominational preferences or improper considerations did, in
fact, influence the decisions of the challenged boards,” and “[d]irect evidence that discrimination indeed occurred and was
intended can only come from the testimony of board personnel.” Id. at 17. In support of this position, the plaintiffs cite Larson
v. Valente, 456 U.S. 228, 102 S.Ct. 1673, 72 L.Ed.2d 33 (1982), Wallace v. Jaffree, 472 U.S. 38, 58–59, 105 S.Ct. 2479, 86
L.Ed.2d 29 (1985), Edwards v. Aguillard, 482 U.S. 578, 587, 107 S.Ct. 2573, 96 L.Ed.2d 510 (1987). Pls.' Mot. at 18–19. The
plaintiffs' reliance on these *218 cases is misplaced and demonstrates the plaintiffs' confusion between challenges to actions by
government actors and challenges to agency policy.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A135

7

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

The cases cited by the plaintiffs do not stand for the proposition that a plaintiff cannot establish a claim of discrimination absent
proof that government actors themselves discriminated by implementing an allegedly discriminatory policy. These cases involve
judicial inquiry into the legislative motives for the allegedly discriminatory law or policies, not the motivations of government
officials in implementing those laws or policies.9 See, e.g., Larson, 456 U.S. 228, 102 S.Ct. 1673, 72 L.Ed.2d 33 (reviewing the
comments of legislators prior to enactment of a statute in determining that the statute “does not operate evenhandedly [among
religious groups], nor was it designed to do so”); Wallace, 472 U.S. at 58–59, 105 S.Ct. 2479 (reviewing the legislative history
of a statute requiring a moment of silence at the beginning of each school day before determining that the practice had no secular
purpose); Edwards, 482 U.S. at 587, 107 S.Ct. 2573 (reviewing the statement of the legislative sponsor of a bill requiring
educators to teach creation science in conjunction with evolution as evidence that the purpose of the bill was “to narrow the
science curriculum”).

The plaintiffs' claims do not depend on demonstrating that individual promotion boards applied an impermissible denominational
preference. The plaintiffs also challenge several Navy promotion policies themselves (irrespective of the intentions of the
promotion board members operating under those policies). The plaintiffs challenge the Navy's practice of identifying the faith
group of the chaplain under consideration by promotion board members, the policy of allowing Chiefs or Deputies of Chaplains
to approve the membership of promotion boards, and the alleged practice of “stacking” boards with liturgical chaplains to the
exclusion of non-liturgical chaplains. See generally Compl. Evaluation of the board “stacking” claim, for example, to the extent
it results from a tacit rather than express Navy policy, cannot possibly depend on testimony from individual board members
regarding decisions made after having been placed on the board. Similarly, the plaintiffs' allegation that the Navy instituted a
“thirds policy,” in which it reserves one-third of its slots in the Chaplain Corps for liturgical Christians does not depend on
testimony about the actual proceedings of individual promotion boards. While § 618(f) prevents individual board members from
testifying about the proceedings of a selection board, it does not preclude testimony of board members or Navy administrators
concerning directives, orders, or policies (written or unwritten) communicated to board members that may have been intended
to infuse a denominational preference into the promotion selection process.

As the court noted previously, the Supreme Court has rejected the position that “the plaintiffs ... should have to shoulder ‘a burden
of unmistakable clarity’ to demonstrate ‘government favoritism for specific sects' in order to hold the favoritism in *219 violation
of the Establishment Clause.” Adair v. England, 217 F.Supp.2d 7, 14 (D.D.C.2002) (quoting County of Allegheny v. ACLU, 492
U.S. 573, 608–09, 109 S.Ct. 3086, 106 L.Ed.2d 472 (1989)). Instead, when litigants challenge a policy on the grounds that it
amounts to a denominational preference, while not explicitly discriminating on the basis of religion, they must only present
competent evidence that “ ‘suggest [s] a denominational preference’ ” to trigger strict scrutiny. Id. (quoting County of Allegheny,
492 U.S. at 608–609, 109 S.Ct. 3086) (emphasis added). The plaintiffs challenge the Navy's policies, not simply the alleged
impermissible intentions and actions of individual board members.10

Although discovery into the proceedings of individual promotion boards is relevant to the plaintiffs' claims concerning individual
boards' actions, such evidence is not a necessary element of a claim of religious discrimination. Indeed, the plaintiffs proffered
substantial statistical and demographic data related to the hiring, promotion, and selection for early retirement of Naval chaplains.
Pls.' Mot. Ex. 6. This data may constitute compelling evidence suggesting an intent to employ a denominational preference in
promotion decisions. See Defs.' Opp'n Ex. 11 (Wilkins v. United States, Civ. No. 99–CV–1579–IEG, Slip Op. at 15
(S.D.Cal.2005) (reviewing competent statistical evidence of the retirement recommendation rates for liturgical and non-liturgical
Naval Chaplains as evidence indicating the absence of a discriminatory intent in permitting chaplains to sit on selection boards)).

To summarize, the plaintiffs challenge both Naval policies and actions of specific promotion boards. Regarding their challenge
to Naval policies, discovery of specific promotion-board proceedings are not essential to their constitutional claims. Regarding
the plaintiffs' challenges to specific promotion boards, because the plaintiffs have available to them other evidence supporting
their claims (e.g. statistical data), discovery of promotion-board proceedings, though relevant, is not essential.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A136

8

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

ii. Discovery into Promotion–Board proceedings is Not Constitutionally Required
[4] The second predicate of the plaintiffs' as-applied challenge is more novel and is based on the proposition that litigants *220
have a constitutional right of access to evidence essential to establishing constitutional claims, even when that evidence is
privileged by statute. The Supreme Court has never announced such a right, and the plaintiffs have advanced no coherent theory
supporting one.11

Supreme Court precedent suggests that when Congress creates a discovery privilege, the fact that evidence qualifying under the
privilege is essential to a constitutional claim cannot defeat the privilege. In Baldrige v. Shapiro, 455 U.S. 345, 102 S.Ct. 1103,
71 L.Ed.2d 199 (1982), the city of Denver, Colorado sought to compel disclosure of “raw” federal census data that included
questionnaires from individual persons and address lists under Rule 26 of the Federal Rules of Civil Procedure and the Freedom
of Information Act. Id. at 348–52, 102 S.Ct. 1103. The city of Denver sought such data to challenge the accuracy of the census,
which it alleged had erroneously undercounted the city's population. Id. at 351, 102 S.Ct. 1103. The city argued that it would be
under represented in Congress as a result of this undercount. Id.; see also U.S. Const. art I, 2, cl. 3 (requiring that representation
in the House of Representatives be apportioned among states based on their population as determined by the census). The Census
Act, however, prohibited the disclosure of such data. Baldrige, 455 U.S. at 354–55, 102 S.Ct. 1103; 13 U.S.C. 9(a) (prohibiting
the Census Bureau from disclosing census data whereby “the data furnished by any particular establishment or individual ... can
be identified”).

The district court in Baldrige concluded that without this census information, “the city was denied any meaningful ability to
challenge the Bureau's data.”Baldrige, 455 U.S. at 351, 102 S.Ct. 1103. Nevertheless, the Supreme Court ruled that the Census
Act was an absolute privilege from civil discovery of raw census data. Id. at 361, 102 S.Ct. 1103 (citing 13 U.S.C. § 9(a)). And
because Congress is “vested by the Constitution with authority to conduct the census ‘as they shall by Law direct,’ ” the privilege
was a valid exercise of congressional authority, the wisdom of which was “not for [the Court] to decide in light of Congress' 180
years' experience with the census process.” Id. at 361, 102 S.Ct. 1103. Despite the city of Denver's demonstrated need for the
information, “[a] finding of ‘privilege’ ... shields the requested information from disclosure”. Id. at 362, 102 S.Ct. 1103.

Although the Court did not address whether a different analysis is appropriate for constitutional claims, the city of Denver's
interest in congressional representation according to an accurate determination of its population is arguably equally as weighty
as those constitutional rights implicated in the plaintiffs' complaint. See Reynolds v. Sims, 377 U.S. 533, 568, 84 S.Ct. 1362, 12
L.Ed.2d 506 (1964) (holding that the Equal Protection Clause demands “no less than substantially equal state legislative
representation for all citizens”). Furthermore, and as discussed infra, the Constitution confers broad authority to Congress to
“make Rules for the Government and Regulation of the land and naval forces,” U.S. Const. art. II, 8, cl. 14, similar to the specific
power granted to conduct the decennial census “in such Manner as [Congress] shall by Law direct ...” Id. art. I, 2, cl. 3.

*221 Generally speaking, criminal proceedings are the only context in which statutory rules prohibiting the introduction of certain
kinds of evidence yield to constitutional rights afforded criminal defendants.12 Nevertheless, under the plaintiffs' theory, whenever
a plaintiff brings a constitutional claim and asserts that the evidence is essential to the claim, courts would have to disregard
evidentiary privileges, including possibly, privileges for state secrets, information implicating national security, information
privileged by the attorney-client privilege, and other such important and universally recognized privileges. 13

Though § 618(f) may have a collateral effect on a plaintiffs' ability to access evidence relevant to the litigation of constitutional
claims (and may undercut the likelihood of the plaintiffs' ultimate success on the underlying merits), the court recognizes no
constitutional right of access to discovery in this circumstance, in large part because of Congress' plenary power to regulate the
Navy. Article II gives Congress the power “to provide and maintain a Navy,” U.S. Const. art. II, 8, cl. 13, and “[t]o make Rules
for the Government and Regulation of the land and naval forces.” Id. art. II, 8, cl. 14. The “specificity” with which these
“technically superfluous grant[s] of power” are given to Congress by the Constitution denotes the “insistence ... with which the
Constitution confers *222 authority over the Army, Navy, and militia upon the political branches.” United States v. Stanley, 483
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A137

9

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

U.S. 669, 681–82 & n. 6, 107 S.Ct. 3054, 97 L.Ed.2d 550 (1987); see also Orloff v. Willoughby, 345 U.S. 83, 93–94, 73 S.Ct.
534, 97 L.Ed. 842 (1953) (ruling that “judges are not given the task of running the Army. The responsibility for setting up
channels through which ... grievances can be considered and fairly settled rests upon the Congress and upon the President of the
United States and his subordinates”). “The military constitutes a specialized community governed by a separate discipline from
that of the civilian. Orderly government requires that the judiciary be as scrupulous not to interfere with legitimate Army matters
as the Army must be scrupulous not to intervene in judicial matters.” Orloff, 345 U.S. at 93–94, 73 S.Ct. 534.

The plaintiffs argue that the goals furthered by 618(f) are presumptively invalid in the face of demonstrated need by the plaintiffs
in alleging constitutional violations. Pls.' Mot. at 35–36 (asking the court to find § 618(f) invalid, in part, because “Congress has
identified no national threat which it must protect by giving deliberations on promotions ‘top secret’ security classification, nor
has it explained how hiding unconstitutional conduct contributes to the national defense”). Contrary to this position, however,
the D.C. Circuit has cited with approval the executive branch's concerns which underlie § 618(f). As the circuit stated, § 618(f)
is meant to encourage “frank and open discussion” regarding promotion decisions, a goal that would be seriously inhibited if such
discussions were “open to public scrutiny.” In re England, 375 F.3d at 1169 (quoting Gordon R. England, Secretary of the Navy).
The circuit continued by stating that “[d]isclosure of selection board proceedings in civil discovery would certainly undermine,
if not totally frustrate, the purpose of Section 618(f).” Id., at 1178.

The role of federal courts in reviewing legislation governing the exercise of military powers is necessarily limited, particularly
regarding hiring and promotion decisions, to “ensure that the courts do not become a forum for appeals by every soldier
dissatisfied with his or her ratings, a result that would destabilize military command and take the judiciary far afield of its area
of competence.” Miller v. Dep't of Navy, 383 F.Supp.2d 5, 10 (D.D.C.2005); see also Mier v. Owens, 57 F.3d 747, 751 (9th
Cir.1995) (describing the promotion of military officers as “one of the most obvious examples of a personnel action that is
integrally related to the military's structure”). For these reasons, courts are deferential to congressional decisions as to the
appropriate structure of the military and the rules governing its internal operations, including the decision embodied in 618(f)
to shield promotion-board proceedings from later disclosure. See Gilligan v. Morgan, 413 U.S. 1, 10, 93 S.Ct. 2440, 37 L.Ed.2d
407 (1973) (noting that the Constitution vests “complex, subtle, and professional decisions as to the composition, training,
equipping, and control of a military force” exclusively in the legislative and executive branches).

Given the absence of any precedent recognizing a right to statutorily privileged information in a civil case involving constitutional
claims, the thinness of the plaintiffs' legal theory, and the broad deference constitutionally afforded Congress to regulate the Navy,
the court declines to adopt the plaintiffs' theory that the Constitution requires discovery in derogation of an absolute statutory
privilege. The court holds that 618(f) is not unconstitutional as applied to the plaintiffs' claims.

*223 IV. CONCLUSION
For the foregoing reasons, the court denies the plaintiffs' motion for declaratory judgment. An order consistent with this
Memorandum Opinion is separately and contemporaneously issued this 11th day of September, 2006.

All Citations
451 F.Supp.2d 210, 98 Fair Empl.Prac.Cas. (BNA) 1844
Footnotes

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A138

10

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

1

The court substitutes the current Secretary of the Navy, Donald C. Winter, acting in his official capacity, for his predecessor Gordon
R. England. Fed.R.Civ.P. 25(d)(1).

2

The plaintiffs, in the alternative, move for summary judgment. Pls.' Mot. at 14. The court is at a loss as to how the present motion
is one for summary judgment, even in the alternative. The motion focuses solely on the constitutionality of 10 U.S.C. 618(f)'s bar
to discovery, not on the plaintiffs' underlying constitutional and statutory claims. Id. Indeed, the plaintiffs' central argument is that
without discovery into promotion-board proceedings, they will be unable to prove their claims. Bizarrely, in their reply, the plaintiffs
suggest that if the court denies the plaintiffs' motion for declaratory judgment, the court should grant summary judgment in the
defendants' favor. Pls.' Reply at 6 (arguing that “[w]here the plaintiff has the burden, all the defendant must do is show that the
plaintiff cannot meet the burden [and] no evidence of discrimination or discriminatory intent on promotion boards means no facts
which meets Plaintiffs' burden; in effect, this means no viable claim and no judicial review”). Also, the plaintiffs have not filed a
statement of undisputed material facts, as required by the Local Rules. LcvR 56.1.

3

Section 618(f) provides that “[e]xcept as authorized or required by this section, proceedings of a selection board convened under
section 611(a) of this title may not be disclosed to any person not a member of the board.” 10 U.S.C. § 618(f).

4

For a detailed account of the factual allegations underlying both complaints, see Adair v. England, 183 F.Supp.2d 31, 34–38, 40–45
(D.D.C.2002). In January 2001, the court's Calendar Committee transferred these cases from Judge June L. Green to this member
of the court. Prior to the transfer, and pursuant to the parties' joint recommendation, Judge Green consolidated the two cases for
pretrial purposes. Order (Sept. 26, 2000).

5

Although promotion boards may consider only merit and not denominational affiliation, a three-digit “faith group identifier” code,
which identifies the denominational affiliation of the candidate being considered, is allegedly prominently displayed during the
promotion process. Compl. at 37. For example, 500 signifies a Catholic and 523 signifies a Southern Baptist. Pls.' Mot. at 3 n. 2.

6

Most recently, the court denied the plaintiffs' motion for a temporary restraining order blocking the Navy from discharging plaintiff
Michael Belt and other naval chaplains from active duty in February, 2006. Chaplaincy of Full Gospel Churches v. England, 417
F. Supp 2d 1 (D.D.C.2006). On April 20, 2006, the D.C. Circuit summarily affirmed this court's denial of injunctive relief. Adair
v. Holderby, No. 06–5074 (D.C.Cir. April 20, 2006).

7

Although this case involves challenges to selection board practices, the current motion concerns only the plaintiffs' lack of access
to discovery of promotion-board proceedings. In re England, 375 F.3d at 1181–1182 (reserving judgment on “whether proceedings
of other statutory selection boards are discoverable”). The court presumes, therefore, that the plaintiffs' reference to selection boards
rather than promotion boards is in error.

8

In a previous ruling, the court noted that “if the plaintiffs can demonstrate after discovery that some or all of the Navy's policies
suggest a denominational preference, then the court will apply strict scrutiny to those policies and practices.” Adair, 217 F.Supp.2d
at 14–15.

9

The court notes that, given the uncertainty as to the controlling test for Establishment Clause claims, evidence of an impermissible
purpose may not be required. See, e.g., Lynch v. Donnelly, 465 U.S. 668, 690, 104 S.Ct. 1355, 79 L.Ed.2d 604 (1984) (O'Connor,
J., concurring) (stating that “[t]he purpose prong of the Lemon test asks whether [the] government's actual purpose is to endorse or
disapprove of religion. The effect prong asks whether, irrespective of government's actual purpose, the practice under review in fact
conveys a message of endorsement or disapproval. An affirmative answer to either question should render the challenged practice
invalid”).

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A139

11

Adair v. Winter, 451 F.Supp.2d 210 (2006)
98 Fair Empl.Prac.Cas. (BNA) 1844

10

Actually, were the plaintiffs' claims limited to allegations of illegal conduct by individual promotion boards and board members, the
plaintiffs may have failed to exhaust their administrative remedies. Previously, the court rejected the defendants' arguments that the
plaintiffs should be required to exhaust their remedies within the Navy before challenging Naval promotion policies in court. Adair,
183 F.Supp.2d at 55. The court based its decision on the fact that the plaintiffs challenge specific policies of the Navy in their
complaint, the constitutionality of which are “essentially legal issues.” Id. Similarly, the Ninth Circuit distinguished claims by military
chaplains challenging the “structure of the Chaplain Corps” and “policies affecting the structure of the military chaplaincy”—which
were not subject to exhaustion requirements—from those alleging “administratively correctable procedural errors, even when these
errors are failures to follow due process.” Wilkins v. United States, 279 F.3d 782, 786, 789 (9th Cir.2002). The Board of Corrections
of Naval Records (“BCNR”) has the power to review a promotion board's recommendations to the Secretary of the Navy to determine
if the board followed selection guidelines and applied proper criteria in making its decisions. 10 U.S.C. § 1552(a); Saad v. Dalton,
846 F.Supp. 889, 891 (S.D.Cal.1994) (holding that a Naval officer was required to exhaust her administrative remedies before
bringing a constitutional claim challenging the decision to separate her from active duty). Because Naval guidelines do not permit
promotion decisions based on religious affiliation, individual board decisions violating those guidelines are redressible, first, through
the BCNR process.

11

The plaintiffs' only argument that denial of access to such evidence implicates the Constitution is based on cases discussing the
implications of a congressional preclusion of access to “any forum” for consideration of constitutional claims. As previously
explained, supra at 10–11, this reliance is unpersuasive.

12

See Chambers v. Mississippi, 410 U.S. 284, 302, 93 S.Ct. 1038, 35 L.Ed.2d 297 (1973) (holding that the Sixth Amendment right
to compulsory process guarantees the admission of hearsay evidence, even when it does not fall into an established hearsay exception,
when the evidence is critical and bears persuasive assurances of trustworthiness); see also Holmes v. South Carolina, 547 U.S. 319,
126 S.Ct. 1727, 164 L.Ed.2d 503 (2006) (indicating that a state rule of evidence yields to a criminal defendant's constitutional right
to a “meaningful opportunity to present a complete defense” when the state rule is “arbitrary” and not based on “any legitimate
interest”); cf. Crawford v. Washington, 541 U.S. 36, 68–69, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004) (holding that the Confrontation
Clause of the Sixth Amendment prohibits introduction of “testimonial” hearsay statements unless the declarant is unavailable and
the defendant had a prior opportunity to cross-examine the declarant). It is unclear, however, whether the Constitution requires
introduction of privileged evidence critical to a criminal defendant's defense. See Washington v. Texas, 388 U.S. 14, 23 n. 21, 87
S.Ct. 1920, 18 L.Ed.2d 1019 (1967) (applying the Compulsory Process Clause to defeat a state evidence rule, but noting that
“[n]othing in this opinion should be construed as disapproving testimonial privileges ...”); Morales v. Portuondo, 154 F.Supp.2d
706 (S.D.N.Y.2001) (holding that the priest-penitent privilege could not prevent introduction of evidence the exclusion of which
would render the defendant's trial fundamentally unfair).

13

Although the plaintiffs appear to concede that privileges for evidence implicating national security concerns are sufficiently weighty
to justify barring discovery of evidence essential to even a constitutional claim, Pls.' Reply at 25, they propose no feasible method
for the court to render this balance on a case-by-case basis. While judicial balancing is appropriate in determining whether to
recognize a privilege pursuant to Rule 501 of the Federal Rules of Evidence, a statutory privilege represents a conclusion of both
the legislative and executive branches that the interests furthered by the privilege outweighs the “normally predominant principle
of utilizing all rational means for ascertaining truth.” Trammel v. United States, 445 U.S. 40, 50–51, 100 S.Ct. 906, 63 L.Ed.2d 186
(1980). The plaintiffs have articulated no rationale supporting the position that federal courts should supplant this bicameral
determination. In re England, 375 F.3d at 1180–1181 (stating that the D.C. Circuit's “unwillingness to soften the import of Congress'
chosen words even if we believe the words lead to a harsh outcome is longstanding. It results from ‘deference to the supremacy of
the Legislature, as well as recognition that Congressmen typically vote on the language of a bill’ ”) (quoting Lamie v. United States
Tr., 540 U.S. 526, 539, 124 S.Ct. 1023, 157 L.Ed.2d 1024 (2004)).

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

A140

12

CONSTITUTIONAL PROVISIONS, STATUTES AND REGULATIONS
The First Amendment to the Constitution states:
Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition the Government for a
redress of grievances.
***
The Fifth Amendment to the Constitution provides in relevant part:
No person shall . . . be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
***
10 U.S.C. § 613a. “Nondisclosure of board proceedings”, states:
(a) Prohibition on disclosure.--The proceedings of a selection board
convened under section 573, 611, or 628 of this title may not be
disclosed to any person not a member of the board, except as
authorized or required to process the report of the board. This
prohibition is a statutory exemption from disclosure, as described in
section 552(b)(3) of title 5.
(b) Prohibited uses of board discussions, deliberations, notes,
and records.--The discussions and deliberations of a selection board
described in subsection (a) and any written or documentary record of
such discussions and deliberations–
(1) are immune from legal process;
(2) may not be admitted as evidence; and
(3) may not be used for any purpose in any action, suit, or
judicial or administrative proceeding without the consent of the
Secretary of the military department concerned.
(c) Applicability. This section applies to all selection boards convened
under section 573, 611, or 628 of this title, regardless of the date on
which the board was convened.
***
10 U.S.C. § 618(f) (repealed and replaced by 10 U.S.C. § 613a in the FY 2007
National Defense Authorization Act) stated:

A141

(f) Except as authorized or required by this section, proceedings of a selection board
convened under section 611(a) of this title may not be disclosed to any person not a
member of the board.
***
DoD Instruction 1304.28 (Dated June 11, 2004)
SUBJECT: Guidance for the Appointment of Chaplains for the Military
Departments
E2. ENCLOSURE 2 DEFINITIONS
E2.1.7. Endorsement. The internal process that Religious Organizations use when
designating RMPs to represent their Religious Organizations to the Military
Departments and confirm the ability of their RMPs to conduct religious observances
or ceremonies in a military context.
Note: DoD Instruction 1304.28 was revised effective May 12, 2021. It clarifies the
former version. Its relevant parts applicable to the Petition are:
Purpose: In accordance with the authority in DOD Directive 5124.02, this
issuance:
! Establishes policy, assigns responsibilities, and identifies education and
ecclesiastical requirements for appointing chaplains in the Military Departments.
! Establishes requirements, procedures, and responsibilities for religious
organizations to endorse religious ministry professionals RMPs for the chaplaincy.
! Establishes criteria and provides procedures for the administrative separation
and loss of professional qualifications for chaplains of the Military Departments.
! Establishes policy for chaplains on:
" Meeting the religious requirements and caring for the spiritual needs of
Service members and other authorized persons.
" Advising individuals and commands on religion, morals, ethics, well-being
and morale.
DoDI at 1.
***
SECTION 3: REQUIREMENTS FOR CHAPLAINCY
3.1.

CAPABILITY REQUIREMENTS .

Chaplains:
a. Meet the religious requirements and care for the spiritual needs of
Service members and other authorized persons.

A142

b. Advise individuals on religion, morals, ethics, well-being and morale.
c. In accordance with DoDI [DODInstruction] 1300.17, have a primary role
in providing for the free exercise of religion and other religious requirements
associated with the free exercise of religion that the U.S.government would be
otherwise unable to provide to Service members and other authorized persons.
d. Are RMPs able to personally meet the religious requirements of persons in
the units to which they are assigned, potentially an isolated or combat
environments. Chaplains belong to the religious-endorsing organizations and
conduct religious ministry activities consistent with the tenets of their respective
religious-endorsing organizations.
DoDI at 5.
***
3.2 CHAPLAIN APPOINTMENT CONSIDERATIONS
To be considered for appointment to serve as a chaplain, an RMP must receive an
endorsement from a qualified religious-endorsing organization verifying that the
RMP:
[lists requirements not relevant to this Petition]
DoDI at 6.
The Glossary, DODI at 19, defines “endorsement” as: “The internal process that
religious organizations use when designating RMPs to represent the religious
organizations to the Military Departments and confirm the ability of their RMPs to
conduct religious observances or ceremonies in a military context.
***
SECRETARY OF NAVY (“SECNAV’) INSTRUCTION 1730.7, Subj: RELIGIOUS
MINISTRY SUPPORT WITHIN THE DEPARTMENT OF THE NAVY
The above SECNAV provides in relevant part
4 Definitions
a.
Chaplains. As commissioned officers, Navy chaplains are professionally
qualified clergy of a certifying faith group who provide for the free exercise of
religion for all military members of the Department of the Navy, their family
members, and other authorized persons, in accordance with reference (a). Chaplains
advise commands in matters of morale, morals and spiritual well being. In
accordance with Article 1063 of reference (b), chaplains shall be detailed or
permitted to perform only such duties as are related to religious ministry support.
Chaplains shall not bear arms. Chaplains shall not be assigned collateral duties
which violate the religious practices of the chaplain's faith group, require services
as director, solicitor, or treasurer of funds other than administrator of a Religious
Offering Fund, serve on a court-martial or stand watches other than that of duty
chaplain.

A143

Results of Interview #1
On 19 February 1998, RADM Anderson B. Holderby, CHC, USN, Chief
of Chaplains, was interviewed by Mr. Philip P. Cooper, NAVINSGEN
(NIG-52). Mr. Cooper advised Chaplain Holderby of the provisions
of the Privacy Act of 1974. The interview was tape-recorded and
Chaplain Holderby provided testimony under oath.
He is a Lutheran with the Evangelical Church of America.
Chaplain Holderby does not recall whether, at the time he
convened the FY97 Board, he knew that two of the board members,
[Redacted]
were en route to be prospective
detailers. He did not know [Redacted]
personally; Chaplain
Holderby’s predecessor picked [Redacted]
To be the senior
Chaplain detailer. Chaplain Holderby knew [Redacted]
who
had worked for him at the Naval Academy, and had recommended that
he be a detailer. Since [Redacted]
and [Redacted] did not have
previous
access to chaplain records, their serving on the board
prior to reporting aboard as detailers was not impacted by their
new assignments.
Chaplain Holderby has served on three or four chaplain boards,
and in every case, he made the point of saying that neither
denomination or age would be a consideration, that records would
be the only criteria for selection. There was no discussion on
those issues.
Chaplain Holderby does not remember whether he briefed [Redacted]
record or [Redacted]
record nor does he
specifically remember [Redacted]
record being
discussed. Furthermore, he does not remember any of the records
he briefed or who briefed which records.
Chaplain Holderby asked the recorders to pass out the records to
board members, without any reference to him or to any board
member. Approximately six records were distributed to each board
member who served as primary briefer for those records. After
each primary briefer reviewed the assigned records, he or she
passed them to the secondary briefer. Neither Chaplain Holderby
nor any board member other than the recorders was involved in
choosing who reviewed which records. Chaplain Holderby’s
experience on boards has been doing the best he could during the
proceedings and then “pretty much forget” what took place, even
to the extent of not remembering who was selected. He remembers
that as President of the Board, he went forward and presented the
selection list to the call-outs, but that there was nothing
unusual about that process in the case of the FY 97 board.
There was only one denomination issue during the deliberations.
One of the members of the board [Redacted],
made
“an impassioned plea” for selecting a Catholic priest, stating
that he was an outstanding chaplain, a quiet but very spiritual
man, and a man that the chaplain corps would do well to have

1

A144

07-mc-269 (JDB)
EXHIBIT 5

promoted. That selection was probably the board’s last
selection. That priest was not up against [Redacted]
but against another chaplain who had a perfect record. The board
struggled with the decision, and Chaplain Holderby thought that
if the board selected the priest, the other chaplain would be
selected next time around; however, the other chaplain was not
selected next time around.
the minority representative, may have asked the
[Redacted],
board to go back and give a second look at someone, an African
American, he was interested in getting selected; as it turned
out, the board did not select that person.
Prior to the board, Chaplain Holderby did not know [Redacted]
[Redacted]
Neither did he know [Redacted]
by
reputation. Chaplain Holderby had been aware of [Redacted]
[Redacted]
name which had come up in relation to his being
asked to serve with Admiral Lopez. It’s not unusual for a
particular chaplain to be liked by someone who asks for him, and
Chaplain Holderby does not recall whether [Redacted]
record was in the group of records set aside as tentative
selectees after the board’s first confidence vote, and does not
recall any one else’s record which was in that group.
Chaplain Holderby does not recall any discussion about [Redacted]
[Redacted]
record. There was a rule during the proceedings
that board members could only say positive things about
candidates. Chaplain Holderby does not recall any negative
comments made about any candidate.
Chaplain Holderby tried to explain to the board what “fully and
best qualified” meant in relation to chaplains. Chaplains do not
have a career path akin to that of line officers. Therefore, it
does not matter what their assignments are, but whether they do
good ministry for which they are recognized. The chaplain boards
focus on what commanding officers say about a chaplain’s
ministry.
Medals carry a little weight, in the sense that if a commanding
officer says that a chaplain’s ministry was good, then a medal
shows that he really meant what he said. Some value is given to
multiple sea duty tours, as reflecting experience at “deck plate
ministry.” Some value is also given to a Flag officer’s
endorsement of a chaplain.
Chaplain Holderby was familiar with some of the chaplains
considered for selection. He does not remember any controversy
or contentious briefings during the proceedings. The board went
out of its way to accommodate anyone who was not satisfied with a
briefing and who wanted a record re-briefed.

2

A145

07-mc-269 (JDB)
EXHIBIT 5

Chaplain Holderby stated:
“I’m aware of the fact that as President of the Board, [Redacted]
conceivably if I wanted to keep emphasizing something, that might
have some bearing on it [the way members voted]*, although I have
no bearing on what somebody does as far as pushing buttons in
there [i.e., secret voting in the ‘tank’]; I tried to stay away
from that; I let the board members talk among themselves; my only
job, as I saw it, was if we got off on a tangent, if somebody
started talking about something that we should not be talking
about, I would mention that and say that I think we ought not to
talk about this; that is to say, even if someone would say
something like “This priest you can tell has been very . . .’ and
at that point I would say, “We’re not talking about denomination;
we’re talking chaplain. . .’ There’s certainly never been a
denominational quota system in our selection process, [although]
maybe there is one in our accession process.
“The [FY]97 board was done as fairly as we know how to do it.
Now look9ing at this [Redacted] memo for CNP of 23 Dec 97],
certainly [Redacted]
has a very fine record, according
to this. I haven’t seen his record since that time. And it
strikes me that others do too [i.e., have very fine records] on
boards, and in some ways I think that’s a sign of the times; we
[chaplain corps] have the lowest percentage of selection, I
think, of anybody in the Navy right now: 50% for Commander, 50%
for Captain; that means half of your people in zone are not going
to be selected, and some very fine records are being left behind;
there is no doubt about that. I don’t think that’s due to
discrimination; it’s due to honest determination on the part of
the board to pick the best people they know how to pick, in terms
of ministry. . .I’m sure that there is no quota system in effect,
in terms of using a board to enforce a quota system. . . I
empathize with [Redacted]
I think he has a very fine
record, from what I see here. I don’t think people are selected
necessarily just on how many A’s and how many B’s they got; I
think an awful lot goes into what the [fitrep] write-ups say,
what’s said about ministry. . . about a person’s spirituality.”
Every record was not reviewed by every person on the board.
Chaplain Holderby made notes on the officer summary sheets
(OSR’s) for records he reviewed. Those OSR’s were projected on
the screen in the tank and all the board members were therefore
privy to Chaplain Holderby’s notations, as well as notations made
by other members. All the board members used an A/B/C/D/E
grading system, and so annotated the OSR’s they reviewed, to give
their overall impressions of the records. The kinds of comments
Chaplain Holderby made on the OSR’s wee commanding officer
comments which he extracted out of the fitrep narratives. He
would give A++++ to a record if he were really impressed by it;
however, he doesn’t specifically remember any instance of doing
that during the board proceedings in question.
* Brackets in original NIG Investigation Interview Report

3

A146

07-mc-269 (JDB)
EXHIBIT 17

The only person considered by the board whom Chaplain Holderby
may have made a concerted effort to “sell” to the board was
[Redacted]
an ELCA chaplain [Redacted]
who
was picked up above zone. Chaplain Holderby had just previously
seen [Redacted]
do a devotion in the presence of a group
of chaplains and was somewhat impressed with his ability.
[Redacted]
had previously once passed over for
promotion; Chaplain Holderby does not know why.
Chaplain Holderby also knew [Redacted]
who had served
in Hawaii when Chaplain Holderby was there; he had not previously
served with him and they were not in the same command in Hawaii;
Chaplain Holderby therefore could not speak to his performance
based on any personal knowledge of his performance.
As the Pacific Fleet chaplain, Chaplain Holderby accompanied
Chaplain Dave White then Chief of Chaplains, on a final trip in
the western Pacific prior to Chaplain White’s retirement. During
the stop in Sasebo, Japan, Chaplain Holderby met [Redacted]
who was stationed there. That was the only time they met.
Chaplain Holderby does not know [Redacted]

at all.

Denominations of the chaplains considered for selection were
obvious to the members of the board, as they were shown on the
OSR’s.
Chaplain Holderby was aware of the fact that as President of the
Board, a Flag Officer, and Deputy Chief of Chaplains at the time,
he could easily influence a junior member of the board, just by a
comment or an extra plus on the overall grade he gave to a
record. He tried not to throw in subtle suggestions, as he felt
that would be unfair.
Chaplain Holderby does not think that there was any board member
predisposed to vote on the basis of denomination.
Chaplain Holderby does not know [Redacted].
Chaplain Holderby knew [Redacted]
who was assigned to the
Naval Station, Hawaii, when Chaplain Holderby was assigned to
CINCPACFLT. They therefore did not work together. Chaplain
Holderby went to services that [Redacted]
conducted and
thought that “he was certainly an adequate preacher [with] a lot
of enthusiasm, . . .not . . .necessarily a weak chaplain.”
Chaplain Holderby thought he “did a pretty good job,” but didn’t
think his name “jumped out as being a water walker.”
“Theologically there is a little bit of a separation” between
LCMS and ELCA, “although both groups have the exact same founding
documents to which they refer. LCMS is more conservative and
ELCA is more liberal.

4

A147

07-mc-269 (JDB)
EXHIBIT 5

Corps reputation is not discussed on selection boards. However,
individual board members may have their own feelings about a
candidate’s reputation.
Chaplain Holderby stated,
“The others on the board will have to comment on my performance.
But I will tell you that the board, as a whole, was above
reproach. They prayed before they started that they would do the
right thing, and they prayed when it was finished that they did
the right thing, and I think they went away from there feeling
that we did the right thing.”
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - On 4 March 1998,
telephonically re-interviewed
Chaplain Holderby
Chaplain Holderby stated that the LCMS and ELCA work together,
especially in the military. They hold joint conferences. Until
1991, he served on a committee comprised of civilian and military
Lutherans, represented by both the ELCA and LCMS.
ADM Lopez wanted to establish a new Chaplain billet in support of
CINC, Allied Forces, Southern Europe, and have [Redacted]
[Redacted] ordered into it. That was bit “an eleventh hour”
request, but one which allowed for the “normal course of events”
lead time (3-6 months) for processing orders. Prior to sitting
on the FY97 board, Chaplain Holderby was aware that this request
had been made.

5

A148

07-mc-269 (JDB)
EXHIBIT 5

Results of Interview
On 4 February 1998, [redacted],
Naval Air
Warfare Center Aircraft Division, Patuxent River, was [redacted]
telephonically interviewed by Mr. Philip P. Cooper, NAVINSGEN
(NIT-52). Mr. Cooper advised [redacted]
of the provisions
of the Privacy act of 1974. [redacted]
provided the
following information under oath, and the interview was tape
recorded.
A few days prior to this interview, [redacted] spoke with
[redacted],
his predecessor in his current position.
At that time, [redacted]
was not aware that [redacted]
had been a member of the FY97 0-5 CHC Promotion Board. He told
[redacted] that he had been talking to [redacted]
who works for [redacted]
and that [redacted] had
told him that the FY97 Board had considered him for promotion,
that the board members were going to be released from their oath
for purposes of facilitating an investigation.
The FY97 Board in question was the only board of any kind which
[redacted] sat on. He was present during all the board
deliberations. He thought the board was handled according to the
guidelines of the precept. However, inasmuch as it was his first
board, there were some things about it that made him
uncomfortable.
There’s “sort of a mystique out there:” that boards, as
manifested by the board in question, take records and go over
them with a fine tooth comb, and they “compare this with that and
the value of apples against oranges, and the value of bananas
against pineapples kind of thing.” [redacted]
who was
taking more time than the other board members, would like to have
had more time to review all of the records in more detail. It’s
hard to guess what’s going on in the board members’ minds and to
know what expertise is being applied to review of the records.
Admiral Holderby, who has sat on a number of boards, can review a
record much faster than anyone else. There was another chaplain
on that board who is reputed to have sat on many, many boards,
who also could review a record much faster than could
[redacted] Admiral Holderby talked to [redacted] about his
slowness in reviewing records, saying, “Move along a little
quicker; you’re behind everyone else.”
A board normally has ten days to conduct its business. Chaplain
Corps boards are reputed for taking only 2 ½ days. Since the
Chaplain Corps is relatively small, members of the promotion
boards should have the luxury of being even more judicious about
their reviews and deliberations.
[redacted] opined that he would have constructed the board
membership differently. Detailers are not normally assigned to
promotion boards. The Chaplain Corps has two detailers, one
Protestant and one Catholic. One is generally 0-6 and the other

DEFA00878

07-mc-269 (GK) EXHIBIT 21
1

A149

is an 0-5.
Two members of the FY97 board,
and
at the time the board met, either had orders to the
detailers' office or had been notified that they would be getting
such orders. Such membership generates a perception of conflict
of interest, given the allegiance of detailers to the Chief of
Chaplains office. "Maybe' that's helped fan the flames in the
minds of some people that something askew was going on."
Therefore, had
been President of the Board, he
would not have allowed
to have been
members.
The Chaplain Corps does not have a lot of African-American 0-6
chaplains. There is a requirement that an African-American
chaplain sit on promotion boards.
does not
believe that the same minority representative should sit on as
many chaplain boards as has
who sat on the Board
in question. The requirement for minority representation on
chaplain boards could be met with minority officers taken from
the line community. Therefore, again for perception reasons, had
been President of the Board, he would have found
someone other than
to sit on the board as the
minority representative.
cannot remember specifically what was said during
the discussion of the precept, in regards to the interpretation
of "fully qualified" and "best qualified." He does remember
guidance given in the tank with respect to how to review and
assess the records of minority candidates; the occasion for this
guidance was a briefing given by the non-chaplain member of the
board.
In the tank there were several discussions about officers who had
been to sea a lot and moved around a lot, and who had experience
in the Fleet. [redacted]
does not remember any of the names
of those individuals. There was, however,, some weight attached
to leadership positions which had been held in direct support of
Fleet Operations.
[redacted]

Is a Southern Baptist.

[redacted]

[redacted] “major sore point” concerns the consideration of
denomination at one point during the proceedings of the board.
It was nothing that he could have gone to the Secretary of the
Navy and said, “This was done illegally.” But it was done “with
such finesse at one point” that he felt that “one officer was
passed over due to “denominational considerations.” This was
serious, given the fact that when a chaplain at the 0-4 level is
passed over, “it’s more than just a pass over;” it frequently
means that an officer must leave the Navy.
[redacted],
a Roman Catholic priest, was the last
one selected for promotion during the FY97 board. The vote had
been tied between him and either [redacted],
a Southern
Baptist, or [redacted]
also a Southern Baptist.

DEFA 00879
2

A150

[redacted] was selected, but his record was inferior to that of a
number of those who had been passed over. [redacted], the
Catholic member of the Board, strongly encouraged the board to
vote for [redacted]. In spite of the B’s on [redacted]
fitreps, his congregations loved him, and
said that the board needed to give him consideration
because he was a hermit for a number of years before entering the
chaplain corps and therefore had problems relating to people.
During the final stages of discussion, [redacted]
suggested
that consideration be given to the needs of the chaplain corps,
which is “sort of a catch phrase” in the chaplain corps to
indicate that the greatest need was for more Catholic chaplains.
(All of the board members, with the possible exception of
[redacted] understood what [redacted] was implying.) Admiral
Holderby, who was sitting next to [redacted]
put his hand
on his arm to indicate, “Be quiet.” If [redacted]
had
pursued this issue and said blatantly that the board should
consider denomination in this case, then [redacted]
would
have reported the incident to the Secretary of the Navy. The
very next vote was overwhelmingly in favor of [redacted]
[redacted] left the board “pretty well disgusted over that
issue.” He thought that what had happened was inappropriate, but
nothing he “could raise a red flag over.” Admiral Holderby did
the right thing, “but the damage had already been done.”
[redacted] did not hear anything else during the board’s
proceedings which indicated that denomination was factored into
the deliberations. The President of the Board did not share any
philosophy or give any guidance to indicate that denominational
balance in the Chaplain Corps should be a consideration.
[redacted]
has no reason to say that any of the board
members were predisposed to selecting one group of Lutherans over
any other.
[redacted]

was under the impression that [redacted]
, based on his good record, had been selected. After
the first session, there was a confidence vote taken. All those
who were in the top 96%, approximately 5, were set aside as
tentatively selected. [redacted]
was under the impression
that [redacted] had been in that group.
[redacted]
found out that he had been in the first group
of selectees; he could only have discovered that fact by a leak
from someone on the board.
The recorders passed out the records randomly to various primary
briefers. The primary briefers were also secondary briefers for
other groups. There was a color code that was used.
[redacted], who is a Baptist, gave [redacted] a group of
Baptist records which were not included in his primary review,
and suggested that he might want to review them. “That was kind
of a denominational thing that took [redacted]
back a
bit,” as [redacted]
walked over and said, “These are some

DEFA OO880
3

A151

Baptist records that I thought you’d want to look at now.” This
was out of the norm for what [the board members] did.” The
records were non-minority Baptists.

4

A152

DEFA 00881

Results of Interview
On 4 February 1998,
[redacted]
Chaplain
at Naval Security Group Activity, Chesapeake, VA was
telephonically interviewed by Mr. Philip P. Cooper, NAVINSGEN
(NIG-52). Mr. Cooper advised [redacted]
of the provisions of
the Privacy Act of 1974.
[redacted]
provided the
following information under oath. The interview was taperecorded.
His denomination is Christian Churches/Church of Christ. He was
one of the assistant recorders for the FY 97 O-5 CHC Promotion
Board, which was the first board to which he had been assigned.
He was present during all the board proceedings. Nothing about
the proceedings jumped out at him as something unusual. The
president of the board read through the precept and told the
board members the provisions of the precept were designed to help
them select the best chaplains for promotion regardless of
denomination or race. It seemed to be very fair with respect to
what the President was saying. [redacted]
does not remember
the President of the Board going into detail about what the
precept meant by “fully qualified” or “best qualified.”
The recommended procedure was for the briefer to vote prior to
briefing the record and then the rest of the board members could
vote at any time during the briefing.
One briefing was contentious. ([redacted] cannot remember whose
record was being briefed.} Everyone with the exception of the
minority representative, [redacted] had voted.[redacted] Upon
learning that only his vote was remaining to be cast, [redacted]
said that he did not like the fact that all the other
votes had been cast, as he felt the whole record should be
briefed before the votes were cast. And so he asked for a revote. He either had felt pressure to vote or he had a special
interest in the particular candidate being briefed.
[Redacted]
does not recall that there was any discussion
concerning the importance of considering a candidate’s
leadership positions in support of operational commanders. There
was no real career track and it was only a question of what
extent to which a chaplain excelled at his assignments. So much
of what the board members evaluated in any one record depended on
the person doing the briefing.
If denomination was considered in the selection process, it was
not obvious. [Redacted]
does not recall any remarks made
by the President of Board regarding denomination. It was only
after all the voting had been done, that the selections in terms
of denomination, race, and gender were looked at from a
statistical point of view. The statistics were “in the ball
park” of what was a desirable distribution, but such was not the
focus of the board during the deliberations.
DEFA 00869
Page 1 of

A153

2

07-MC-269 (JDB)
Exhibit 7

REDACTED
[redacted] also does recall any discussion concerning the two
Lutheran Missouri-Synod candidates,
[redacted]
Nor does he recall any discussion concerning the four
Lutheran Evangelical candidates. Likewise there was no
discussion of note on [redacted]
who received a 100%
confidence vote on the first round. [ Redacted]
had
received a Meritorious Service Medal and the now-Commandant of
the Marine Corps had hand-written special praise on his fitrep.
All of the records were distributed randomly by the senior
recorder. The board members became the “primary briefer” for
those records initially distributed to them. They would serve as
secondary briefers for all other records.
The President of the Board had much input. He asked good
questions during the briefings. He “set the tone for people
because he had the star on his shoulder.” He did not, however,
exercise any undue influence.
What was most surprising was that there were a couple of board
members who “couldn’t brief at all.” In particular, [redacted]
“looked at people differently.” When Chaplain Holderby
briefed to record, if he felt that his candidate had a great
record, he might flash on the screen “A +++.” On the other hand,
[redacted]
idea of what might be a great chaplain was
something like a B+ or a B++.”
Those grades have a
psychological effect on the board members, regardless of the
remarks made during the briefings. [Redacted]
would not
have wanted
[redacted]
briefing his record if the had been
one of the candidates for selection.
[Redacted]
does not believe there was any hidden agenda
during the course of the briefing proceedings. It came down to
who was briefing the record. “Everything looked above board and
equitable.” The only thing that bothered
[redacted] about
the proceedings was the fact that the records of minorities were
reviewed more times than those of non-minorities in the same
zone.

DEFA 00870

Page 2 of

A154

2

07-MC-269 (JDB)
Exhibit 7

\

DEPARTMENT OF DEFENSE
OFFICE OF INSPECTOR GENERAL
.

I

REPORT OF INVESTIGATION
. CASE NUMBER
P98C69119125

DATE

Prepared by Program Integrity Directorate

Office of Departmental Inquiries

it AA
'CL USE ONLy·.
FOR. OFFr

A155

In Re Navy Chaplaincy
07-mc-269 (GK)
EXHIBIT 8

A156

A157

P98CS9119125
previous beards and whose rec;Jrds were inferior tc these of ether �licible
..,
Officers under consideration.
•

One board member mad e inappropriate, critical remarks about
LCDR Aufderheide because of a pncr disagreement between that board
member and LCDR Aufderheide.

For reas.ons set forth above, we did not substantiate th e allegation that the FY 98
board improperly selected an officer who did not me€t Navy physical readiness
standards. Further, we found that the appointment of two Roman Catholic chaplains to
the FY 98 board violated no law or regulation and was reasonable given the shortage of
potential appointees with requisite backgrounds.
·
- -- --·-- . � -·-·-· ---· -----respe-ctto the rtiniaii·;u,g'allegations-. we·1ound·son1e evidenca·that
denominational considerations may have been a factor in selections made by the FY 98
board. Specifically, we concluded that the•• Roman Catholic board member may �
have made comments that were designed to ran1ind fellcw board members of the
1
shortage of Roman Catholic chaplains and, because of his concerns in that regard, may
have stressed the qualifications of.eligible officers who were Roman Catholic priests.
However, the evidence was insufficient to conclude that he made an overt
denominational appeal or, more importantly, that. as a result of his comments,
denomination took precedence over the qua!ifications of eligible officers as a selection
' criterioh. As a result, we concluded that th� FY. 98 selection of two Roman Catholic
;c chaplains, who were not selected by prei,sious boards, was consistent with law and-.. . .
· r�ulation which pertain to selection board proceedings.
,
.. "
..
Of consequence to the specific case of LCOR Aufderhe ide, however, was our
determination that a FY 98 board member made adverse comments regarding
LCOR Aufderheide that caused· another board memb er to alter his vote to the detriment
of LCDR Aufderheide. Although the b oard member who allegedly made the adverse
comments did not recall making them, we found persuasive the testimony of two other
board members and two recorders to the effect that unfavorable infonnation concerning
LCDR Aufderheide was, in fact, introduced during board deliberations. Because that
infonnation .wa.s based on personal knowledge and had not been included in the
infom,ation regarding LCDR Aufderheide placed before the board, we concluded that
consideration of the unfavorable comments constituted "material error' within the
meaning of applicable selection board statutes and regulations. We recommend that
the Secretary of the Navy consider a special selection board because of that error.

. WM

w/

In considering all evidence gathered during our investig ation. we found little
indication of deficiencies in the Navy selection board process. We do not consider the
unfavorable comments made about LCOR Aufderheide as evidence of systemic
weakness. but rather an isolated deviation irom an otherwise sound process.
Accordingly, we make no recommendations for systemic change.
This-rep ort sets forth our findings and conclusions based on a preponderance of
the evidence.

FOR OF�L USE ONLY

A158

A159

A160

A161

A162

A163

A164

SUMMARY OF DANIEL ROYSDEN’S DEPOSITION TESTIMONY
CH Daniel Roysden was deposed over the course of two days, August 4- 5, 2004.
The cites to his deposition transcripts are proved but to provide the pages as has been done with
ChH Wilder, would unnecessarily increase the volume of documents. If they are requested,
Plaintiffs will provide them.
CH Roysden joined the chaplain candidate program in 1981, was initially commissioned
as a chaplain endorsed by the United Methodist Church and accessed into the Navy reserve
[28:1-21].
Before coming on active duty, he had numerous assignments filling the short-term recalls
for active duty as a Naval Reserve chaplain. He he had good reports and a good reputation.
Before coming to active duty, CH Roysden changed his endorsement from United
Methodist to Chaplaincy of Full Gospel Churches (“CFGC”). He testified that although he
attempted to get this changed officially, the Chaplain Corps (the CHC) did not change his
endorsement officially for many years. [34:17-23]. He testified in retrospect the CHC’s error may
have allowed him to be promoted to Lieutenant Commander (LCDR) because he was promoted
as a United Methodist, not from CFGC [35:15-16], [36:2-8]. His detailer warned him against
changing endorsements from the liturgical United Methodist to the Non-liturgical CFGC:
When he found out I was switching from United Methodist to CFGC his
statement was, “You just signed your death sentence.” He said, “If you at
switched from non-liturgical to liturgical, you’d probably be okay.” He said, “In
fact, I had done that”-himself-but he said, “by switching the opposite way, is: be
very difficult for you in the future.” [51:5-12].
Roysden’s first assignment as an active duty chaplain was to a ship stationed in
Yokosuka, Japan. Just before his first deployment, the SURPAC senior chaplain, CAPT
O’Donnell, visited Roysden’s ship and requested an interview with the Captain without telling
Page 1 of 7

A165

Exhibit 5

Roysden the specific purpose. When CH Roysden’s CO signed Roysden’s fitness report as the
ship’s chaplain, his Captain informed him CAPT O’Donnell had warned the CO “do not be
surprised if we have to relieve [Roysden] for cause. He’s from a church group that has no good
track record, they’re a brand-new denomination.” [79:4-25].
I would love to see not only myself, but every chaplain on active duty being given
an environment in which we can minister effectively to our personnel without fear
of office bullies, of retaliation, of manipulation. And it’s not just non-liturgicals
that I’m concerned about, I have liturgical friends, I have Roman Catholic friends
who have been abused and mistreated horribly.
I think the Chaplain Corps is an unhealthy place and I, first of all, would
like to see the court somehow be able to address that issue. I don’t know how the
Court can do that, but I would love to see the Court address the issue of making
the Chaplain Corps what it should be, not what it is. Which should be a place
where we can meet the needs of the soldiers and sailors, the Marines, even
civilians that I work with. I do a lot of ministry to our civilian employees.
[72:2-19]
CH Roysden’s next duty station was Naval Station Pearl Harbor. He found a charismatic
group meeting on base without approval, a violation of Navy policy. CH Craycraft would not
permit them to use the chapel for services, but CH Roysden found a place for them to hold
services at the Family Service Center, bringing them under the purview of the Command
Religious Program. CH Craycraft was upset that they were meeting in the Family Service Center
and told CH Roysden, “[p]eople like them, people who were Pentecostal Charismatics not only
had no business holding worship on naval property, they had no business being in the Navy.”
And he knew fully well that I was endorsed by the Chaplaincy of Full Gospel Churches. [139:27]
CH Roysden’s record was superior to others selected on the FY 98 board, a fact known
because the Stafford Report provided the rankings and scores of those selected. His record, with
the exception of “two Bs as a reservist, all this active duty evaluations were all “As”.[72: 23Page 2 of 7

A166

Exhibit 21

73:9].
Roysden’s reason for joining the litigation was the improper investigation of CAPT
Young in San Diego. “I was not gonna be given a fair hearing by the Navy, that there was already
the appearance of a cover up in that investigation, including what I believe is the JAG officer’s
inability to give me proper counseling following that investigation, it was a botched
investigation, was an improper investigation, and I was characterized as a discrimination
complainant when it was a whistleblower’s violation complaint and retaliation.” [75:19-76:2].
CAPT Young had told him that “he would make sure that I did not make commander”,
[85:23-25] and Young was a personal friend of the Chief, Admiral Holderby, because they were
roommates in chaplain school and “most of the 0-6's have a connection system and will talk up
or talk down certain chaplains.” [86:2-12].
In fact, the person from San Diego that was on that board, after the board met, was
in the hospital perhaps a month later and he was meeting the chaplains. The
statement he made to me was, “oh, you’re CH Roysden.” Which, for some reason,
I couldn’t understand why he would make the statement. Instead of “Oh, it’s nice
to meet you,” his statement was “Oh, you’re CH Roysden.” [86:16-23].
The BCNR recognized Roysden had been harmed but refused to follow logic or reason in
denying his appeal of CH Young’s damaging reports.
The interesting note in it [the denial of the appeal] was they said, “we recognize
the appearance of discrimination, retaliation, and a hostile work environment, but
we feel that this in no way impacted your fitness reports and your chances for
promotion.” [122:12-16]
Under CH Young, there was racism against the three black chaplains, they were
always rated the lowest of their respective ranks, including the fact that when CH
Shamburger showed up as the senior commander, rather than putting him in as the
deputy–and the CH Corps likes to have its director and a deputy from different
faith groups, it kind of balances things out–he chose CH Panes [a Catholic] to be
put in as the deputy director. **Panes was so inept that CH Paul had to be
assigned all of CH Panes’s administrative duties. ***Yet, CH Young put chaplain
Panes in–and I believe it was in 1998–for chaplain of the year, through the
BUMED system, for his administrative acumen. [124:11 125:3].
Page 3 of 7

A167

Exhibit 21

When Roysden attempted to mentor and train Junior chaplains who had come to the San
Diego Middle Center, or attempted to get CH Young to discussn issues with his Junior chaplains
who were having troubles, CH Young berated him. [80:13-84: 1]. CH Young said “I will make
sure you never make 0-5. You can count on that.” [83:25-84:1]. While CH Young would give
others “glowing reports” about Roysden, “in my personal encounters with him, he was always
this very abusive, I don’t like you, you’re this way or that way.” [84:6-10].
CH Young would get together with the other two Catholic priests and “make policy for
the Protestant Chapel”. “The three of them would decide on promotion recommendations for
their chaplains.” [105:12-15]. They also made decisions affecting ministry, including Protestant
worship, without consultations with the Protestant chaplains. [239:22-240:9].
When CH Roysden returned from the Korean Air Crash Disaster on Guam, Young told
him not to discuss anything about what happened, what he saw, and the ministry with any others,
greatly increasing Roysden’s PTSD. “I want you to shut up about this crap. You’re not allowed to
talk to anybody else about this” [207:1-2].
Despite the fact Roysden “did more debriefings anybody else on the team [the San Diego
Medical Center “Sprint team” - a special team comprised of a chaplain and medical personnel to
handle the traumatic effects of both victims and crash responders], he had more involvement than
anybody else in setting up and planning the stuff, even more than Dr. Hammer [208:5-10], the
hospital denied recommendation for a “Navy Commendation Medal” for Roysden, downgrading
it to Navy Achievement Medal [207:19-208:4]. Young refused to fight for Roysden’s award,
[208:5-15], disparaging his service and effort for his outstanding service as part of the Sprint
team. Young also disparaging Roysden’s other significant accomplishments in Nicaragua
following Hurricane Mitch.
Page 4 of 7

A168

Exhibit 21

A female chaplain, Fran Stuart, came to Roysden for counseling because she was being
sexually harassed by CH Young, When she filed a complaint, CH Young attacked Roysden and
removed him from his responsibilities in administration and as his number two person when
Young was gone. When told he could not do that, CH Young said, “I can do whatever I want.
You betrayed me by not telling me that Fran Stewart was going to file a sexual harassment
complaint against me” [189:25-190 : 10].
When Roysden complained of CH Young’s retaliation, the JAG and the EEO at the San
Diego Medical center, “filed it illegally, as I understand it now, under Fran Stewart’s sexual
harassment complaint.” [127:7-12].
The CEO investigation found Roysden’s removal “as the administrative second-incommand had the appearance of retaliation. And [CH Young] was directed to reinstate me to all
the responsibilities I had before his removal of me from those responsibilities, and he refused to
comply with that directive.” [128:25-129:10].
CH Young knew of but did nothing about sexual “misconduct by one of the chaplains
concerning senior nurses”, and the sexual harassment continued. [128:2-16].
Roysden points out numerous deficiencies in the resulting investigations of both Stewart
and his complaints. His whistleblowing complaint, which should have been handled by the JAG,
was sent to the Equal Opportunity office for investigation along with CH Stewart’s complaint but
he was not given “advocate”, a requirement under the EEO regulations [191:7-25].
CH Young barred Roysden from “any official part of the office”, refused to talk to
Roysden, and tried to have him reassigned to Puerto Rico on short notice to an isolated post,
contrary to regulations. The Junior detailer was a Catholic and told Roysden that he would take
the orders despite regulations which precluded this assignment. Roysden had to call Mrs. Berto at
Page 5 of 7

A169

Exhibit 21

the Chief’s office, who informed the detailer that a reassignment was improper, after which the
detailer canceled the orders. [192:2-194:10].
CH Young also attempted to degrade Roysden’s performance by failing to address the
significant participation in the Korean Airlines crash despite the fact Roysden “had done more
debriefings than anyone else on the team” and played a significant role in the post crash
operations and memorial ceremonies. [195:17-196:19].
Young favored Catholics who did not like evangelicals and always gave them the highestranking, [34:6-7], but acted with prejudice to those who did a good job in their ministry,
cooperated with other chaplains and/or objected to his high-handed prejudice. Young retaliated
against any priest or anyone else who objected to his decisions while being very favorable to his
fellow priests that just towed the party line with him. This included Catholic CH D’Auarora
(“loves everybody, he does a good job”), [233:10-18]. Young gave D’Auarora the lowest
ranking, [234:8-13], despite “doing more work than most of the other lieutenants.” [235:7-12];
he was given the “early promote” and the number one ranking after Young left.
Young moved Catholic CH Dombrowski early because he challenged CH Young’s
ranking him above CH Paul. [235:20-to 36:17]. Dombrowski was “highly respected throughout
the hospital and a person who was open to friendship and ministry to anyone of any faith
background.” [238:7-18].
CH Young moved Catholic CH Klarer early so he would not have to compete against the
other LCDRs under a new command chaplain. [237:1-11].
CH Young “hated Michael Belt with a passion” although CH Belt “was willing to do
whatever he could to make an impact in the hospital. He never seemed to tire, he loved being
with patients and with staff.” [241:15-22]. CH belt and CH Smith developed a project providing
Page 6 of 7

A170

Exhibit 21

ministry to the operating rooms; at first, CH Young opposed it and didn’t want them to be doing
it. After it got off the ground and was what I would term a success, CH Young tried to claim
credit for it as well, saying it would never have happened had he not suggested to those two
chaplains that they go do it. [241:23-242:22].
On the other hand, CH Young gave CH Livingood, who was not liked on the wards and
whom the staff did not like, the number one Lieutenant among six. When CH Young left, “CH
Livingood, was ranked dead last.” [243:13- 245:24].
CH Roysden testified he was checking out of the hospital when Admiral Diaz, the
Medical Center’s commander spoke to CH Roysden. He apologized for what happened with the
investigation. He told me that he never dreamed, when he was given orders to the medical center,
that his biggest problem when he showed up would be the chaplain’s office. He was amazed at
what was going on. And after the investigation came back, he said “I couldn’t control the
investigation.” He said, in fact, “I could only go on the recommendations.” And he said they were
not the recommendations he would’ve made. He said that immediately upon the release of
investigation, he, [Diaz] fired CH Young. [However] CH Young was not fired “due to the
reported intervention of Young’s three-star friend.” [281:4-25].
CH Roysden reports that he filed a written request for an investigation for “an improper
removal of a fitness report from my records and an attempted cover-up of that removal by the
individual who did it [at] BUPERS.” This involved a special fitness report done by Admiral Diaz
“documenting my participation in the Hurricane Mitch recovery efforts in Honduras and
Nicaragua”, a very good report which was removed from his file before the FY 2000 board for
commander, a fact admitted by Mr. Pool at BUPERS. [288:6-290:9]. The investigation was a
farce, like those before it.
Page 7 of 7

A171

Exhibit 21

Case 1:07-mc-00269-JDB Document 332-7 Filed 07/18/18 Page 1 of 1

A172

REPORT OF INTERVIEW
RADM Barry C. Black, CNC, USN, [Redacted] was interviewed in person on 14
June 2000 by [Redacted] 1, and [Redacted], BUPERS IG regarding the conduct of
the FY00 Chaplain Corps (CHC) 0-6 Selection Board and its failure to select
[Redacted] for promotion to [Redacted]. RADM Black was President of the FY00
CHC 0-6 Selection Board. RADM Black is assigned as the Deputy Chief of
Chaplains.
1. How many female officer records did tie board review? Do you recall
reviewing the service record of [redacted]? Who briefed the record?
RADM Black did not recall how many female officer records were reviewed by the
FY-00 CHC O-6 Selection Board.
2. How would you characterize [Redacted]record? Was it competitive with the
Chaplains who were selected for promotion? In your opinion, why wasn't
she selected for promotion?
RADM Black stated that he know: [Redacted]and may have even briefed her record
to the board. He said that [Redacted] had a ""strong" and "competitive" record.
RADM Black said, "I have admired her [Redacted] work.” He reiterated that he felt
[Redacted] record was "quite competitive.” RADM Black recalled that the board
reviewed eligible records at least twice. He said [Redacted] record might have been
reviewed three times in the crunch. RADM Black stated that all briefers provided
good records presentations. He continued that at the 0-6 level, Chaplain Corps
rarely selects "above zone" and the fact that [Redacted] selected "above zone" on the
FY-01 board was indicative of her strong record.
3. Was there any discussion about [Redacted] record? What was said? By
whom? Did this influence how you voted? In what way?
RADM Black stated that no board member said anything negative about [Redacted]
record. RADM Black indicated he was absolutely certain that there was no
discussion. He reaffirmed that never once did a board member make negative
comments about any record. He said, “I monitored that very closely.
RADM Black stated that he did make positive comment that [Redacted] was a
“class act”. He said that one board member made a disapproving facial expression.
RADM Black continued, “I would rather not say who it was.” He said he did not
discuss anything with the person who made the facial expression. He felt he was the
only one on the board who could have identified the non-verbal cue.

Page 1 of 2

A173

In re Navy Chaplaincy
07-mc-269
Exhibit 7

4. During the voting was: [Redacted] "zeroed out"? Was a revote conducted?
What was the result of the revote? How did you vote?
RADM Black commented that [Redacted] was not selected because a board member
voted “zero". He said he was disturbed by that fact. RADM Black indicated he might
have called for a re-vote in the event someone had hit the wrong button while
voting. He continued that every time [Redacted] record came up it was "zeroed out".
RADM Black also recalled that the record of [Redacted] was "zeroed out" and he felt
[Redacted] record was the strongest in terms of narrative remarks. He said that at
least twice [Redacted] record was zeroed out". As Board President, he called
attention to it. RADM lack said, “I felt the need to speak out on this one.” RADM
Black stated that he voted “100" for [Redacted].
RADM Black said that he has spoken to CHNAVPERS about concerns with the
selection process. He indicated that a board member can vote “zero” in a
“preemptive strike” and take out a record. RADM Black gave an example of how 4
members voting “100" and 1 member voting “0" can affect the selection of a record
without accountability.
5. Did [Redacted] make any comments about [Redacted] or her record? Were
the comments positive or negative? What did she say? What was the
response of the other board members to her comments?
RADM Black stated that [Redacted] did not make a single negative statement about
[Redacted] during the board. He also said that outside of the board he never heard
[Redacted] make any negative comments.
6. Have you ever heard [Redacted] Make any derogatory statements about
[Redacted]? When were these comments made; before, during, or after the
selection board?
RADM Black stated that outside of the board he never heard [Redacted]make any
negative comments about [Redacted].

Page 2 of 2

A174

In re Navy Chaplaincy
07-mc-269
Exhibit 7

REPORT OF INTERVIEW
[Redacted]
was interviewed telephonically
on 18 May 2000 by [Redacted ], BUPERS IG regarding her allegation of misconduct by
[Redacted]
, during the FY00 Chaplain Corps (CHC) 0-6 Selection Board which
resulted in her failure of selection.
[Redacted]
motivation for filing the complaint was to preserve the integrity of
the selection process. She noted there are lots contesting board results and the number
will rise. She stated there is a perception in the Chaplain Corps that board members can’t be
trusted, tenets are ignored, and private agendas are pursued. She knew of instances where
chaplains who were known to be dishonest or who had “caught red-handed” acting
improperly on a board, continued to be allowed to sit on selection boards [Redacted]
[Redacted]
as one who had been improperly passed over by a selection
board. She stated his record was eventually corrected and he receive the promotion, however
the board member concerned, an 0-6, continued to sit on selection boards. She also stated
[Redacted] (sp?), a senior chaplain a [sic] at Naval Hospital, complained about certain
officers serving on boards to the detailer [Redacted]
but nothing was done.
[Redacted] stated she was not concerned about her own promotion date and had not initially
questioned the board’s result or membership until other chaplains began expressing their
concerns to her.
The following questions were discussed with [Redacted]
1. Do you know [Redacted] personally? When and how did you meet? Have you ever
served with her?
[Redacted] stated she had met [Redacted]
17-18 years ago when they were both
assigned to sub tenders. Their contact with each other over the years has been limited to brief
encounters and professional correspondence. She remembered both had once attended a 1-2 day
seminar on ministering to submariners but did not recall having daily discussions wit!
[Redacted]
remembered exchanging greetings with her once in the Chief of
Chaplains office and that [Redacted] had given a lecture at the Supervisor Chaplain course
while [Redacted]
the Basic Course. [Redacted]
current
position at CNETis not in [Redacted] chain of command, however, she is in
[Redacted] chain of influence. They exchange business e-mails concerning statistics and
notices.
2. Were you aware of the opinions expressed by
you? How did you become aware? When?

[Redacted] to [Redacted] concerning

[Redacted]
stated she initially had not been concerned about not making 0-6, even
knowing that [Redacted]
had been a member of the board. Two-three weeks after she
heard she had been passed over [Redacted]
called her to offer his condolences. During the
call he told her "here's some information regarding why you may have been passed over" and
related the information contained in her complaint [Redacted]
stated he had never
mentioned this information to her before. [Redacted] told her he believed [Redacted]
was entirely capable of working to get her passed over intentionally and dishonestly
and that he would help [Redacted]
if she contested the board [Redacted]
stated she was surprised at the information he told her.

07-mc-269 (JDB)
Exhibit 33

18

A175

3. Have you ever heard of her expressing these opinions to anyone else?
them to you?

Has she ever expressed

[Redacted]
stated that soon after receiving the phone call from
[Redacted] she
received one from
[Redacted] saying similar things.
[Redacted]
told her
[Redacted]
and everything she stood for, and as soon as
she heard [Redacted]
member of the board she knew [Redacted]
was
doomed.
[Redacted] many other chaplains called her after she failed to select and
indicated they felt [Redacted]
had precluded her promotion but did not have any specific
information. She described it as an "outpouring of concern" not just toward her but geared
toward the promotion possibility of conservative women chaplains.
[Redacted]
stated
she was unaware of [Redacted]
opinions toward her and indicated she was always
"sweet and smiley to her face".
4. Why do you think

[Redacted]

holds these opinions?

[Redacted] stated that [Redacted]
has a service reputation of being a militant
feminist and is, according to the Chaplain Corps grapevine, a "femi-nazi" feeling that the more
conservative female chaplains were bad for the cause of women.
[Redacted] indicated
there were four other female O-6 chaplains who all had the same reputation. She stated
[Redacted] emphatically believed all these officers “were in cahoots” together to keep conservative
females from getting anywhere in the Chaplain Corps. Chaplain Graham told [Redacted]
she feared reprisal and would not write a letter regarding the information she had her to
include in the complaint. When asked why she felt [Redacted]
might make the
comments [Redacted] had related to her, she indicated she could only base an opinion on
gossip and innuendoes. [Redacted]
did state that she and [Redacted] present
themselves differently as women officers [Redacted]
stated she does not downplay her
femininity when in uniform, while [Redacted]
does not emphasize hers. It was her
opinion that
[Redacted] may feel threatened by that and based or
[Redacted]
experience counseling rape victims she felt [Redacted] seemed to fit the pattern of
someone who had been sexually assaulted or abused.
5. When did you learn [Redacted]was a member of the selection board? How did you
find this out?
[Redacted] stated board membership is secret until the board convenes, then the
detailers put out a message. She did not find out [Redacted]
was on the board until then.
While she recognized [Redacted]
name, no flags were raised until she received the
phone calls from [Redacted] and
[Redacted]
stated she had not
corresponded with the board.
6. Do you believe these opinions prejudices [Redacted]
carrying out her oath as a member of the selection board?

against you and prevented her from

[Redacted]
answered this question with a very strong yes. It was her belief that
[Redacted] did not want to put her opinions aside in order to rate [Redacted] solely on the
contents of her service record.

07-mc-269 (JDB)
Exhibit 33

19

A176

7. Have you ever served on a selection board? Based on that experience do you feel that one
officer can influence the vote of the blard for or against someone’s promotion? Why do you
feel this way?
[Redacted]
stated she had served on approximately six selection boards. She has seen
the process and how it could be perverted if someone wanted because of the vehicle of secret
voting. She felt [Redacted]
could have influenced the board by voting 100 for other
officers (inflating their score) and then zeroing her record out. She could not believe other board
members would have tolerated comments.
[Redacted]
stated she would like to see the
votes not be anonymous and be open like the Marine Corps does.
8. Selection boards review many outstanding records but can only select a finite number for
promotion. Why do you feel [Redacted]
opinions caused you to fail to select rather than it
simply being a matter of the board not being able to select everyone who was qualified?
[Redacted]
stated she would agree with this statement if her record had been ranked 25.
However, she recalled a conversation Commanding Officer of SUBSCHCOOL [Redacted]
at the time she was passed over. She stated he had offered condolences to her and told her RADM
Padgett, Northwest Region, had told him the board could only select 12 and she had been ranked
13. Additionally, she receive a letter of condolence from Chaplain Black stating he was
“personally disappointed that she did not make it.”
[Redacted]
felt this indicated he may
have had some suspicions. Based on the above and the information from other chaplains
discussed earlier [Redacted]
it was not simply a matter of her record not making the
cut.
9. Have you had any contact with

[Redacted] since the selection board reported out?

[Redacted]
Stated her contact with [Redacted] Has been limited mostly to business
e-mails and sending reports.
[Redacted] stated she had sent [Redacted]
a card
when her father was ill and she had received a thank you note from her. [Redacted] sent
her an e-mail of condolences when [Redacted]
was passed over, however, she did
not send any congratulations when
[Redacted] was selected for promotion.

07-mc-269 (JDB)
Exhibit 33

20

A177

COUNSEL’S STATEMENT CONCERNING CDR WASHBURN’S IDENTIFICATION AS
THE WITNESS FOR THIS SUMMARY OF TESTIMONY TO THE NAVAL INSPECTOR
GENERAL
The interview here, and Exhibits 14 (the investigation report) and 15 (RADM Black),
were obtained under a Freedom of Information Request for the Naval Inspector General’s
investigation concerning the complaint by then CDR Mary Washburn about misconduct on the
FY 2000 Chaplain Captain selection board that led to her non-selection. The Navy’s FOIA
response provided documents specifically identifying CDR Washburn, her endorser, and the
investigation of her complaint. The FOIA response fit with what was publicly known about the
case, e.g., she wrote Sen. Santorum for help and was subsequently selected for Captain in FY
01. The opening NIG statement identifies the witness as the originator of the complaint, then
CDR Mary Washburn:
[Redacted] was interviewed telephonically on 18 May 2000 by [Redacted ],
BUPERS IG regarding her allegation of misconduct by [Redacted]
,
during the FY00 Chaplain Corps (CHC) 0-6 Selection Board which resulted in
her failure of selection. [Emphasis added]
That could only be then CDR Washburn, the person who filed the complainant based on “her
allegation of misconduct ... which resulted in her failure of selection.” (Emphasis added). See
NIG Report, B-2, ¶ 6.a. Question 8 also asks about her failure of selection.
The second numbered question asks: “Were you aware of the opinions expressed by
[Redacted] to [Redacted] concerning you? How did you become aware? This could only be
directed at the complainant, CDR Washburn, given the context of the questions and
investigation.
Many of the NIG’s questions address issues and questions that could only be answered
by CDR Washburn or had relevance only in the context of her as the complainant or victim, e.g.,
Nos. 8 and 9. There is no question this is CDR Washburn’s testimony.
/S/ Arthur A. Schulcz, Sr.
Arthur A. Schulcz, Sr.

07-mc-269 (JDB)
Exhibit 33

A178

Counsel for Plaintiff

07-mc-269 (JDB)
Exhibit 33

22

A179

Office of the Naval Inspector General

Case Number: 200800991

Report of Invest�gation

27 March 2009

Subj:

SENIOR OFFICIAL CASE 200800991; ALLEGED REPRISAL AND ABUSE
OF TRAVEL AND LEAVE ICO RDML ALAN T. BAI<ER, CHC, OSN

*****

Prel:i.minary Statement

1, In a series of communications with NAVINSGEN between July and
November 2008, t
: :
PlP
:: 1, alleged that he was
a victim of reprisal, as defined by the Military Whistleblower
Protection Act (MWPA} (10 USC§ 1034}, because of protected
communications he had made while serving in the office of the
I
Chaplain of the Marine Corps t 11;?)[,XC L Allegedly, in c : me
1. ori::: . · I, he made written and verbal complaints of mistreatment
and a hostile working environment against RDML Alan T. Baker,
CHC, USN < Chaplain of the Marine Corps/Deputy Chief of Chaplains.
Allegedly, '---------,...lu..,,..______..... , he also verbally
admonished RDML Baker not to take certain planned trips at
Government expense, because the trips were personal, rather than
official. Allegedly, in February 2008, RDML Baker took reprisal
action against I
§7¢
r because of his protected communications
by using his (the Admiral's) position and influence as President
of the FY-09 Captain (0-6) Chaplain Corps (CHC) Promotion
Selection Board to ensure I
·bZc.
, non-selection for
promotion.
2. The protracted preliminary inquiry in this case was due to
difficulty in determining whether there was sufficient evidence
of protected communications or unfavorable personal actions
(i.e., acts of reprisal) that met MWPA guidelines. Ultimately,
however, we determined that there was sufficient credible
evidence to warrant a full MWPA reprisal investigation. As well,
we determined that an emergent alleiation of travel and leave
abuse also warranted investigation.
We so notified the DOD
Inspector General on 4 December 2008.·
Background

3

======================.wi====================:==.=1

;:.
3:·
,_
• RDML
Baker assumed duties as Chaplain of the Marine Corps/Deputy Chief
of Chaplains on 14 June 2006. In August 2006, the Chief of

1Although not specifically alleged, leave abuse derives from alleged travel at
Government expense for purposes that were personal and should have been
conducted at personal expense, and possibly, while on leave.
FOR 01':J:;J;CU.X. USE om.¥1

A180

In Re Navy Chaplaincy
07-mc-269 (JDB
EXHIBIT 14

A. As a sponsor I would, I would not have disallowed such a
comment because it 1 s part of the official record. If he said,
"And refer back to the fitrep and see what the write-up says,"
then -Q.
"And you 1 11 see that, you know, it I s weak. And we• re looking
for leaders and basically leadership is not in there. But on the
other hand when I was face-to-face with that officer, ! ... gave him
a 5.0, EP, wrote in there 1'recommended for early selection to
Captain.n Bot now I'm on the board and I'm yanking that out from
under him."

A. And I would say as a board sponsor that that happens all the
time. We see frequently where reporting seniors will debrief an
officer with their fitrep telling them they're the best thing
since sliced bread, but when the record comes up before the board,
a subtle communication to the board with respect to actually
whether it's leadership qualities, whether it 1 s, you know,
whatever, the board interprets those differently,
All right. Well, the ~officers that were on the board
that I talked to who had, who sat on a number of boards, one in
particular was taken aback by comments that ADM Baker made on a
number of occasions and wasn't sure that was because this was a
staff corps board and we're a bunch of knuckle-headed line
officers and we don't understand and we need to be educated or
what, but was taken aback somewhat .... And that officer 1 s
experience from sitting on other boards was that if a member of
the board had been a reporting senior on an officer whose record
was before the board, they would -- they would either. say
something very positive or not say anything at all.
Q.

A.

That's typically my experience.

Analysis of the Board's Deliberations
On c:=::::i;:m==J Record

1\ic
50. RDML Baker did not recall commenting on
I record,
but 5 of the 9 other persons present (members and recorders)
specifically recalled that there was a discussion and that RDML
Baker added his comments. RDML Baker denied that he commented
negatively on the fitness report he issued to I
6/r
I_ He
reasoned that if he had, he would have been shouted down by other
members and the PERS-80 representative, for to do so would have
violated the board's precept. Conversely, 3 of those who
recalled RDML Baker commenting, recalled that he commented
negatively.
Further, I 1111\
opined that if RDML Baker had
couched his comments in terms of the "write-up" of the fitness
report he had issued, I
blo
I) would \'not have disallowed"
it, even if it was a "subtle communication" that the board could
have interpreted "differently."

FeR eFFieI!l:fi ffSE
28

A181

=

51. It is not surprising that, as a group, the recorders had
clearer recollections concerning== than.did the voting
members. All three were Chaplains, two were personally
acquainted with c::=m==::::i, and they had all spent the previous
week scrubbing the records of all of the eligibles. They very
consistently recalled that during deliberations on i
olc
,
record, RDML Baker did comment on the fitness report he had
issued to
Two recalled that it was a negative comment
that could be interpreted as saying that r:::=m:::::::::i did not have
the requisite leadership characteristics to be selected for 0-6.
The third could not characterize the comment, except to say that
i t had not raised a "red flag" with him and that l!ffil had not seen
it "as inappropriate at the time."
52. Conversely, not a single board member recalled deliberations
on c:::;;~~;~~;;=record until prompted, and then only vaguely.
Only~
, the
Five of the six members had a
positive opinion of RDML Baker's performance as President. Only
c:=:::l!Jc=:::i expressed any concerns; rum had strong feelings that
RDML Baker had a "tendency through the board to add things that
he probably shouldn't have." 1
6/c
i recalled RDML Baker
commenting negatively on
67c
7, but
testimony is offset
by I
67c
I, the
, who recalled RDML Baker
commenting positively on
b/4
,.

i=====m.====::::i,

=

53. Conclusion. We find that the testimony of the recorders is
powerful and sufficient to meet the preponderance of the evidence
standard by which we conclude that RDML Baker did make a subtle,
but negative comment about 1
6/c
• during board deliberations.
Further, given the informal resolution of L
tile
EO complaint, RDML Baker's actions must be viewed in the context
of his signed agreement to be fair if assigned to c::::::::tt==== 0-6
promotion board. We conclude that the negative comment was not
fair and that it constituted an unfavorable personnel action, in
that it either affected or had the potential to affect=
i §le J career by negatively influencing board members who were
voting at the time on whether or not I
iDlfoc
I should be
promoted.
54. Did responsible management official(s) know about the
protected cotmnurucation prior to taking, withholding, or
threatening the personnel action?
55. Yes, as depicted in the table below, RDML Baker acknowledged
that he was aware of most, but not all, of I
b7c
l protected
communications.

i?SR 8PFIC=E1ib 'EJSB ONf.Y

29

A182

summary of CDR Brown's Protected Communications
Date

I
I

b7c

Communication

RMO Aware

Status

Yes/No

Protected

No

Protected

Yes

Protected

Yes

l?l:otec:ted

Yes

I

Protected

Yes

b7c
e-mail to I
I
alleging 1'hostile working
67c
environment." I
I verbally
alerts j
who believes
b7c
he passed concerns on to ROML Baker.

Protected

No

l ve:rbally admonished ROML
Baker not to take personal trips at

I

I

~Pc

.Protected

I

blc

Government E!.xnense.
fl e-mail to RDML Baker
alleges he has been treated unfairly
(i.e. r that he is a victim of

I

nze

discrimination}.
meeting with !
Ole
(RDML Beker Acting Chief at
time), where he verbally expresses
unfair treatment issues alluded to in
his l Mar e-mail.
I
nm I ssnds memo to RDML Baker
detailing his concerns about fairness
and equal treatment.

I

'

5?i;;

I

570

j

'

n,e I meets with RDML Baker and
others to discuss his concerns about
fairnesa and eaual treatment.

I

Q7g 7

,,

56. Does a preponderance of the evidence establish that the
personnel action(s) would have been taken absent the protected
cott1Im.mication?

57. No, in that RDML Baker denied that he even took the action,
he did not attempt to provide any independent basis that would
have justified it. In fact, he argued that if the alleged
comment had been made, it would have been wholly improper and a
violation of the board's precept. We do not necessarily agree
that such a comment would have violated the precept, but we did
find that, within the guidelines of the Military Whistleblower
Protection Act, it constituted an unfavorable personnel action.
Therefore, absent the establishment of an independent basis for
it, we must conclude that it would not have been taken, but for
ate
i protected communications.
Conclusion
58. By a preponderance of the evidence, we conclude that the
allegation of reprisal by RDML Baker is substantiated.

*****
!!'Oft

OFFICil'<L 532
30

A183

Olff;'{

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CHAPLAINCY OF FULL GOSPEL CHURCHES)
)
Plaintiff
)
V.
)
)
THE HONORABLE RICHARD J.DANZIG,. )
)
et al.,
)
)

Civil Action NO. 1:99CV02945

Affidavit of Floyd Cedric Ellison
1. May name is Floyd Cedric Ellison. I was born March 28, 1937 and reside at 535 “J.” Street,
Chula Vista, California, 91910. I have personal knowledge of and am competent to testify concerning
the information presented in this affidavit.
2. I completed my undergraduate education at Augustana College in Rock Island, Illinois in
June, 1959. My Master of Divinity in May of 1963, the Master of Religious Education, June 1971, and
the Doctor of Ministry in June of 1981were degrees each completed with the American Baptist seminary
of the West located in Berkeley California.
3. After I was endorsed by the American Baptist Churches, I was commissioned as a chaplain on
March 22, 1972, and entered active duty in the Navy on February 1, 1974.
4. I was selected for early retirement by the Selective Early Retirement Board (SERB) for FY
1997, and I was separated (retired) from the Navy on August 1, 1997
5. During June of 1996 I turned over the position of Command (Senior) Chaplain, Naval
Construction Battalion Center, Port Hueneme, California to the new incoming Command Chaplain,

In re Navy Chaplaincy
07-mc-269 (GK)
Exhibit 9

A184

Affidavit of Floyd Cedric Ellison
Page 2 of 3
Captain Jim Anderson. Captain Anderson had just that previous February 1996, set on the Chaplain
Corps Captain selection board as one of its five Board members. He was the only Catholic chaplain on
the board. Traditionally there was always a minimum of one priest on each board.
6. During Chaplain Anderson’s and my turnover process, Chaplain Anderson described an event
which he said occurred during the FY 97 Captain Selection Board proceedings conducted earlier that
February of 1996. He said that after the initial votes were cast, not one Catholic chaplain had been
selected for Captain. He mentioned his concern to the board, and a woman officer on the board told him,
“Well I am Catholic, and I know several of these Catholic chaplains; they’re certainly not Captain
material!” According to Chaplain Anderson, the following day, he again brought up the issue, and said
that there would be a hue-and-cry from the Catholic Military Archdiocese, and they would never hear
the end of it, if at least on Catholic or not selected. Chaplain Anderson, a Columban Order priest, then
brought out the record of fellow Franciscan Order priest, Lewis Iasiello, whom the board then voted on,
and in fact selected two years junior to the other selectees. Chaplain Anderson did not mention any other
faith groups threatening retribution if there candidates were not selected during the board’s proceedings.
7. I turned over the position to Chaplain Anderson, and reported to Guam where the following
year I was selected for early retirement, effective August 1, 1997.
Under penalty of perjury, I affirm that the above information is true and correct to the best of my
ability and reflects the testimony I would give if called to testify in a court of law.
/S/ Floyd Cedric Ellison
Floyd Cedric Ellison
Captain, Chaplain Corps
U. S. Navy (retired)

In re Navy Chaplaincy
07-mc-269 (GK)
Exhibit 9

A185

Affidavit of Floyd Cedric Ellison
Page 3 of 3
Subscribed and sworn to before me this 31st day of January, 2000.

/S/
Haydee La Bounty
Notary Public
My Commission expires: 11-2-2003

HAYDEE LA BOUNTY
NOTARY SEAL

In re Navy Chaplaincy
07-mc-269 (GK)
Exhibit 9

A186

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CHAPLAINCY OF FULL GOSPEL CHURCHES, )
)
v.
)
)
THE HON. GORDON R. ENGLAND, et al.
)
)
)
ROBERT H. ADAIR, et al.,
)
)
v.
)
)
THE HON. GORDON R. ENGLAND, et al.
)
)

Case Number 1: 99CV002945 (RMU)
Consolidated with

Case Number 1: 00CV00566 (RMU)

DECLARATION OF KLON K. KITCHEN JR.
Pursuant to 28 U.S.C. § 1746, I, KLON K. KITCHEN JR. declare as follows:
1.

I live at 107 Falcon Dr., Richmond Hill, GA 31324. I am competent to testify on and

have personal knowledge of the matters addressed or discussed in this Declaration.
2.

I am an Army chaplain at the grade of Captain, currently assigned to Fort Stewart,

GA. I have recently been selected for promotion to the rank of Major (O-4).
3.

Prior to becoming an Army chaplain, I was a Navy chaplain until I was separated after

being twice not selected for promotion to Lieutenant Commander (LCDR). I am a plaintiff in
the Chaplaincy of Full Gospel Churches lawsuit and this declaration addresses an incident that
occurred during my time as a Navy chaplain.
4.
5.

Around May of 1996, I was assigned to Marine Air Group (MAG) 31 at Beaufort, S.C.
I was present at a luncheon with Chaplain (Captain) Wayne Bumbry from the 2D Marine

Air Wing and Chaplain (Commander) Norman Brown, the MAG 31 senior chaplain, and Chaplain
(LCDR) Dave Gibson, also of MAG 31.
6.

During this luncheon, Chaplain Bumbry said that he had recently sat on a Chaplain

Page 1 of 2

A187

In re Navy Chaplaincy
07-mc-269 (GK)
Exhibit 10

Captain selection board and that at the end of the board they realized that they had not
selected any Catholics for Captain. He told us that the board members had to reconvene in
order to pick a Catholic and deselected a Protestant to do so, i.e., took someone off the list
that had already been selected.
7.

I remember this distinctly because having been twice passed over (not selected) to

Lieutenant Commander I was on my way out of the Navy, this was my last month on active
duty, and I was upset that a promotion board would deselect someone merely to make sure
they had a Catholic selectee.
I make this declaration under the penalty of perjury, it is true and accurate to the
best of my ability, and it represents the testimony I would give if called upon to testify in a
court of law.

Dated: January 16, 2002

/S/
KLON K. KITCHEN, JR.

Page 2 of 2

A188

In re Navy Chaplaincy
07-mc-269 (GK)
Exhibit 10

DECLARATION OF GARY PAUL STEWART
Pursuant to 28 U.S.C. § 1746, I, Gary Paul Stewart, declare as follows:
1.
I live at 10803 Tides Court, Fredericksburg, Virginia. I am a chaplain at
the grade of Lieutenant Commander currently assigned to Marine Corps Base
Quantico, VA. I am competent to testify on and have personal knowledge of the
matters addressed or discussed in this declaration.
2.
I was a recorder on the Fiscal Year 91 Chaplain Staff Corps Lieutenant
Commander Promotion Board (the “Board”).
3.
As a recorder, I was responsible for making sure all the chaplain records
appearing before the Board were complete and in order. This can only be
accomplished by reviewing the records to make sure that all the appropriate
information is current and complete, e.g., photos, awards, and reports, and no
improper material is in a chaplain’s file.
4.
In doing this, I reviewed all the records of those appearing before the
Board. I was in a position to have seen the quality of the fitness reports and
records of those considered by the Board, both those selected and not selected.
5.
I can state without equivocation, and without revealing the "proceedings"
of the Board, that the record of one Catholic selected for promotion to Lieutenant
Commander was grossly inferior to other chaplains who were passed over for
promotion, including at least one non-liturgical chaplain who is a named plaintiff.
In addition, the the chaplain selected with the far inferior record was grossly
overweight, a fact well known throughout the Chaplain Corps.
6.
It was made known to me after the Board concluded that this chaplain
had been charged with multiple counts of pedophilia while previously stationed in
Sigonella, Italy, a fact that was not recorded in his records at the time the Board
considered and promoted him to the rank of Lieutenant Commander.
7.
I witnessed the discussion about and selection of this chaplain.
8.
I am requesting that the Court, as a higher authority, direct the Secretary
of the Navy to relieve me of my oath so that I can testify publicly to what I
witnessed and heard. I believe it is highly relevant to the issue of misconduct on
promotion boards and unconstitutional preferences within the United States Navy
and the evidence I will reveal is not available from other, non restricted sources.
9.
I am in no way being compelled to testify on this matter, but desire to
testify of my own accord, to preserve a clear conscience, and to protect the Navy
and those that serve it from discrimination and prejudice.
***
I make this declaration under the penalty of perjury, it is true and accurate
to the best of my ability, and it represents a portion of the testimony I would give
if called upon to testify in a court of law. It is here limited due to the oath of
secrecy enforced upon me by the Secretary of the Navy.
Dated: 13 August 2004

/S/ Gary Paul Stewart

GARY PAUL STEWART
In re Navy Chaplaincy
07-mc-269 (GK)
Exhibit 35

A189

A190

